<html>
<title> - PROTECTING AMERICA FROM ASSAULT WEAPONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                PROTECTING AMERICA FROM ASSAULT WEAPONS

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     Wednesday, September 25, 2019

                               __________

                           Serial No. 116-52

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
         


               Available via: http://judiciary.house.gov
               
               
               
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
44-091              WASHINGTON : 2021                
               
               
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               DEBBIE MUCARSEL-POWELL, Florida
HENRY C. ``HANK'' JOHNSON, Jr.,      VERONICA ESCOBAR, Texas
    Georgia                          F. JAMES SENSENBRENNER, Jr., 
THEODORE E. DEUTCH, Florida              Wisconsin
KAREN BASS, California               STEVE CHABOT, Ohio
CEDRIC L. RICHMOND, Louisiana        LOUIE GOHMERT, Texas
HAKEEM S. JEFFRIES, New York         JIM JORDAN, Ohio
DAVID N. CICILLINE, Rhode Island     KEN BUCK, Colorado
ERIC SWALWELL, California            JOHN RATCLIFFE, Texas
TED LIEU, California                 MARTHA ROBY, Alabama
JAMIE RASKIN, Maryland               MATT GAETZ, Florida
PRAMILA JAYAPAL, Washington          MIKE JOHNSON, Louisiana
VAL BUTLER DEMINGS, Florida          ANDY BIGGS, Arizona
J. LUIS CORREA, California           TOM McCLINTOCK, California
SYLVIA R. GARCIA, Texas              DEBBIE LESKO, Arizona
JOE NEGUSE, Colorado                 GUY RESCHENTHALER, Pennsylvania
LUCY MCBATH, Georgia                 BEN CLINE, Virginia
GREG STANTON, Arizona                KELLY ARMSTRONG, North Dakota
MADELEINE DEAN, Pennsylvania         W. GREGORY STEUBE, Florida

        PERRY APELBAUM, Majority Staff Director & Chief Counsel
                BRENDAN BELAIR, Minority Staff Director

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                     KAREN BASS, California, Chair
                    VAL DEMINGS, Florida, Vice-Chair
SHEILA JACKSON LEE, Texas            JOHN RATCLIFFE, Texas, Ranking 
LUCY MCBATH, Georgia                     Member
TED DEUTCH, Florida                  F. JAMES SENSENBRENNER, Jr., 
CEDRIC RICHMOND, Louisiana               Wisconsin
HAKEEM JEFFRIES, New York            STEVE CHABOT, Ohio
DAVID N. CICILLINE, Rhode Island     LOUIE GOHMERT, Texas
TED LIEU, California                 TOM MCCLINTOCK, California
MADELEINE DEAN, Pennsylvania         DEBBIE LESKO, Arizona
DEBBIE MUCARSEL-POWELL, Florida      GUY RESCHENTHALER, Pennsylvania
STEVEN COHEN, Tennessee              BEN CLINE, Virgina
                                     W. GREGORY STEUBE, Florida

                   JOE GRAUPENSPERGER, Chief Counsel
                    JASON CERVENAK, Minority Counsel
                    
                    
                            C O N T E N T S

                     Wednesday, September 25, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chair, of the House, Committee on 
  the Judiciary..................................................     1
  Oral Testimony.................................................     1
  Prepared Statement.............................................     3
The Honorable Doug Collins, a Representative in Congress from the 
  State of Georgia, and Ranking Member of the House, Committee on 
  the Judiciary..................................................    39
  Oral Testimony.................................................    39

                               WITNESSES

Honorable Nan Whaley, Mayor of Dayton, Ohio......................     5
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Alejandro Rios-Tovar, M.D., Texas Tech University Health Sciences 
  Center, El Paso................................................     8
  Oral Testimony.................................................     8
  Prepared Statement.............................................     9
Rashall Brackney, Chief of Police, Charlottesville, Virginia.....    10
  Oral Testimony.................................................    10
  Prepared Statement.............................................    11
Kristen Rand, Legislative Director, Violence Policy Center.......    12
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Amy Swearer, Senior Legal Policy Analyst, Meese Center for Legal 
  and Judicial Studies, Heritage Foundation......................    21
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22
Dianna Muller, DC Project........................................    31
  Oral Testimony.................................................    31
  Prepared Statement.............................................    32
David Chipman, Senior Policy Advisor, Giffords Law Center........    35
  Oral Testimony.................................................    35
  Prepared Statement.............................................    36

   STATEMENTS, LETTERS, MATERIALS, ARTICLES SUBMITTED FOR THE RECORD

Statement submitted by Representative Jerrold Nadler, a Member of 
  Congress of New York, the Chair of the House, Committee on the 
  Judiciary for the record.......................................     3
Letter submitted by Representative David Cicilline a Member of 
  Congress of Rhode, Island, a Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security signed by nearly 150 
  organizations including Newtown Action Alliance and the Brady 
  Campaign regarding support for Assault Weapons Ban to the 
  Committee on the Judiciary for the record......................    56
Article submitted by Representative David Cicilline a Member of 
  Congress of Rhode, Island, a Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security a report from Violence 
  Policy Center regarding law enforcement officers slain in the 
  line of duty, for the record...................................    62
Article submitted by Representative David Cicilline a Member of 
  Congress of Rhode, Island, a Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security regarding American 
  Association for the Surgery of Trauma (AAST) 2018 study 
  published in the Journal of Trauma Acute Care Surgery, for the 
  record.........................................................    66
Article submitted by Representative David Cicilline a Member of 
  Congress of Rhode, Island, a Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security regarding Politico's 
  Morning Consulting poll supporting an assault weapons ban, for 
  the record.....................................................    78
Article submitted by Representative David Cicilline a Member of 
  Congress of Rhode, Island, a Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security regarding Fox News poll 
  supporting an assault weapons ban, for the record..............    84
Statement submitted by Representative Theodore Deutch a Member of 
  Congress of Florida, a Member of the Subcommittee on Crime, 
  Terrorism, and Homeland Security from Jennifer Guttenberg and 
  Ryan Deutch, for the record....................................   102

                                APPENDIX

Changes in U.S. mass shooting deaths associated with the 1994-
  2004 federal assault weapons ban: Analysis of Open-Source Date 
  by Representative Sheila Jackson Lee, a Member of Congress of 
  Texas, and a Member of the House, Committee on the Judiciary, 
  Subcommittee on Crime, Terrorism, and Homeland Security, for 
  the record.....................................................   134
Statement by Ryan Servaites, March For Our Lives Co-Founder & 
  Policy Fellow to the Committee on the Judiciary for the record.   135
Letter from Brent J. Cohen, Executive Director, Generation 
  Progress regarding gun violence prevention, to the Committee on 
  the Judiciary for the record...................................   138
Friends Committee on National Legislation's (FCNL) regarding gun 
  violence prevention to the Committee on the Judiciary for the 
  record.........................................................   163
The Coalition to Stop Gun Violence (CSGV) submit Assault Weapons 
  FAQ to the Committee on the Judiciary for the record...........   164
Violence Policy Center, Black Homicide Victimization in the 
  United States - An Analysis of 2016 Homicide Date to the 
  Committee on the Judiciary for the record......................   167
WOUNDED CITY--A Special Investigation of the Commercial Appeal 
  Exploring Memphis' Gun Violence Problem to the Committee on the 
  Judiciary for the record.......................................   181
The Daily Memphian--Memphis brainpower counters attacks of 
  trauma, distress on adolescents to the Committee on the 
  Judiciary for the record.......................................   226
Letter from Josh Horwitz, Executive Director, Coalition to Stop 
  Gun Violence regarding the Assault Weapons Ban of 2019 to 
  Representative Jerrold Nadler, a Member of Congress of New 
  York, Chair of the House, Committee on the Judiciary and 
  Representative, Doug Collins, a Member of Congress of Georgia 
  and Ranking Member of the House, Committee on the Judiciary for 
  the record.....................................................   243
Statement by Amnesty International USA (AIUSA) regarding gun 
  violence crisis to Representative Jerrold Nadler, a Member of 
  Congress of New York, Chair of the House, Committee on the 
  Judiciary and Representative, Doug Collins, a Member of 
  Congress of Georgia and Ranking Member of the House, Committee 
  on the Judiciary for the record................................   244


                PROTECTING AMERICA FROM ASSAULT WEAPONS

                              ----------                              


                           September 25, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2141, Rayburn Office Building, Hon. Jerrold Nadler [chairman of 
the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Cicilline, 
Swalwell, Lieu, Raskin, Jayapal, Demings, Correa, Scanlon, 
Garcia, Neguse, McBath, Stanton, Dean, Murcarsel-Powell, 
Escobar, Collins, Sensenbrenner, Chabot, Gohmert, Jordan, Buck, 
Ratcliffe, Johnson of Louisiana, Biggs, McClintock, Lesko, 
Reschenthaler, Cline, Armstrong, and Steube.
    Staff present: David Greengrass, Senior Counsel; John Doty, 
Senior Advisor; Moh Sharma, Member Services and Outreach 
Advisor; Julian Gerson, Staff Assistant; Ben Hernandez-Stern, 
Counsel, Crime Subcommittee; Joe Graupensperger, Chief Counsel, 
Crime Subcommittee; Veronica Eligan, Professional Staff Member, 
Crime Subcommittee; Brendan Blair, Minority Staff Director; 
Robert Parmiter, Minority Deputy Staff Director/Chief Counsel; 
Jon Ferro, Minority Parliamentarian/General Counsel; Jason 
Cervenak, Minority Chief Counsel, Crime Subcommittee; and Erica 
Barker, Minority Chief Legislative Clerk.
    Chair Nadler. The House Committee on the Judiciary will 
come to order.
    Without objection, the chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on Protecting 
America From Assault Weapons. I will now recognize myself for 
an opening statement.
    Assault weapons have been repeatedly used as weapons of 
weapons of deadly violence on our citizens. In just the last 2 
years, Las Vegas, Parkland, Pittsburgh, Poway, Gilroy, Midland, 
and Odessa have all seen horrible shootings, mass shooting, at 
the hands of gunmen with assault weapons. And only last month, 
we added El Paso and Dayton to the list of communities 
shattered by mass violence perpetrated by gunmen with assault 
weapons.
    Today's hearing is about whether America will tolerate 
weapons of war on our street and in our neighborhoods. Simply 
put, civilian assault weapons are just semi-automatic versions 
of military weapons. They have no purpose but to kill as many 
people as possible as quickly as possible. By allowing killers 
to rapidly and repeatedly fire bullets at their human targets 
without stopping to reload, assault weapons are designed for 
maximum bloodshed.
    Although 7 States plus the District of Columbia have passed 
laws addressing assault weapons, these State laws have proven 
too easy to evade. This is why I support a national ban on 
assault weapons. For example, despite California's ban on 
assault weapons, a man was able to drive across the border in 
Nevada to buy an assault weapon, a 75-round high-capacity 
magazine, plus 5 40-round magazines, and use this weapon to 
kill 3 people and wound 17 others in a matter of minutes at the 
Gilroy Garlic Festival. A gunman intent on killing, whether the 
target is one person or many, can hop over State lines, buy a 
gun, and return to kill others. We must examine this dangerous 
problem and how to address it.
    The 1994 Federal assault weapons ban, which expired in 
2004, was a watershed event that offers an important guide for 
our efforts today. Recent studies of the effectiveness of that 
law have shown that mass shooting fatalities were 70 percent 
less likely to occur compared to the periods before and after 
the ban. Another study found that the Federal assault weapons 
ban was associated with a 25 percent drop in gun massacres and 
a 40 percent drop in fatalities.
    The ban, however, was not without its shortcomings. During 
the ban, the gun industry, as usual, putting profits over 
morality, boasted of its ability to modify various assault 
weapons so that they were technically legal, but were still 
deadly instruments of mass killing. Writing of one AK-47 clone, 
Gun World magazine crowed, ``In spite of assault weapons 
bans''--I'm sorry--``In spite of assault rifle bans, bans on 
high-capacity magazines, the rantings of the anti-gun media, 
and the rifles and apolitical incorrectness, the Kalashnikov, 
in various forms and guises, has flourished. Today they are 
probably more models, accessories, and parts to choose from 
than ever before,'' thus boasting about how to evade the law, a 
law intended to protect human lives. As we consider how best to 
address the problem of assault weapons, we must examine the 
loopholes in the 1994 law that weakened its effectiveness.
    Although the lethal impact of assault weapons is horribly 
evident in mass shooting, assault weapons present a far broader 
problem. These weapons pose a daily threat to our communities, 
whether or not their use in particular instances cause mass 
casualties or make national news. They hold particular appeal 
to criminals who can wield terror with them, even without 
causing loss of life on a wide scale. For too long, the 
response in Congress to the daily toll of gun violence in our 
streets, in our schools, and in places of worship has been 
moments of silence. That has to change.
    Earlier this year, this Committee reported, and the House 
passed legislation, to expand and improve our background check 
system. This Committee recently approved bills to establish 
systems for extreme risk protection orders, ban large-capacity 
magazines, and prohibit individuals convicted of hate crime 
misdemeanors from possessing firearms. We will soon discover 
whether the Republican leadership of the Senate is still in 
abject fealty to the gun manufacturers or not when they 
consider this legislation.
    Today's hearing continues the important task of addressing 
our shameful national problem of gun violence. Today we will 
discuss assault weapons and examine options for dealing with 
these particularly dangerous weapons of war. Tomorrow, our 
Subcommittee on Crime, Terrorism, and Homeland Security will 
conduct a hearing concerning community response to gun violence 
in our cities. We must take a comprehensive approach to solving 
the national crisis of gun violence, an issue that for too long 
has been ignored by national leaders. We know that the American 
people want us to examine the facts and to find solutions, and 
this hearing is an important step towards that goal.
    I would like to recognize the survivors and advocates here 
today, including those from Newtown, Parkland, March for Our 
Lives, and Moms Demand Action. I thank you for your tireless 
advocacy. You inspire us all. I thank our witnesses for 
appearing today, and I look forward to their testimony. I 
understand that the Ranking Member is on his way. We will 
proceed to witness testimony at this time, and I will recognize 
the Ranking Member for his opening statement when he arrives.
    Without objection, all other opening statements will be 
included in the record.
    [The information follows:]

               STATEMENT OF CHAIR JERROLD NADLER

    Assault weapons have been repeatedly used as weapons of 
deadly violence on our citizens. In just the last two years, 
Las Vegas; Parkland; Pittsburgh; Poway; Gilroy; Midland; and 
Odessa have all seen horrific shootings at the hands of a 
gunman with assault weapons. Only last month, we added El Paso 
and Dayton to the list of communities shattered by mass 
violence perpetrated by a gunman armed with assault weapons.
    Today's hearing is about whether America will tolerate 
weapons of war on our streets and in our neighborhoods.
    Simply put, civilian assault weapons are just semiautomatic 
versions of military weapons. They have no purpose but to kill 
as many people as possible, as quickly as possible. By allowing 
killers to rapidly and repeatedly fire bullets at their human 
targets, without stopping to reload, assault weapons are 
designed for maximum bloodshed.
    Although seven states plus the District of Columbia have 
passed laws addressing assault weapons, these State laws have 
proven too easy to evade. This is one reason I support a 
national ban on assault weapons. For example, despite 
California's ban on assault weapons, a man was able to drive 
across the border into Nevada to buy an assault weapon, a 75-
round high capacity magazine, plus five 40-round magazines, and 
use this weapon to kill 3 people and wound 17 others in a 
matter of minutes at the Gilroy Garlic Festival.
    A gunman intent on killing, whether the target is one 
person or many, can hop over State lines, buy a gun, and return 
to kill others. We must examine this dangerous problem and how 
to address it.
    The 1994 federal Assault Weapons Ban, which expired in 
2004, was a watershed event that offers an important guide for 
our efforts today. Recent studies of the effectiveness of that 
law have showed that mass-shooting fatalities were 70% less 
likely to occur compared to the periods before and after the 
ban. Another study found that the federal assault weapons ban 
was associated with a 25 percent drop in gun massacres and a 40 
percent drop in fatalities.
    The ban, however, was not without its shortcomings. During 
the ban, the gun industry--putting profits over morality--
boasted of its ability to modify various assault weapons so 
that they were technically legal, but were still deadly 
instruments of mass killing.
    Writing of one AK-47 clone, Gun World magazine crowed, ``In 
spite of assault rifle bans, bans on high capacity magazines, 
the rantings of the anti-gun media and the rifle's innate 
political incorrectness, the Kalashnikov, in various forms and 
guises, has flourished. Today there are probably more models, 
accessories and parts to choose from than ever before.'' As we 
consider how best to address the problem of assault weapons, we 
must examine the loopholes in the 1994 law that weakened its 
effectiveness. 1Although the lethal impact of assault weapons 
is horrifically evident in mass shootings, assault weapons 
present a far broader problem. These weapons pose a daily 
threat to our communities, whether or not their use in 
particular instances cause mass casualties or make national 
news. They hold particular appeal to criminals, who can wield 
terror with them, even without causing loss of life on a wide 
scale.
    For too long, the response in Congress to the daily toll of 
gun violence on our streets, in our schools, and in places of 
worship has been moments of silence. That has changed. Earlier 
this year, this Committee reported. and the House passed, 
legislation to expand and improve our background check system, 
and this Committee recently approved bills to establish systems 
for extreme risk protection orders, ban large capacity 
magazines, and prohibit individuals convicted of hate crime 
misdemeanors from possessing firearms.
    Today's hearing continues the important task of addressing 
our shameful national problem of gun violence. Today, we will 
discuss assault weapons and examine options for dealing with 
these particularly dangerous weapons of war. And tomorrow, our 
Subcommittee on Crime, Terrorism, and Homeland Security will 
conduct a hearing concerning community responses to gun 
violence in our cities.
    We must take a comprehensive approach to solving the 
national crisis of gun violence, an issue that, for too long, 
has been ignored by national leaders. We know that the American 
people want us to examine the facts and to find solutions, and 
this hearing is an important step towards that goal.
    I thank our witnesses for appearing today, and I look 
forward to their testimony.

    Chair Nadler. I will now introduce today's witnesses.
    The Honorable Nan Whaley is the mayor of Dayton, Ohio. 
Since the mass shooting in Dayton this past August, Mayor 
Whaley has been a leading advocate for gun safety legislation. 
Before joining city government, Mayor Whaley served on the 
Montgomery County Board of Elections and as a deputy to the 
Montgomery County auditor. She received her B.A. from the 
University of Dayton and her M.P.A. from Wright State 
University.
    Dr. Alejandro Rios-Tovar--did I get that right?
    Dr. Rios-Tovar. Yes.
    Chair Nadler. Dr. Alejandro Rios-Tovar is a surgeon at the 
Texas Tech University Health Sciences Center in El Paso. After 
the mass shooting attacks at a Walmart in El Paso, Dr. Rios-
Tovar treated victims of the shooting. He received his M.D. 
from the University of Texas School of Medicine at San Antonio.
    Dr. RaShall Brackney--did I get that right?
    Chief Brackney. RaShall.
    Chair Nadler. RaShall. Dr. RaShall Brackney is the chief of 
police of Charlottesville, Virginia. Previously Dr. Brackney 
served for 30 years with the Pittsburgh Bureau of Police and 
served as the chief of police of the George Washington 
University. She was also the first African-American woman to 
oversee a special operations division. Dr. Brackney received 
her B.A. and M.A. from Carnegie-Melon University and her Ph.D. 
from Robert Morris University. She is also a graduate of the 
FBI National Academy in Quantico, Virginia.
    Kristen Rand is the legislative director for the Violence 
Policy Center. Before joining the Violence Policy Center in 
1994, Ms. Rand served as the counsel with Consumers Union. Ms. 
Rand received her B.A. from the University of Southern 
California and her J.D. from George Washington University.
    Am Swearer is a senior legal policy analyst in the Meese 
Center for Legal and Judicial Studies at the Heritage 
Foundation. Previously she held positions with the Charles Koch 
Institute and the Lancaster County, Nebraska Public Defender's 
Office. She received her Bachelor of Science in criminal 
justice and her J.D. from the University of Nebraska.
    Dianna Muller is the founder of the DC Project, a 
grassroots initiative to bring one woman from every State to 
Washington, DC each year to meet with legislators on behalf of 
gun owners. She is also a co-host of Shooting Gallery on the 
Outdoor Channel. Previously she served for 22 years in the 
Tulsa Police Department. Ms. Muller received a Bachelor of 
Science in criminal justice and psychology from the University 
of Central Missouri.
    David Chipman is the senior policy advisor at Giffords Law 
Center and is a member of the Firearms Committee of the 
International Association of Chiefs of Police. Prior to 
assuming his current position, Mr. Chipman served for 25 years 
as a special agent for the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives. Mr. Chipman received his B.A. from 
American University and his master's in management from Johns 
Hopkins University.
    We welcome all our distinguished witnesses, and we thank 
them for participating in today's hearing. Now, if you would 
please, I will begin by swearing you in. Raise your right hand.
    [Laughter.]
    Chair Nadler. Do you swear or affirm under penalty of 
perjury that the testimony you are about to give is true and 
correct to the best of your knowledge, information, and belief, 
so help you God?
    [A chorus of ayes.]
    Chair Nadler. You may be seated and thank you. Let the 
record show the witnesses answered in the affirmative.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals your 5 minutes have expired.
    Mayor Whaley, you may begin.

               TESTIMONY OF HONORABLE NAN WHALEY

    Ms. Whaley. Thank you, Chair Nadler. On August 4th at 1:00 
a.m., Dayton's Oregon District was bustling like it usually is 
with a diverse group of friends and neighbors enjoying a night 
out. People hopped between bars and restaurants as last call 
approached. Others waited in line at a popular taco truck for a 
late-night snack. That all changed in an instant.
    At 1:05 a.m., a young man armed with an AR-15 pistol 
variant walked down an alley between two bars and began 
spraying high-velocity rounds into the crowd. He then turned 
down a crowded street as people tried to run for safety. 
Friends pulled each other into doorways to try to escape 
falling bullets. One man threw his girlfriend to the ground and 
covered her body with his own. People literally ran out of 
their shoes. Less than 1 minute later, nine people were dead, 
and 17 others had been shot. Dozens more were injured in the 
commotion. 30-two seconds. In just 32 seconds, 26 people had 
been shot, nine families had lost loved ones, and dozens more 
would never be the same.
    The entire incident was over in half as much time as I have 
been speaking to you so far today. In those 32 seconds, the 
shooter's weapon did exactly what it was designed to do: kill 
or injure as many people as possible in the shortest amount of 
time. It was a weapon designed to inflict maximum damage to 
human beings. It left a trail of destruction, not on some 
foreign battlefield, but down a historic brick street in 
Dayton, Ohio.
    I visited the crime scene the morning after the shooting, 
and the thing I remember most clearly is the smell of bleach. A 
street sweeper was being used to try to clean the road, and men 
in HAZMAT suits were scrubbing the sidewalks. The meat still 
sat on the grill of the taco truck. Little yellow placards 
showing where bullet casings were found looked like they had 
been scattered without thought. I was in a place that was both 
completely familiar and completely foreign. The shooting 
occurred nearly 2 months ago, but our sidewalks are still 
stained after even numerous power washes, many buildings and 
street signs still have bullet holes in them, and these are 
just the physical scars left by the shooting.
    Young people who were in the district that night talk about 
their new fear of crowds. Bartenders in the neighborhood are 
consumed with anxiety at the sound of sirens. Neighbors dread 
the sound of fireworks after being awakened by gunfire. Our 
whole city is hurting, all because a young man with a history 
of violent ideas could get his hands on a weapon capable of 
such destruction. And yet we are lucky. Just 32 seconds after 
the shooting began, Dayton police neutralized the gunman. He 
was killed as he attempted to enter a bar where hundreds of 
people were hiding. If he shot 26 people on the street in 32 
seconds, what could he have done in that bar?
    We are so lucky that 7 Dayton police officers were less 
than a block away when the shooting began. We are so lucky that 
these officers relied on their training and their courage and 
ran directly into the gunfire. I have thought a lot about the 
bravery of the Dayton police and the impossible situation that 
confronted them. Why do we ask our first responders to face 
down weapons that can do so much damage in so little time?
    Our city has honored these heroes. The White House has 
honored these heroes. But if we are serious about honoring and 
thanking our brave first responders, the best thing we can do 
is make sure they are never put in this situation again. Police 
should not have to confront a weapon that can kill nine people 
in 32 seconds. No one should.
    The evening after the shooting, thousands of people 
gathered for a vigil on the same street where nine of their 
neighbors had died only hours earlier. When Governor Mike 
DeWine took the stage, hundreds of people shouted in 
frustration, ``Do something,'' ``Do something.'' The massacre 
that happened in Dayton and has happened in too many 
communities across this country demands a response. We must 
ensure that no one American, neither a young person on a casual 
night out nor a police officer on patrol, has to face down 
weapons capable of so much destruction.
    I'm here today on behalf of the citizens of Dayton and 
mayors across the country to ask you to keep weapons like this 
off of our streets. I'm here to ask you to do something. Thank 
you, Chair.
    [The statement of Ms. Whaley follows:]

                    STATEMENT OF NAN WHALEY

    On Saturday, August 4th at 1:00AM, Dayton's Oregon District 
was bustling like it usually is with a diverse group of friends 
and neighbors enjoying a night out. People hopped between bars 
and restaurants as last call approached. Others waited in line 
at a popular taco truck for a late-night snack.
    That all changed in an instant.
    At 1:05 a.m., a young man armed with an AR-15 pistol 
variant walked down an alley between two bars and began 
spraying high-capacity rounds into the crowd. He then turned 
down a crowded street as people tried to run for safety. 
Friends pulled each other into doorways to try to escape flying 
bullets. One man threw his girlfriend to the ground and covered 
her body with his own. People literally ran out of their shows.
    Less than a minute later, 9 people were dead, and 17 others 
had been shot. Dozens more were injured in the commotion. 
Thirty-two seconds. In just 32 seconds 26 people had been shot. 
Nine families had lost loved ones and dozens more will never 
been the same.
    The entire incident was over in half as much time as I have 
been speaking to you so far today.
    In those 32 seconds, the shooter's weapon did exactly what 
it was designed to do--kill or injure as many people as 
possible in the shortest amount of time. It was a weapon 
designed to inflict maximum damage to human beings. It left a 
trail of destruction not on some foreign battlefield, but down 
a historic brick street in Dayton, Ohio. These shootings are 
more than just numbers and statistics.
    The shooting occurred nearly two months ago, but our 
sidewalks are still stained even after numerous power washes. 
Many buildings and street signs still have bullet holes in 
them.
    I visited the crime scene the morning after the shooting, 
and the thing I remember mostly clearly is the smell of the 
bleach. A street sweeper was being used to try to clean the 
road and men in hazmat suits were scrubbing the sidewalks. The 
meat still sat on the grill of the taco truck. Little yellow 
placards showing where bullet casings were found looked like 
they had been scattered without thought. I was in a place that 
was both completely familiar, and completely foreign. I have 
seen crime scenes before. I have never seen anything like this.
    These are just the physical scars left by the shooting. In 
the weeks since, it has become very apparent that far more 
people are feeling the effects of this violence than those with 
physical injuries.
    Young people who were in the District that night talk about 
their new fear of crowds. Bartenders in the neighborhood are 
consumed with anxiety at the sound of sirens. Neighbors dread 
the sound of fireworks after being awakened by gunfire.
    Our whole city is hurting. All because a young man with a 
history of violent ideas could get his hands on a weapon 
capable of such destruction.
    Yet, we are lucky. Just 32 seconds after the shooting 
began, Dayton Police neutralized the gunman. He was killed as 
he attempted to enter a bar where hundreds of people were 
hiding. If he shot 26 people on the street in 32 seconds, what 
could he have done in that bar?
    We are so lucky that seven Dayton police officers were less 
than a block away when the shooting began. We are so lucky that 
these officers relied on their training and their courage and 
ran directly into the gunfire.
    I have thought a lot about the bravery of the Dayton Police 
and the impossible situation that confronted them. Why do we 
ask our first responders to face down weapons that can do so 
much damage in so little time?
    Our city has honored these heroes. The White House has 
honored these heroes. People from Dayton and around the country 
have expressed their gratitude.
    If we are serious about honoring and thanking our brave 
first responders, the best thing we can do is make sure they 
are never put in this situation again.
    Police should not have to confront a weapon that can kill 
nine people in 32 seconds.
    No one should.
    The evening after the shooting, thousands of people 
gathered for a vigil on the same street where nine of their 
neighbors had died only hours earlier. When Governor Mike 
DeWine took the stage, hundreds of people shouted in 
frustration, ``Do something.''
    Do something.
    What happened in Dayton and in too many other communities 
around this country--demands a response. We must ensure that no 
American--neither a young person on a casual night out nor a 
police officer on patrol--has to face down weapons capable of 
so much destruction.
    I'm here on behalf of the citizens of Dayton to ask you to 
keep weapons like this off of our streets. I'm here to ask you 
to do something.

    Chair Nadler. Thank you. Dr. Tovar?

            TESTIMONY OF ALEJANDRO RIOS-TOVAR, M.D.

    Dr. Rios-Tovar. Chair Nadler, Vice Chair Scanlon, Ranking 
Member Collins, and distinguished Members of the House 
Judiciary Committee. Thank you for the opportunity to come 
before you and to participate in this hearing.
    I've been a trauma surgeon and the associate trauma medical 
director at the University Medical Center in El Paso for the 
past 2 years. On the Saturday morning of August, the 3rd, I had 
just finished a typical 30-hour shift at the hospital with a 
usual gall bladder surgery. I picked up McDonald's on the way 
home, looking forward to eating, getting some sleep until 
Sunday morning when I'd have to do it all over again.
    Just after I got home at 10:55 a.m., I received a text 
message from my chairman of surgery who was out of town: 
``Active shooter, Walmart. Unknown number of victims.'' 
Honestly, I didn't think much of it. I had received an active 
shooter alert the month earlier, and the SWAT team only brought 
in one victim at the time. Dr. Susan McLean, my mentor and a 
trauma surgeon at the hospital, could surely handle this. A 
text 2 minutes later was sent to all surgeons in our group: 
``If anybody is in El Paso, go to the hospital. There's an 
active shooter, and we'll get at least 4 or 5 victims.'' By the 
time this text was sent, I would learn later, the shooting was 
over in just about 20 minutes, and more than 20 people were 
killed, more than 20 were injured, and countless lives would be 
changed.
    I ran red lights and sped to the hospital. I knew that most 
of these patients would require immediate surgery, and I was 
trying to coordinate who would be there to help operate. By the 
time I arrived, each of our six trauma bays had patients. Each 
needed surgery. Dr. McLean was already in the operating room 
with one of them. The one that drew my attention was a patient 
with a CPR in progress. She had been talking just a few minutes 
earlier, and now from her shoulder wound, she was lifeless. My 
resident and I quickly and methodically cut open her chest to 
begin manual cardiac compressions. Three liters of blood 
immediately spilled to the floor. After working for several 
minutes, I knew our efforts were futile, and I had to pronounce 
the time of death just 10 minutes after I had arrived to the 
hospital.
    The look of disappointment in my resident's eyes ate at me, 
but I couldn't process that now. We had more to do. I'm not a 
military surgeon, but what I saw looked like a war zone. Small 
gunshot wounds in the legs amounted to huge areas of cavitation 
and exit wounds larger than a grapefruit. I had never seen 
anything like this before. How could a firearm create this type 
of destruction?
    The next woman I treated was calmer than the rest. She had 
a third of her pelvis shattered into dozens of pieces. Multiple 
holes in her large and small intestines were too extensive to 
be repaired. In damage control surgery, decisions had to be 
made to remove parts of intestines instead of sewing the holes 
closed when there are more pressing issues to be addressed. In 
this case, it was clear none of the intestine could be 
salvaged. We packed it with temporary dressing when she was 
stabilized and planned to return her to surgery in a day or two 
to reassess for any missed injuries.
    I have treated countless patients with gunshot wounds from 
small firearms. In those cases, sometimes it's even difficult 
to find the holes because how small they are and the clean-cut 
appearance that looks like a pencil made them. Here, it was not 
so. We had 14 patients come in in the span of 34 minutes. The 
other main hospital in town received 11 patients. Seven of our 
patients went straight to the OR for surgery in that single 
hour, and most had to return to the operating room several more 
times. And their journey is still not done. In the next few 
months, temporary colostomies, multiple orthopedic type of 
procedures will have to be re-performed, and reversed, and 
closed.
    In the aftermath, 22 people lost their lives that day. We 
did save 13 out of the 14 patients that arrived to us, but that 
first patient haunts me every night. I wish I could've done 
more, and I blame myself for her death. I saw her autopsy 
recently to try and get some closure. She was protecting her 
child, and so she was actually shot in the back and through her 
shoulder. She had a hole the size of a baseball at the top of 
her lung. Her subclavian vessels were essentially nonexistent. 
If this injury had been caused by a small firearm, she may have 
had a chance at survival, but there was absolutely nothing I 
could do to fix that kind of devastating injury.
    I hope that she died knowing that she protected her child 
from the same fate. Thank you, Chair.
    [The statement of Dr. Rios-Tovar follows:]

             STATEMENT OF ALEJANDRO RIOS TOVAR, MD

    Chair Nadler, Vice Chair Scanlon, Ranking Member Collins, 
and distinguished Members of the House Judiciary Committee, 
thank you for the opportunity to come before you today to 
participate in this hearing.
    I have been a trauma surgeon at University Medical Center 
of El Paso for the past two years. On the Saturday morning of 
August 3rd, I had just finished a typical 30-hour shift at the 
hospital with the usual gallbladder surgery. I had picked up 
some McDonald's on the way home and was looking forward to 
eating and going to sleep until Sunday morning when I would be 
back at it again. Just after I got home at 10:55 a.m., I 
received a text message from my Chair of Surgery who was out of 
town: ``Active Shooter--Walmart/unknown number of victims.'' 
Honestly, I didn't think much of it; I had an active shooter 
alert the month earlier and the SWAT team brought in only one 
victim at the time. Susan McLean, my mentor and the trauma 
surgeon in the hospital, could surely handle this. A text two 
minutes later was sent to all surgeons in our group: ``If 
anyone is in El Paso, go to the hospital. There is an active 
shooter and we will get at least four or five victims.'' By the 
time this was sent, I would learn later, the shooting was over 
in just about 20 minutes, more than 20 people were killed, more 
than 20 injured, and countless lives would be changed.
    I ran red lights and sped to the hospital. I knew that most 
of these patients would require immediate surgery, and I was 
trying to coordinate who would be there to help operate. By the 
time I arrived, each of our six trauma bays had patients, each 
needing surgery. Dr. McLean was already in the operating room 
with one. The one that drew my attention was a patient with CPR 
in progress. She had been talking just minutes before, and now 
from a shoulder wound, she was lifeless. My resident and I 
quickly and methodically cut open her chest to begin manual 
cardiac compressions. Three liters of blood immediately spilled 
to the floor. After working for several minutes, I knew our 
efforts were futile and I had to pronounce the time of death; 
just ten minutes after I had arrived to the hospital. The look 
of disappointment in my resident's eyes ate at me; but I 
couldn't process that now. We had more to do.
    I am not a military surgeon, but what I saw looked like a 
war zone. Small gunshot wounds in legs amounted to huge areas 
of cavitation with exit wounds larger than grapefruit. I had 
never seen anything like this before. How could a firearm 
create this type of destruction? The next woman I treated was 
calmer than the rest. She had a third of her pelvis shattered 
into dozens of pieces. Multiple holes in her large and small 
intestine were too extensive to be repaired. In damage control 
surgery, decisions have to be made to remove parts of intestine 
instead of sewing the holes closed when there are more pressing 
injuries to be addressed. In this case, it was clear that none 
of that intestine could be salvaged. We packed with a temporary 
dressing once she stabilized and planned to return to surgery 
in a day to reassess for any missed injuries.
    I have treated countless patients with gunshot wounds from 
small firearms; in those cases, sometimes it is difficult to 
even find the holes because of the clean-cut appearance that 
looks like a pencil made the hole. Here, not so. We had 14 
patients come in the span of 34 minutes. The other main 
hospital received 11 patients. Seven of our patients went to 
the OR for surgery in that hour. Most had to return to the 
operating room several more times. Their journey is not done. 
In the next few months, temporary colostomies and the like will 
have to be reversed and closed.
    In the aftermath, 22 people lost their lives that day. We 
did save 13 of the 14 patients that arrived to us. That first 
patient haunts me every night. I wish I could have done more 
and I blame myself for her death. I saw her autopsy recently to 
try to get some closure. She was protecting her child, so she 
was actually shot in the back and out her shoulder. She had a 
hole the size of a baseball at the top of her lung. Her 
subclavian vessels were essentially nonexistent. If this injury 
had been caused by a smaller firearm, she may have had a chance 
at survival. There was absolutely nothing I could do to fix 
that kind of devastating injury. I hope that she died knowing 
that she protected her child from the same fate.

    Chair Nadler. Thank you. Chief Brackney?

                 TESTIMONY OF RASHALL BRACKNEY

    Chief Brackney. Committee Chair Representative Jerrold 
Nadler, Ranking Member Representative Collins, and Members of 
the U.S. House of Representatives Committee on the Judiciary, I 
bring you greetings on behalf of the executive board and 
Members of the National Organization of Black Law Enforcement 
Executives, NOBLE.
    As you know, my name is Dr. RaShall Brackney. I am a member 
of NOBLE and the chief of police for the Charlottesville Police 
Department in Charlottesville, Virginia, and all that that 
brings with it. It is an honor for NOBLE to provide written 
testimony on the topic of Protecting America from Assault 
Weapons.
    NOBLE is very concerned about the level of gun violence in 
the United States, and specifically the correlation between 
violence and the proliferation of assault weapons and high-
capacity ammunition magazines. It is our organization's opinion 
that violence, particularly gun violence, is a public health 
issue. As with all public health issues, it demands a 
comprehensive, nonjudgmental, pragmatic, evidence-based 
approach to saving lives and reducing injury.
    NOBLE, along with other organizations, such as the National 
Law Enforcement Partnership to Prevent Gun Violence, of which 
we are a member, is committed to addressing the pervasive 
nature of gun violence and its horrific impact on communities 
across America. Specifically, firearm-related injuries and 
deaths, to include homicides, suicides, and accidental 
shootings involving assault weapons, is unacceptable and 
demands immediate attention. To be clear, NOBLE defines assault 
weapons as ``semi-automatic guns with a high-capacity 
ammunition magazine designed for military use.'' We advocate 
for limiting high-capacity ammunition magazines to 10 rounds 
and the regulation of new semi-automatic assault weapons.
    In 2016, assault weapons accounted for 1 in 4 police 
officers killed in the line of duty through gun violence. NOBLE 
supported the Public Safety and Recreational Firearms Use 
Protection Act or Federal Assault Weapons Ban--AWB--of 1994, 
and the Federal Assault Weapons Ban Reauthorization Act of 
2004. We currently support H.R. 8, which is the bipartisan 
Background Checks Act of 2018, as does 90 percent of all 
Americans.
    Assault weapons have been used in many mass shootings, such 
as Marjory Stoneman Douglas High School in Parkland, Florida, 
the Tree of Life Synagogue Shooting, the Las Vegas Music 
Festival Shooting, and in El Paso. We believe the level and 
lethality of gun violence directed at police officers and our 
communities requires an organized and aggressive response from 
policymakers at the Federal, State, and local levels. Elected 
officials must commit to closing gaps in the current regulatory 
system, including those that enable felons, minors, and other 
prohibited persons to access firearms, and those that allow the 
trafficking of illegal guns.
    Law enforcement plays a central and critical role in 
preventing gun violence and solving crime. Effective strategies 
for the strict enforcement of laws concerning the illegal 
possession, trafficking, and criminal use of firearms are 
vital, and need to be supported by data, research, technology, 
training, and best practices. Because the public's health and 
safety depend on the efforts of law enforcement, agencies must 
have resources sufficient to prioritize the protection of 
officers and communities against illegal guns and firearm 
violence. The crisis of gun violence in our country 
necessitates a sustained, coordinated, and collaborative effort 
involving citizens, elected officials, law enforcement, and the 
entire criminal justice system.
    On behalf of the law enforcement leaders of NOBLE, we thank 
you for supporting law enforcement and our ability to maintain 
public safety while continuing to address the health issue of 
gun violence. Our Members stand ready to meet the needs of our 
communities and the Nation, and we thank you for the 
opportunity for you to do the same.
    [The statement of Chief Brackney follows:]

                   STATEMENT RASHALL BRACKNEY

   National Organization of Black Law Enforcement Executives 
                            (NOBLE)

    Committee Chair, Representative Jerrold Nadler, Ranking 
Member, Representative Doug Collins, and Members of the U.S. 
House of Representatives Committee on the Judiciary, I bring 
you greetings on behalf of the Executive Board and Members of 
the National Organization of Black Law Enforcement Executives--
NOBLE.
    My name is Dr. RaShall Brackney and I am a member of NOBLE 
and the Chief of Police for the Charlottesville Police 
Department in Charlottesville, VA. It is an honor for NOBLE to 
provide written testimony on the topic of ``Protecting America 
from Assault Weapons.''
    NOBLE is very concerned about the level of gun violence in 
the United States, and specifically the correlation between 
violence and the proliferation of assault weapons and high-
capacity ammunition magazines. It is our organization's opinion 
that violence--particularly gun violence is a public health 
issue. As with all public health issues, it demands a 
comprehensive, nonjudgmental, pragmatic, evidence-based 
approach to saving lives and reducing injury. NOBLE along with 
organizations such as the National Law Enforcement Partnership 
to Prevent Gun Violence (of which we are a member) is committed 
to addressing the pervasive nature of gun violence and its 
horrific impact on communities across America. Specifically, 
firearm-related injuries and deaths to include homicides, 
suicides, and accidental shootings, involving assault weapons 
is unacceptable and demands immediate attention.
    To be clear, NOBLE defines assault weapons as semi-
automatic guns with a high- capacity ammunition magazine 
designed for military use. We advocate for limiting high- 
capacity ammunition magazines to ten rounds and the regulation 
of new semi-automatic assault weapons. In 2016, assault weapons 
accounted for 1 in 4 police officers killed in the line of duty 
through gun violence (Violence Policy Center--February 27, 
2018). NOBLE supported the Public Safety and Recreational 
Firearms Use Protection Act or Federal Assault Weapons Ban 
(AWB) of 1994 and the Federal Assault Weapons Ban 
Reauthorization Act of 2004, and we support H.R. 8 (Bipartisan 
Background Checks Act of 2019) as does 90% of all Americans.
    Assault weapons have been used in many mass shootings such 
as Marjory Stoneman Douglas High School in Parkland, Florida, 
The Tree of Life Synagogue Shooting, The Las Vegas Music 
Festival Shooting and in El Paso. We believe the level and 
lethality of gun violence directed at police officers and our 
communities requires an organized and aggressive response from 
policy makers at the federal, state, and local levels. Elected 
officials must commit to closing gaps in the current regulatory 
system, including those that enable felons, minors, and other 
prohibited persons to access firearms, and those that allow the 
trafficking of illegal guns.
    Law enforcement plays a central and critical role in 
preventing gun violence and solving crime. Effective strategies 
for the strict enforcement of laws concerning the illegal 
possession, trafficking, and criminal use of firearms are 
vital, and need to be supported by data, research, technology, 
training, and best practices. Because the public's health and 
safety depend on the efforts of law enforcement, agencies must 
have resources sufficient to prioritize the protection of 
officers and communities against illegal guns and firearm 
violence. The crisis of gun violence in our country 
necessitates a sustained, coordinated, and collaborative effort 
involving citizens, elected officials, law enforcement, and the 
entire criminal justice system.
    On behalf of the law enforcement leaders of NOBLE, thank 
you for supporting law enforcement and our ability to maintain 
public safety while continuing to address the health issue of 
gun violence. Our Members stand ready to meet the needs of our 
communities and nation. Thank you again for this opportunity to 
provide testimony.

    Chair Nadler. Thank you very much. Ms. Rand.

                   TESTIMONY OF KRISTEN RAND

    Ms. Rand. Thank you, Mr. Chair and Members of the 
committee, for hearing the views of the Violence Policy Center. 
We're a national educational organization working to reduce gun 
violence.
    Generally, semi-automatic assault weapons are civilian 
versions of military assault weapons. Semi-automatic assault 
weapons look the same as their military counterparts because 
they are virtually identical, save for one feature. Military 
assault weapons are machine guns capable of fully automatic 
fire.
    Assault weapons did not just happen. They were developed to 
meet well-defined combat needs. The most significant assault 
weapon functional design feature is the ability to accept a 
detachable ammunition magazine. The gun industry introduced 
semi-automatic versions of military assault weapons to create 
and exploit new civilian markets for these deadly weapons. The 
gun industry began to aggressively market assault weapons in 
the 1980s, and although the gun lobby today argues there's no 
such thing as a civilian assault weapon, and now 
euphemistically refers to them as ``modern sporting rifles,'' 
the industry and gun magazines enthusiastically described these 
civilian versions as ``assault rifles,'' ``assault pistols,'' 
and ``military assault weapons'' to boost civilian sales 
throughout the 1980s.
    The industry's marketing of assault weapons has intensified 
as the market for traditional hunting and sporting firearms has 
waned. Today's militarized gun industry is focused primarily on 
developing and marketing increasingly lethal assault weapons. 
The gun industry's marketing campaigns stress that semi-
automatic assault weapons available to civilians are the 
equivalent of those used by the military. The industry's 
marketing materials are replete with military images and 
language. I'll just give you one example from FN's 2019 
catalog. ``Our tactical firearms are the stuff of legend. Every 
innovation is born in the battlefront, built for the home 
front.''
    The rise of public mass shootings directly coincides with 
the increasing availability of assault weapons and high-
capacity magazines. Prior to the 1980s, the United States very 
rarely experienced the trauma of a public mass shooting. That 
began to change in 1984 when James Huberty decided he wanted to 
go hunting for humans at a McDonald's in San Ysidro, 
California. Huberty wielded an Uzi carbine and killed 21 and 
wounded 19. Now these assault weapon attacks are coming with 
increasing frequency and higher death tolls. The impact of the 
industry's intensifying focus on military-style firearms can be 
seen in the weapons chosen by today's mass shooters. For 
example, the shooter who killed nine and wounded 27 in Dayton 
chose an AR-type assault pistol equipped with a stabilizing 
brace, a relatively new trend in industry innovation.
    A major point I would like to make, given this opportunity, 
is that assault weapons are not just about mass shootings. The 
threat posed by these weapons is much broader than that, and, 
in fact, they pose a significant risk to law enforcement. The 
Violence Policy Center performed an analysis of unpublished 
information from the FBI and determined that 1 out of 5 law 
enforcement officers slain in the line of duty in 2016 and 2017 
were killed with assault weapons. In addition, assault weapons 
are the clear weapons of choice of cross-border gun traffickers 
supplying criminal organizations in Mexico and other Latin 
American countries. We have an ongoing project looking at the 
firearms seized in the context of these types of trafficking 
prosecutions and found that 55 percent of the 6,000 firearms 
named in trafficking prosecutions were assault weapons. 
Finally, assault weapons are used in street crime, which I'm 
sure you'll hear more from law enforcement today.
    I just quickly want to address some items with respect to 
policy, a ban. The definition must be very clear and something 
the industry cannot evade, and we must find a way to grapple 
with the grandfathered weapons. Those are the two major flaws 
with the 1994 law, and we need those to be addressed. Thank you 
for considering my views.
    [The statement of Ms. Rand follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
    Chair Nadler. Thank you very much. Ms. Swearer?

                    TESTIMONY OF AMY SWEARER

    Ms. Swearer. Chair Nadler, Ranking Member Collins, and 
distinguished Members of Congress. My name is Amy Swearer, and 
I'm the senior legal policy analyst at the Heritage 
Foundation's Ed Meese Center for Legal and Judicial Studies.
    Just as doctors can only recommend an effective treatment 
plan if they first form a correct diagnosis based on accurate 
assessment of the symptoms, policy analysts and policymakers 
must have an accurate understanding of the societal problems 
they are seeking to combat. Unfortunately, too many 
policymakers appear completely uninformed about basic factual 
realities related to guns and gun violence.
    Don't misunderstand me. We all want safer communities, but 
the characteristics distinguishing so-called assault weapons 
from non-assault weapons are not factors like caliber, 
lethality, or rate of fire. Proposals to ban scary-looking 
features like barrel shrouds or pistol grips are, for all 
intents and purposes, proposals to force law-abiding citizens 
to own guns that are harder for them to handle, harder to fire 
accurately, and more likely to cause them injuries, even when 
they are being used for lawful purposes.
    Moreover, semi-automatic rifles are not a meaningful 
driving factor behind rates of gun violence. Two-thirds of gun 
deaths in this country are suicides, but the type of firearm is 
essentially irrelevant. With respect to gun crimes, over 90 
percent are committed with handguns. Rifles of any kind are 
definitively used in only 3 to 4 percent of gun homicides every 
year, and an American citizen is four times as likely to be 
stabbed to death than they are to be shot to death with a rifle 
of any kind.
    Despite frequent claims that semi-automatic rifles are the 
weapon of choice for mass public shooters, in the last decade, 
over half of these shootings have been carried with handguns 
alone. On the other hand, semi-automatic rifles, like the AR-
15, are so well suited for defensive action against threats in 
a civilian context that the Department of Homeland Security 
quite literally designates them as personal defense weapons for 
law enforcement officers. It is little wonder then that 
millions of law-abiding citizens in this country also choose 
these types of semi-automatic rifles as their own personal 
defense weapons.
    Far from needing to be protected from these rifles, law-
abiding Americans benefit when they are allowed to defend 
themselves with them, particularly in situations where they are 
outnumbered. Just last week, a homeowner in Rockdale County, 
Georgia relied on his scary-looking semi-automatic assault 
weapon to defend himself against three masked teens armed with 
at least one handgun who tried to rob him and other residents 
in their own front yard. Ironically, the rifle deemed an 
assault weapon by many in this room was used defensively to 
protect innocent people against assault, while the perpetrators 
used a non-assault weapon offensively to commit actual assault.
    Importantly, some of the most famous examples of the 
defensive use of assault weapons by civilians come from 
scenarios where the government has been either unable or 
unwilling to defend entire communities from large-scale civil 
unrest. During the 1992 L.A. riots, for example, law 
enforcement was nowhere to be found as hundreds of looters 
ransacked Koreatown. Ordinary store owners, like Richard Rhee 
and his employees, took it upon themselves to defend their 
livelihoods from lawlessness, using, in many cases, semi-
automatic rifles. Similar stories emerged during the civil 
unrest in Ferguson, Missouri in 2014.
    There are some here today who still genuinely don't 
understand why or how anyone would need such scary-looking 
rifles for purposes other than mass murder, and so I have 
permission from my mother to explain it to you by partially 
embarrassing her. My mother did not grow up with firearms, and 
they will never be her favorite thing in the world. In fact, 
she had ever handled a firearm until I took her to the range 
for the first time several years ago.
    Now, I love my mother, but like every other novice with a 
handgun, she was quite bad. I mean, she struggled to hit a 
stationary target from 6 yards out under ideal conditions. And 
then she picked up an AR-15, and I watched my mother put a 
fist-sized gripping of lead in the center mass of a target from 
20 yards out. That is why law-abiding citizens buy millions of 
these firearms. When accuracy and stopping power matter, they 
are simply better.
    Americans use firearms to defend themselves between 500,000 
and 2 million times every year. God forbid that my mother is 
ever faced with a scenario where she must stop a threat to her 
life, but if she is, I hope politicians protected by 
professional armed security didn't strip her of the right to 
use the firearm she can handle most competently. Frankly, I 
hope she has in her hands the scariest-looking assault weapon 
she can find so that we can both be confident in her ability to 
end the threat. Thank you.
    [The statement of Ms. Swearer follows:]

                    STATEMENT OF AMY SWEARER

    Chair Nadler, Ranking Member Collins, and distinguished 
Members of Congress:
    My name is Amy Swearer, and I am the Senior Legal Policy 
Analyst in the Edwin Meese III Center for Legal and Judicial 
Studies at The Heritage Foundation.\1\ One of my primary issues 
of research is the Second amendment and firearm-related policy. 
I have been heavily involved in the Heritage Foundation's 
School Safety Initiative, which was begun immediately after the 
tragic 2018 shooting at Marjory Stoneman Douglas High School in 
Parkland, Florida, to ensure that conservative voices played an 
active role in conversations about gun violence and school 
safety. My colleague John Malcolm and I have also co-authored a 
series of Heritage Legal Memoranda examining the role of 
serious untreated mental illness in gun violence.
---------------------------------------------------------------------------
    \1\ The title and affiliation are for identification purposes. 
Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed here are 
my own and do not reflect an institutional position for The Heritage 
Foundation or its board of trustees. The Heritage Foundation is a 
public policy, research, and educational organization recognized as 
exempt under section 501(c)(3) of the Internal Revenue Code. It is 
privately supported and receives no funds from any government at any 
level, nor does it perform any government or other contract work. The 
Heritage Foundation is the most broadly supported think tank in the 
United States. During 2017, it had hundreds of thousands of individual, 
foundation, and corporate supporters representing every State in the 
U.S. Its 2017 income came from the following sources: Individuals 71%, 
Foundations 9%, Corporations 4%, Program revenue and other income 16%. 
The top five corporate givers provided The Heritage Foundation with 
3.0% of its 2017 income. The Heritage Foundation's books are audited 
annually by the national accounting firm of RSM US, LLP.
---------------------------------------------------------------------------
    Having a correct understanding of the reality of gun-
related violence--its scope, its causes, its exacerbating 
factors--is vitally important to the creation of good public 
policy. Just as doctors must form a correct diagnosis based on 
an accurate assessment of symptoms if they are to recommend an 
effective treatment plan, policy analysts and policymakers must 
have an accurate understanding of the societal problems they 
are seeking to combat. Unfortunately, too many policymakers 
appear completely uninformed about basic factual realities 
related to guns and gun violence.
    When we honestly assess the characteristics of so-called 
``assault weapons,'' the reality of gun-related violence in the 
United States, and the limited role those weapons play in that 
violence, we find that they do not pose a serious threat to 
public safety. In short, the public perception of these semi-
automatic rifles is not consistent with reality. As an 
objective measure, semi-automatic rifles are simply not used in 
the vast majority of gun deaths. Moreover, in the small 
percentage of cases where they are used, it is often unlikely 
that their use--as opposed to the use of other firearms--made 
any meaningful difference. Finally, while these types of 
firearms are rarely used to commit crimes, they are used 
countless numbers of times every year by law-abiding citizens 
for lawful purposes, including self-defense.

 I. The Characteristics of ``Assault Weapons'' Make Them Safer 
               for Lawful Use, Not More Dangerous

    The term ``assault weapon'' does not have one official 
definition, but typically denotes firearms that have a range of 
features associated with modern semi-automatic rifles such as 
the AR-15. It should be noted that the phrase ``assault 
weapon'' is not a technical or legal term, but rather appears 
to have become popular as part of a concerted effort by gun 
control advocates to manipulate those with limited knowledge of 
firearms into confusing certain semi-automatic rifles with 
``assault rifles,'' which are functionally distinct and heavily 
regulated by the Federal Government.\2\ However, unlike 
``assault rifles,'' which are distinguished from other rifles 
based on features that affect a firearm's mechanics and allow 
for faster rates of fire, ``assault weapons'' are universally 
categorized based on cosmetic features alone.\3\ The addition 
of these cosmetic features, such as barrel shrouds, pistol 
grips, forward grips, and collapsible buttstocks, do not change 
the lethality of the round fired or increase the rate at which 
those rounds can be fired. In fact, these features exist for 
the purpose of making the firearm safer to operate and easier 
to fire in a more accurate manner.
---------------------------------------------------------------------------
    \2\ For example, many attribute the popularization of the term to 
the Violence Policy Center's Josh Sugarman, who in 1988 authored a 
paper insinuating that its use was beneficial to fostering public 
support for gun control. See Aaron Blake, Is It Fair To Call Them 
``Assault Weapons''?, Wash. Post (Jan. 17, 2013), https://
www.washingtonpost.com/news/the-fix/wp/2013/01/17/is-it-fair-to-call-
them-assault-weapons/?arc404=true.
    \3\ See generally David B. Kopel, Rational Basis Analysis of 
``Assault Weapon'' Prohibition, 20 J. Contemp. L. 381, 395-401 (1994); 
E. Gregory Wallace, ``Assault Weapons'' Myths, 43 S. Ill. U. L.J. 193 
(2018).
---------------------------------------------------------------------------
    For instance, barrel shrouds are a component of ``assault 
weapons'' that protect the operator's hand by partially or 
completely covering the rifle barrel, which can often become 
hot enough to cause serious burns after as little usage as 
shooting through one standard magazine at a range.\4\ The 
protective function of the barrel shroud is so fundamental to 
its existence that recently proposed legislation to ban its use 
defined the feature as: ``a shroud that is attached to, or 
partially or completely encircles, the barrel of a firearm so 
that the shroud protects the user of the firearm from heat 
generated by the barrel.'' \5\ Yet, despite the fact that the 
entire function of a barrel shroud is to protect lawful users 
from injury during lawful use, gun control advocates routinely 
point to this feature as something that must be banned because 
it also protects unlawful users from injury.\6\
---------------------------------------------------------------------------
    \4\ See Dennis P. Chapman, Features and Lawful Common Uses of Semi-
Automatic Rifles, Working Paper, at 63-68 (last revised Aug. 29, 2019), 
https://papers.ssrn.com/sol3/papers .cfm?abstract_id=3436512.
    \5\ Assault Weapons Ban of 2013, S. 150, 113th Cong. Sec.  2(b)(38) 
(2013).
    \6\ See Chapman, supra note 4, at 37-38; Wallace, supra note 3, at 
211-212.
---------------------------------------------------------------------------
    Similarly, collapsible or folding stocks do not affect the 
mechanics of a firearm, but allow its length to be adjusted to 
better suit the operator's specific height, wingspan, and 
firing stance.\7\ Prohibiting the use of collapsible stocks for 
civilian purposes because criminals might also take advantage 
of those features is the logical equivalent of prohibiting the 
use of seat adjustment settings in a car so that would-be drunk 
drivers have a slightly more difficult time comfortably 
operating a vehicle while under the influence of alcohol. The 
prohibition does not meaningfully affect the ability of the 
drunk driver to break the law and put lives in danger, but it 
does make it significantly more difficult for many lawful 
drivers to operate standard cars in a safe manner.
---------------------------------------------------------------------------
    \7\ See Kopel, supra note 4, at 398-99; Chapman, supra 4, at 80-87.
---------------------------------------------------------------------------
    The same reasoning is true of prohibitions on the use of 
pistol grips and forward grips, which allow the operator to 
gain a more stable shooting base and fire in a more accurate 
manner.\8\ Accuracy is objectively less important for a would-
be mass shooter, whose goal is not meaningfully thwarted if 
some rounds miss the intended target and strike another. But 
for the recreational shooter, the hunter, and the individual 
utilizing a firearm in self-defense, accuracy is vital. For 
someone relying on a firearm in self-defense, in particular, 
the ability to accurately hit a moving target and end the 
threat can mean the difference between life or death.
---------------------------------------------------------------------------
    \8\ Wallace, supra note 4, at 230-31; Kopel, supra note 4, at 396-
97.
---------------------------------------------------------------------------
    In short, proposals to ban ``assault weapons'' are, for all 
intents and purposes, proposals to force law-abiding citizens 
to use firearms that are harder to fire accurately and more 
likely to cause them injuries, even when being used for lawful 
purposes. As will be expounded below, this logic is even less 
persuasive in light of the fact that semi-automatic rifles are 
not a significant factor behind gun violence of any kind.

 II. Semi-Automatic Rifles are Not a Significant Factor Behind 
                          Gun Violence

    Banning the civilian possession of certain commonly owned 
semi-automatic rifles is an unnecessary and ineffective means 
of combating gun-related violence, in large part because these 
rifles are simply not used in the overwhelming majority of 
firearm-related deaths in the United States. They play such a 
minimal role in gun-related violence that, even if prohibition 
were 100 percent successful and no substitution for other 
firearms occurred, such a law would fail to have a meaningful 
impact on overall rates of gun violence.

  A. Semi-Automatic Rifles Play No Meaningful Role in Firearm 
                            Suicides

    For almost the last 20 years, the clear driving force 
behind gun deaths in the United States has not been homicide, 
but suicide, which now accounts for almost two-thirds of all 
gun-related deaths in the country every year.\9\ Without a 
doubt, the type of firearm most commonly used in those suicides 
is the handgun.\10\ However, even where semi-automatic rifles 
are used to commit suicide, the nature of suicide renders the 
type of firearm irrelevant. The unfortunate reality is that it 
does not matter whether the suicidal person pulled the trigger 
on a handgun, a shotgun, or a rifle--the outcome would be the 
same. For the increasing majority of gun-related deaths, then, 
policies directed at firearm type are far less meaningful than 
policies directed at more general mental health 
intervention.\11\
---------------------------------------------------------------------------
    \9\ See Drew DeSilver, Suicides Account for Most Gun Deaths, Pew 
Research Center (May 24, 2013), http://www.pewresearch.org/fact-tank/
2013/05/24/suicides-account-for-most-gun-deaths; Sherry L. Murphy et 
al., Deaths: Final Data for 2015, 66 National Vital Statistics Report 
No. 6, 39, Table 8 (Nov. 27, 2017), https://www.cdc.gov/nchs/data/nvsr/
nvsr66/nvsr66 _06.pdf. See also, National Center for Injury Prevention 
and Control, Web-based Injury Statistics Query and Reporting System 
(WISQARS) (last visited July 1, 2019), www.cdc.gov/injury/wisqars. 
Importantly, even as the total number of suicides has increased over 
the last 30 years, the percentage of suicides carried out with firearms 
has actually decreased. See Sally C. Curtin et al., Increase in Suicide 
in the United States, 1999-2014, National Center for Health Statistics 
Data Brief No. 241 (Apr. 2016), https://www.cdc.gov/nchs/products/
databriefs/db241.htm.
    \10\ See, e.g., Philip Alpers et al., United States--Death and 
Injury, Sydney School of Public Health, GunPolicy.Org (last visited 
Aug. 17, 2019), https://www.gunpolicy.org/firearms/region/united-
states. For suicides where data is available, the number of suicides 
committed with handguns routinely and substantially outpaces the number 
of suicides committed with long guns of any type. Id.
    \11\  These measures can include, among other things, increasing 
the number of public psychiatric beds available for treating those in 
the midst of mental health crises, as well as the use of so-called red 
flag laws. See John G. Malcolm & Amy Swearer, Part I: Mental Illness, 
Firearms, and Violence, Heritage Found. Legal Memorandum No. 239 (Jan. 
31, 2019), https://www.heritage.org/civil-society/report/part-i-mental-
illness-firearms-and-violence; John G. Malcolm & Amy Swearer, Part II: 
The Consequences of Deinstitutionalizing the Severely Mentally Ill, 
Heritage Found. Legal Memorandum No. 240 (Feb. 5, 2019), https://
www.heritage.org/firearms/report/part-ii-the-consequences-
deinstutionalizing-the-severely-mentally-ill; John G. Malcolm & Amy 
Swearer, Part III: The Current State of Laws Regarding Mental Illness 
and Guns, Heritage Found. Legal Memorandum No. 241 (Feb. 13, 2019), 
https://www.heritage.org/civil-society/report/part-iii-the-current-
state-laws-regarding-mental-illness-and-guns. While red flag laws in 
particular may be useful as specific interventions to temporarily 
disarm objectively dangerous individuals, in order to be 
unobjectionable, they must afford stringent and meaningful due process 
protections. See Amy Swearer, Answers to Common Questions About ``Red 
Flag'' Gun Laws, Heritage Foundation (Aug. 16, 2019), https://
www.heritage.org/firearms/commentary/answers-common-questions-about-
red-flag-gun-laws. Any laws that fail to afford adequate protections 
against the wrongful or arbitrary loss of constitutional rights by law-
abiding and non-dangerous citizens should be categorically rejected as 
an inappropriate means of combating gun-related violence.
---------------------------------------------------------------------------
    The complete irrelevance of semi-automatic rifles to 
firearm suicides is especially important in light of the 
greater reality of gun violence in this country. The United 
States is actually in the midst of a decade of historically low 
rates of violent crime, with national rates of gun homicide and 
overall homicide roughly 50 percent lower today than at their 
height in the early 1990s.\12\ This is not merely a case of 
better emergency medical practices saving lives, either, as 
non-fatal firearm crime rates are now one-sixth of what the 
Nation experienced in the early 1990s.\13\ Amazingly, this 
dramatic decrease in interpersonal violence has occurred during 
a time when rates of household gun ownership have remained 
stable, the number of firearms per capita has increased by 
roughly 50 percent, and semi-automatic rifles are becoming 
increasingly popular amongst civilians.\14\
---------------------------------------------------------------------------
    \12\ See Jens Manuel Krogstad, Gun Homicides Steady After Decline 
in `90s; Suicide Rate Edges Up, Pew Research Center (Oct. 21, 2015), 
https://www.pewresearch.org/fact-tank/2015/10/21/gun-homicides-steady-
after-decline-in-90s-suicide-rate-edges-up/.
    \13\ See id.; Michael Planty & Jennifer L. Truman, Firearm 
Violence, 1993-2011, Bureau of Justice Statistics NCJ 241730 (May 
2013), https://www.bjs.gov/content/pub/pdf/fv9311.pdf; Michael Planty & 
Jennifer L. Truman, Criminal Victimization, 2017, Bureau of Justice 
Statistics NCJ 252472 (Dec. 2018), https://www.bjs.gov/content/pub/pdf/
cv17.pdf.
    \14\ In 1994, Americans owned an estimate 192 million firearms, 
while the 2018 Small Arms Survey indicated that Americans now own 
roughly 400 million firearms. Compare Jens Ludwig and Phillip J. Cook, 
Guns in America: National Survey on Private Ownership and Use of 
Firearms, NCJ 165476, May 1999, http://www.ncjrs.org/pdffiles/
165476.pdf with Aaron Karp, Estimating Global Civilian-Held Firearms 
Numbers, Small Arms Survey Briefing Paper (June 2018), http://
www.smallarmssurvey.org/fileadmin/docs/T-Briefing-Papers/SAS-BP-
Civilian-Firearms-Numbers.pdf. Rates of household gun ownership have 
remained consistently in the area 40 to 45 percent since 1974, with the 
United States seeing both a high of 51 percent in 1993 and a low of 34 
percent in 1999 before evening back out in recent years. See Historical 
Trends: Guns--Do You Have A Gun In Your Home?, Gallup (last visited 
Sept. 23, 2019), https://news.gallup.com/poll/1645/guns.aspx. See also, 
Brief of the National Shooting Sports Foundation, Inc., New York State 
Piston & Rifle Ass'n, Inc. v. Cuomo, 804 F.3d 242 (2nd Cir. 2015), 
http://www.nysrpa.org/files/SAFE/NSSF-amicus2.pdf.
---------------------------------------------------------------------------

 B. Handguns, Not Semi-Automatic Rifles, are Used in Most Gun 
                             Crimes

    Far from being the weapon of choice for would-be criminals, 
semi-automatic rifles are statistically the type of firearm 
least likely to be used for unlawful purposes, particularly 
compared to handguns.\15\ Over the last decade, rifles of any 
kind were definitively used in only 3-4 percent of gun 
homicides, and it is not clear how many of those deaths 
actually involved the use of ``assault weapons'' compared to 
other types of rifles.\16\ The average American is, in fact, 
four times more likely to be stabbed to death than he or she is 
to be shot to death with a rifle of any kind.\17\
---------------------------------------------------------------------------
    \15\ Handguns are used in the overwhelming majority of both 
firearm-related homicides and non-fatal firearm crimes. Federal Bureau 
of Investigation, Crime in the United States 2017, Expanded Homicide 
Data Table 8, Federal Bureau of Investigation: Uniform Crime Reports 
(Last Reviewed Sept. 23, 2019), https://ucr.fbi.gov/crime-in-the-u.s/
2017/crime-in-the-u.s.-2017/tables/expanded-homicide-data-table-8.xls; 
Federal Bureau of Investigation, Crime in the United States 2013, 
Expanded Homicide Data Table 8, Federal Bureau of Investigation: 
Uniform Crime Reports (Last Reviewed Sept. 23, 2019), https://
ucr.fbi.gov/crime-in-the-u.s/2013/crime-in-the-u.s.-2013/offenses-
known-to-law-enforcement/expanded-homicide/
expanded_homicide_data_table_8_murder_victims_by_weapon_2009-2013.xls; 
Marianne W. Zawitz, Guns Used in Crime, KBureau of Justice Statistics 
NCJ-148201 (July 1995), https://www.bjs.gov/content/pub/pdf/GUIC.PDF; 
Firearms Trace Data: Firearm Types Recovered and Traced in the United 
States and Territories, Bureau of Alcohol, Tobacco, Firearms, and 
Explosives (Last Reviewed Sept. 23, 2019), https://www.atf.gov/
resource-center/firearms-trace-data.
    \16\ Federal Bureau of Investigation, Crime in the United States 
2017, Expanded Homicide Data Table 8, Federal Bureau of Investigation: 
Uniform Crime Reports (Last Reviewed Sept. 23, 2019), https://
ucr.fbi.gov/crime-in-the-u.s/2017/crime-in-the-u.s.-2017/tables/
expanded-homicide-data-table-8.xls; Federal Bureau of Investigation, 
Crime in the United States 2013, Expanded Homicide Data Table 8, 
Federal Bureau of Investigation: Uniform Crime Reports (Last Reviewed 
Sept. 23, 2019), https://ucr.fbi.gov/crime-in-the-u.s/2013/crime-in-
the-u.s.-2013/offenses-known-to-law-enforcement/expanded-homicide/
expanded_homicide_data_table_8_ murder_victims_by_weapon_2009-2013.xls.
    \17\ Federal Bureau of Investigation, Crime in the United States 
2017, Expanded Homicide Data Table 8, Federal Bureau of Investigation: 
Uniform Crime Reports (Last Reviewed Sept. 23, 2019), https://
ucr.fbi.gov/crime-in-the-u.s/2017/crime-in-the-u.s.-2017/tables/
expanded-homicide-data-table-8.xls; Federal Bureau of Investigation, 
Crime in the United States 2013, Expanded Homicide Data Table 8, 
Federal Bureau of Investigation: Uniform Crime Reports (Last Reviewed 
Sept. 23, 2019), https://ucr.fbi.gov/crime-in-the-u.s/2013/crime-in-
the-u.s.-2013/offenses-known-to-law-enforcement/expanded-homicide/
expanded_homicide_data_table_8_ murder_victims_by_weapon_2009-2013.xls.
---------------------------------------------------------------------------
    Even where semi-automatic rifles were used to commit 
homicide, it is nearly impossible to determine how many of 
those homicides would not have been successfully committed if 
the perpetrator had relied on a different type of firearm. This 
same low estimate of rifle usage holds true across non-fatal 
firearm crimes, where 90 percent are attributable to handguns 
and only 10 percent are attributable to long guns of any 
kind.\18\ The official analysis of the 1994 federal assault 
weapons ban only underscores the reality that the prohibition 
of firearms least likely to be used in violent crime is an 
ineffective way of combating that violent crime. It concluded 
that ``[s]hould it be renewed, the ban's effects on gun 
violence are likely to be small at best and perhaps too small 
for reliable measurement. [Assault weapons] were rarely used in 
gun crimes even before the ban.''\19\
---------------------------------------------------------------------------
    \18\ Michael Planty & Jennifer L. Truman, Firearm Violence, 1993-
2011, Bureau of Justice Statistics NCJ 241730 (May 2013), https://
www.bjs.gov/content/pub/pdf/fv9311.pdf.
    \19\ Christopher S. Koper, An Updated Assessment of the Federal 
Assault Weapons Ban: Impacts on Gun Markets and Gun Violence, 1994-2003 
(June 2004), https://www.ncjrs.gov/pdffiles1/nij/grants/204431.pdf.
---------------------------------------------------------------------------

 C. Handguns, Not Rifles, are the ``Weapon of Choice'' in Mass 
                        Public Shootings

    Gun control advocates, politicians, and the media routinely 
characterize semi-automatic rifles, specifically the AR-15, as 
the ``weapon of choice'' for mass public shooters. This is 
objectively incorrect. Over the last decade, more than half of 
mass public shooters have used handguns alone.\20\ Of those who 
did use rifles, the majority also brought other firearms, such 
as shotguns or handguns.\21\
---------------------------------------------------------------------------
    \20\ See John R. Lott, Jr., & Rebekah C. Riley, The Myths About 
Mass Public Shootings: Analysis, Crime Research Prevention Center 
(Sept. 30, 2014), https://crimeresearch.org/wp-content/uploads/2014/10/
CPRC-Mass-Shooting-Analysis-Bloomberg1.pdf. More recent data compiled 
by the Mother Jones mass public shooting database for the 48 mass 
shootings between January 1, 2014 and September 23, 2019 shows that 
handguns continue to be the firearm of choice for mass public shooters, 
with the data showing 22 cases where the shooter used handguns alone 
but only 11 where the shooter used rifles alone. Mother Jones Mass 
Public Shooting Database, 1982-2019 https://www.motherjones.com/
politics/2012/12/mass-shootings-mother-jones-full-data/. The other 16 
shooters used some combination of handguns, shotguns, and rifles.
    \21\ Id.
---------------------------------------------------------------------------
    The reality is that, even if all would-be mass public 
shooters were successfully diverted to the use of ``non-assault 
weapons,'' it would likely have no meaningful impact on their 
ability to kill large numbers of unarmed civilians. With only a 
few notable exceptions, such as the Las Vegas shooting in 2018, 
the type of firearm was simply not a major factor in the 
ability of mass shooters to cause significant casualties, 
particularly compared to other important factors such the time 
the shooter remained unconfronted by an armed response.\22\ 
While it is deeply unsettling to consider, when individuals 
intent on evil have several minutes to hunt down and kill 
unarmed civilians confined together as ``soft targets,'' it 
does not matter whether the person has a shotgun, a handgun, or 
a rifle. Some of the deadliest mass public shootings in United 
States history have been carried out with nothing more than 
handguns. This includes the worst school shooting in U.S. 
history, at Virginia Tech in 2006, where the shooter was able 
to fire 174 rounds in roughly 11 minutes, killing 30 people and 
wounding 17 others with nothing more than common, relatively 
low-caliber handguns.23 Similarly, in 1991 a shooter at a 
Luby's Cafeteria in Killeen, Texas, fatally shot \23\ and 
wounded another 19 with two handguns.\24\
---------------------------------------------------------------------------
    \22\ Consider, for example, that just weeks after the shooter at 
Marjory Stoneman Douglas High School in Parkland, Florida, killed 17 
people over the span of six minutes with a semi-automatic rifle, a 
shooter at Santa Fe High School, in Santa Fe, Texas, was able to kill 
10 people in under four minutes with a shotgun and revolver. See 
Unprepared and Overwhelmed, Sun Sentinel (Dec. 28, 2018), https://
projects.sun-sentinel.com/2018/sfl-parkland-school-shooting-critical-
moments/#nt=oft09a-2gp1; Jack Healy and Manny Fernandez, Police 
Confronted Texas School Gunman Within 4 Minutes, Sheriff Says, N.Y. 
Times (May 21, 2018), https://www.nytimes.com/2018/05/21/us/santa-fe-
officer-wounded-john-barnes.html.
    \23\ The shooter used a .22 caliber Walther P22 and a 9 mm Glock 
10. TriData Division, Mass Shootings at Virginia Tech: Addendum to the 
Report of the Review Panel, at 30-A (Nov. 2009), https://
scholar.lib.vt.edu/prevail/docs/April16ReportRev20091204.pdf.
    \24\ See Thomas C. Hayes, Gunman Kills 22 and Himself in Texas 
Cafeteria, N.Y. Times (Oct. 17, 1991), https://www.nytimes.com/1991/10/
17/us/gunman-kills-22-and-himself-in-texas-cafeteria.html; Paula Chin, 
A Texas Massacre, People Magazine (Nov. 4, 1991), https://people.com/
archive/a-texas-massacre-vol-36-no-17/.
---------------------------------------------------------------------------
    All of this must be factored in light of the incredibly 
small role mass public shootings play in the overall number of 
firearm-related violence, accounting for only a fraction of a 
percent of all gun deaths every year.\25\ This is not to 
minimize the devastating impact such events can have on the 
families and communities impacted by them, and these acts 
certainly affect important public perceptions of overall safety 
from gun-related violence. It is, rather, to give important 
perspective to a policy proposal that, even if perfectly 
implemented without any risk of shooters substituting other 
firearms, would have a statistically insignificant impact on 
gun violence rates in this country.
---------------------------------------------------------------------------
    \25\ See Appendix A (breaking down the number of annual gun deaths 
attributable to mass public shootings and analyzing those numbers as a 
percent of total firearm deaths every year).
---------------------------------------------------------------------------

 III. Semi-Automatic Rifles are Commonly Owned by Law-Abiding 
        Citizens and Have Legitimate Civilian Functions

    While it is difficult to determine the exact number of 
semi-automatic ``assault weapons'' owned by civilians in the 
United States, recent estimates for the total national stock of 
``modern sporting rifles'' reach as high as 16 million.\26\ 
Regardless of whether the number of civilian-owned 
semiautomatic sporting rifles is, in fact, 16 million or in the 
lower part of the estimated range of several million, it is 
difficult to argue that an item owned by millions of Americans 
is ``uncommon.'' \27\
---------------------------------------------------------------------------
    \26\ National Shooting Sports Foundation, 1990-2016, Estimated U.S. 
Firearm Production of Semi-Automatic Rifles, Guns.com, https://
news.guns.com/wp-content/uploads/2018/09/NSSF-MSR-Production-Estimates-
2017.pdf.
    \27\ For context, in 2015, the United States had only 8.6 million 
registered motorcycles, accounting for roughly 3 percent of all 
registered vehicles, roughly on par with estimates of both the total 
number of semi-automatic ``assault weapon'' rifles and the percentage 
of these rifles compared to the total national gunstock. See National 
Center for Statistics and Analysis, Traffic Safety Facts: Motorcycles, 
at 2 (updated March 2017), https://crashstats .nhtsa.dot.gov/Api/
Public/ViewPublication/812353. While motorcycles, like AR-15s, are not 
``household items,'' few would argue that motorcycles are ``uncommon'' 
among lawful drivers in any meaningful sense of the term.
---------------------------------------------------------------------------
    Over the last several decades, there has been a concerted 
effort by gun control activists to characterize certain semi-
automatic rifles as ``weapons of war'' that have ``no business 
on our streets.'' Ostensibly, this is to create the impression 
that the cosmetic features associated with firearms like the 
AR-15 serve no legitimate civilian purpose, and render a 
firearm objectively inappropriate for lawful uses like hunting, 
recreational target shooting, or self-defense. On its face, 
this is an absurd premise. As noted above, the cosmetic 
features distinguishing ``assault weapons'' from ``non-assault 
weapons'' do not change the lethality or mechanical operation 
of a firearm, but rather make the firearm safer and easier to 
operate in lawful contexts. Moreover, the simple market reality 
is that millions of law-abiding Americans continue to buy these 
firearms precisely because they use them literally countless 
numbers of times every year for a variety of lawful activities.
    In stark contrast to assertions that semi-automatic rifles 
are not defensive weapons fit for use against threats faced by 
civilians, law enforcement agencies around the country have 
long insisted just the opposite--that these types of firearms 
are actually necessary for confronting some types of civilian 
threats. In the United States, law enforcement agencies serve 
an entirely defensive and reactive function. Police officers 
are called upon, not to conduct offensive war or engage in 
military battles, but to protect and defend against threats 
made in a civilian context. Police departments routinely issue 
semi-automatic rifles to their officers precisely because these 
rifles are useful against the very same criminals initially 
faced by the innocent citizens who called the police in the 
first place.
    Moreover, federal law enforcement agencies refer to even 
select-fire AR-15 style rifles as ``personal defense weapons.'' 
This is not a new designation by a gun-friendly Republican 
Administration, but rather a designation routinely utilized by 
federal agencies under President Obama. For example, in 2012, 
the Department of Homeland Security opened up a bidding process 
to find contractors who would arm federal law enforcement 
agents with ``personal defense weapons.''\28\ The 
specifications for these explicitly defensive weapons included 
features that if used by a civilian would, in the eyes of 
ardent gun control advocates, magically turn the firearm from a 
defensive weapon into an ``assault weapon''--they were to be 
chambered in 5.5645 mm NATO \29\ and equipped with a 
collapsible buttstock, a pistol grip, a Picattiny rail for 
mounting sights and accessories, and ``standard'' 30-round 
magazine.\30\
---------------------------------------------------------------------------
    \28\ Personal Defense Weapons Solicitation, Department of Homeland 
Security HSCEMS-12-R-00011 (June 2, 2012), https://www.fbo.gov/
?s=opportunity&mode=form&tab=core&id=d791b6aa 
0fd9d3d8833b2efa08300033&_cview=0.
    \29\ 5.56  45 mm NATO is a common round for semi-automatic rifles, 
including the AR-15.
    \30\ Part I--The Schedule, section C--Description/Specifications/
Statement of Work, HSCEMS-12-R-00011, https://www.fbo.gov/
?s=opportunity&mode=form&tab=core&id=d791b6aa0 
fd9d3d8833b2efa08300033&_cview=0.
---------------------------------------------------------------------------
    It is little wonder, then, that many law-abiding citizens 
also rely on semi-automatic rifles as their own personal 
defense weapons, particularly in situations where law 
enforcement cannot protect them. Far from needing to be better 
protected from these rifles, law-abiding Americans benefit when 
they are allowed to defend themselves with them. Just last 
week, a homeowner in Rockdale County, Georgia, relied on his 
semi-automatic ``assault weapon'' to defend himself against 
three masked teens who used at least one handgun to try to rob 
him and other residents in their own front yard.\31\ In other 
words, this ``assault weapon'' was used defensively to protect 
innocent people against assault, while the perpetrators used a 
handgun ``offensively'' to actually commit assault. This 
successful defensive use of AR-15 style rifles is not an 
anomaly, but a recurrent theme in civilian defensive gun uses, 
particularly in home invasion scenarios or where an individual 
is outnumbered by attackers.\32\
---------------------------------------------------------------------------
    \31\ See Guy Benson, Self Preservation: Homeowner Defends Himself 
Against Trio of Armed Robbers Using ``Assault Weapon,'', Townhall 
(Sept. 19, 2019), https://townhall.com/tipsheet/guybenson/2019/09/19/
self-preservation-homeowner-defends-himself-against-trio-of-armed-
robbers-using-assault-weapon-n2553238.
    \32\ See, e.g., Austin L. Miller, Summerfield Homeowner Injured, 
Kills 2 Intruders With AR-15, Ocala Starbanner (Updated July 12, 2019), 
https://www.ocala.com/news/20190711/summerfield-homeowner-injured-
kills-2-intruders-with-ar-15; Police: Tallahassee Homeowner Shot 2 Out 
of 4 Home Invasion Suspects, All 4 Charged, WTXL Tallahassee (Updated 
May 24, 2019), https://www.wtxl.com/news/local-news/tpd-investigating-
home-invasion-robbery; Rob Shikina, Victim Fires AR-15 at Suspects in 
Haiku Home Invasion Robbery, Maui Police Say, Star Advertiser (July 21, 
2018), https://www.staradvertiser.com/2018/07/21/breaking-news/victim-
fires-ar-15-at-suspects-in-haiku-home-invasion-robbery-maui-police-say/
; Allison Sylte, Retired Officer Used 2 AR-15s to Stop Man Accused of 
Firing at Random People, News.com9 (July 9, 2018), https://
www.9news.com/article/news/crime/retired-officer-used-2-ar-15s-to-stop-
man-accused-of-firing-at-random-people/572102809; Garrett Pelican, 5 
Charged in Baker County Home Invasion Turned Deadly Shootout, News 4 
Jacksonville (Apr. 16, 2018), https://www. news4jax.com/news/5-
arrested-after-florida-home-invasion-ends-deadly-shootout; Shannon 
Antinori, AR-15-Weilding Neighbor Speaks Out, 2 Charged in Stabbing, 
Patch.com (Updated Mar. 2, 2018), https://patch.com/illinois/oswego/ar-
15-threat-used-stop-knife-attack-sheriff; Homeowner's Son Kills Three 
Would-Be Burglars With AR-15, N.Y. Post (Mar. 28, 2017), https://
nypost.com/2017/03/28/homeowners-son-kills-three-would-be-burglars-
with-ar-15/.
---------------------------------------------------------------------------
    Beyond home invasions, some of the most famous examples of 
the civilian use of semi-automatic rifles come from scenarios 
where the government has been either unable or unwilling to 
defend entire communities from large-scale civil unrest. In 
1992 during the L.A. riots, store owners in Koreatown found 
themselves at the mercy of hundreds of looters intent on 
ransacking and burning their businesses. For days, law 
enforcement was nowhere to be found, and the Koreatown 
storeowners took it upon themselves to defend their livelihoods 
from lawlessness. The Los Angeles Times, among others, 
recounted the story of Richard Rhee, one of many shop owners 
who barricaded their stores with employees and defended their 
inalienable rights to life, liberty, and property \33\ through 
the use of all manner of firearms, including fully automatic 
rifles.\34\ Similarly, during the civil unrest in Ferguson, 
Missouri, in 2014, Reuters reported on several African American 
men who stood armed with various semi-automatic rifles outside 
the gas station of a White friend, successfully protecting his 
business from looters and rioters.\35\
---------------------------------------------------------------------------
    \33\ While the Declaration of Independence references ``life, 
liberty, and the pursuit of happiness,'' the Framers believed that the 
rights to ``liberty'' and ``property'' could not be separated, as one 
cannot exist without the other. See Paul J. Larkin, Jr., The Original 
Understanding of ``Property'' In the Constitution, 100 Marq. L. Rev. 1 
(2016).
    \34\ See Ashley Dunn, King Case Aftermath: A City in Crisis, L.A. 
Times (May 2, 1992), https://www.latimes.com/archives/la-xpm-1992-05-
02-mn-1281-story.html.
    \35\ See Emily Flitter, In Ferguson, Black Residents Stand Guard At 
White-Owned Store, Reuters (Nov. 26, 2014), https://www.reuters.com/
article/us-usa-missouri-shooting-gasstation/in-ferguson-black-
residents-stand-guard-at-white-owned-store-idUSKCN0JA1XF20141126.
---------------------------------------------------------------------------

                         IV. Conclusion

    Nothing in the data about gun violence in the United States 
or the technical aspects of semi-automatic firearms supports a 
policy of stripping law-abiding gun owners of rifles that are 
often used for lawful purposes and rarely used to commit 
crimes. There are, unfortunately, many Americans who will 
conclude that I do not care about protecting innocent life and 
that I harbor a callous disregard for those affected by mass 
shootings.
    While it is certainly the case that I believe public policy 
should be based on an accurate assessment of reality, a defense 
of semi-automatic rifles is more than an exercise in data and 
technical functions. At the end of the day, this about my 
mother.
    My mother did not grow up with firearms. In fact, she had 
never handled a firearm until I took her to the gun range for 
the first time. Like every other novice, my mother was terrible 
with a handgun, and struggled to hit a stationary target from 
just a few yards away. But when she picked up an AR-15 for the 
first time, she put a fist-sized grouping of lead in the center 
of that target from 20 yards out.
    Now, I pray that my mother is never confronted with a 
situation where she is compelled to point a firearm at another 
human being, much less pull the trigger. I would infinitely 
prefer to live a world where I never have to consider the 
possibility that someone would threaten her life or the lives 
of those around her.
    But I study gun violence every day. Even though violent 
crime rates are dropping, as a policy analyst I am acutely 
aware that Americans use their firearms in defense of 
themselves or others between 500,000 and 2 million times every 
year. That is not some number range I made up as a conservative 
talking point, but one which in 2013, the Centers for Disease 
Control and Prevention confirmed has been found by almost every 
major study on the issue.\36\
---------------------------------------------------------------------------
    \36\ Inst. of Medicine & Nat'l. Research Council, Priorities for 
Research To Reduce the Threat of Firearm-Related Violence 15 (Alan I. 
Leshner, Bruce M. Altevogt, Arlene F. Lee, Margaret A. McCoy, and 
Patrick W. Kelley, eds. 2013), https://www.nap.edu/read/18319/chapter/
3.
---------------------------------------------------------------------------
    Over the past few months, I have drafted several articles 
on defensive gun uses by ordinary Americans. I have been struck 
time and time again by the number of mothers just like mine, 
who are confronted on otherwise ordinary days by extraordinary 
threats. They do not live in gated communities. They cannot 
afford private security. They do not receive police details. 
They do not have the luxury of waiting for law enforcement to 
arrive. To them, the ability to defend themselves with a 
firearm they can trust themselves to handle comfortably, to 
fire accurately, and to stop the threat in its tracks is not a 
statistical exercise.
    God forbid that my mother is ever faced with a scenario 
where she must stop a threat to her life. But if she is, I hope 
she has a so-called ``assault weapon'' to end that threat.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Chair Nadler. Thank you. Ms. Muller?

                   TESTIMONY OF DIANNA MULLER

    Ms. Muller. Thank you, Chair Nadler and Ranking Member 
Collins--I'll acknowledge him even though he's not here--and 
Committee Members. My name is Dianna Muller, and I'm an 
ordinary American, one who has had different life experiences 
that bring me here today as a dissenter of any gun control 
laws, including the assault weapons ban.
    After 22 years as a police officer with assignments that 
included patrols, street crimes, gangs, and narcotics, I 
retired to focus on a second career as a professional shooter, 
and I've had the honor to represent our country on an 
international stage. Four years ago I came to this town as a 
tourist, and during a haphazard meeting with my congressman, I 
asked if there was there anything I should be doing to dispel 
the information about guns and gun owners that running rampant 
on Capitol Hill.
    From there, the DC Project was born, an educational and 
nonpartisan effort of 50 women, one from every State, meeting 
their legislators as gun owners and Second amendment 
supporters. We are as diverse as any cross-section of America. 
Many of our women, like victims of these mass public murders, 
have endured unspeakable violence themselves or lost loved 
ones. Their stories are similar to Kate Nixon's. It was 
reported that Kate knew her co-worker was unstable and felt 
that he would shoot up the place. Her husband encouraged her to 
take a pistol to work, but she didn't want to break the rules. 
She followed the policy that was supposed to keep her safe, a 
gun-free zone, and she was murdered the next day in the 
Virginia Beach tragedy.
    These laws and policies are taking away a woman's right to 
choose. Gun rights are women's rights. That's why I'm honored 
to be here today to be a voice for the millions of American 
women who share my ideology, but are not represented in 
mainstream media or squelched on social media. As a woman, I'm 
likely smaller and less equipped for violence than an attacker 
or if I'm outnumbered by people who may do me harm. My firearm 
is the great equalizer and levels the playing field.
    I married late in life, and I spent the majority of my 
adult life sleeping by myself. There were so many nights that 
there were bumps in the night, and I'm sure it's happened to 
you guys, but I had peace because I have a firearm by my side, 
specifically an AR-15. I own and carry firearms not to take a 
life, but to protect a life. I am worth protecting. My family 
is worth protecting.
    So why does anybody need an AR-15? Let me explain it in 
shoes. You wouldn't run a marathon in dress shoes, and you 
wouldn't go to a formal ball in sneakers. Similarly, each of my 
firearms have a specific purpose. The AR-15 just falls in the 
category of that really comfortable dressy shoe that gets 
called on many occasions. It's my go-to for home defense and 
vehicle gun. As a competitor, I've turned a hobby into a 
living, and my husband hunts with an AR.
    The AR-15 platform is the most popular general-purpose 
rifle because it's the most versatile and most customizable. 
Freedom doesn't ask why the need. To quote William Pitt the 
Younger, ``Necessity is the plea for every infringement on 
human freedom. It the argument of tyrants. It is the creed of 
slaves.''
    For 22 years, I enforced the law you created, and I had a 
front-row seat to the justice system. It's frustrating to see 
the revolving door where prosecutors reduce or drop charges and 
judges give minimal sentencing. I find it ironic in today's 
effort of criminal justice reform that you are taking steps to 
be lenient on people who have actually committed crimes against 
laws you've already created, while at the same time proposing 
more laws that turn ordinary law-abiding citizens, like myself, 
into criminals. How about holding the people accountable for 
the laws that are already on the books before we pass any 
further legislation that would only be a burden on the law-
abiding? If these laws were the answer, Chicago, Baltimore, 
L.A., and even this city would be the safest city in America.
    The firearms community is #doingsomething. We are leading 
the way on meaningful safety measures. I implore you, work with 
us instead of demonizing us. Law-abiding American gun owners 
are not the enemy. Help our community promote programs, like 
Project ChildSafe, Eddie Eagle, and the Kids Safe Foundation 
that teaches kids about firearm safety. FASTER Saves Lives and 
School Shield are school security programs and Walk the Talk 
America is a suicide prevention program. These are initiatives 
that are being driven by the firearms industry.
    If you really want to make a difference in gun-related 
deaths, get behind these programs and fund them because we 
believe one life unjustifiably taken is one life too many. 
Let's put firearms education back in schools and start 
protecting our kids like we protect the people in this 
building. Education over legislation. Thank you for your time 
to speak. Thank you for the opportunity and thank you for your 
time and service.
    [The statement of Ms. Muller follows:]

                   STATEMENT OF DIANNA MULLER

    Thank you, Chair Nadler and Ranking Member Collins and 
Committee Members,
    I am an ordinary American--one who has had different life 
experiences that bring me here today as a dissenter to any 
additional gun control laws, including the so-called Assault 
Weapon Ban.
    After 22 years of service as a police officer with 
assignments that included patrol, street crimes, gangs, and 
narcotics, I retired to focus on a second career as a 
professional competition shooter. I am a world and national 
champion and have had the honor of representing this country on 
an international stage. I'm also an accidental advocate. Four 
years ago, I came to Washington, DC as a tourist, and during a 
chance meeting with my congressman, I asked if there was 
anything I, as a professional shooter, should do to dispel the 
misinformation about guns and gun owners. From there, the DC 
Project was born. It is a nonpartisan, educational effort of 
women, one from every state, who meet with their legislators as 
gun owners and Second amendment supporters, to be a resource 
and voice for lawful gun owners.
    I sit before you today honored to speak on behalf of those 
women--mothers, daughters, young and old, black, white, Latino 
and Asian, hunters and competitors, transgender and straight, 
#metoo and #notme, on the political left and right. We are as 
diverse as any cross section of America. To list a few among 
our ranks:

    <bullet>  Lara Smith, from California is a staunch Democrat and the 
National Spokesperson for the Liberal Gun Club and understands that the 
Second Amendment is a constitutional, not a partisan, issue;
    <bullet>  Mia Farinelli, from Virginia, is a 15-year-old 3-gun 
competitive shooter that stands 54", weighs 90 pounds; an honor roll 
student that speaks two languages and is learning a third;
    <bullet>  Robyn Sandoval, from Texas, is left-leaning, reformed 
anti-gun mom who now heads up A Girl and a Gun, a nationwide women's 
shooting club;
    <bullet>  Gina Roberts, from California, is a transgender woman who 
knows the Second Amendment is for everyone;
    <bullet>  Corinne Mosher, from Kansas, is a concert violinist 
turned tactical firearms instructor and takes keeping her family safe 
seriously;
    <bullet>  Amanda Johnson, from Virginia, was raped at gun point on 
a gun-free campus, yards from the police station; even though she had a 
concealed carry license, she left it at home because she wanted to 
follow the rules. Her attacker went on to rape and kill his next 
victim. Amanda is confident she could have made a difference in both of 
their outcomes if she had not been disarmed.
    <bullet>  Lucretia Hughes, from Georgia, is a African American who 
strongly advocates for the 2nd Amendment, in part, because she lost her 
son to gang violence when a felon used an illegally obtained gun to 
shoot him in the head;
    <bullet>  Gabby Franco, from Texas, is a mom and a naturalized 
citizen from Venezuela who has seen the effects of gun control in her 
native country;
    <bullet>  Kristi McMains, from Indiana, vigorously fought off a 
stranger's attack in a parking garage for several minutes before 
getting to her gun and shooting the assailant. She fought so hard she 
broke all ten nails, had fibers in her teeth from his gloves, and 
broken ribs;
    <bullet>  Melissa Schuster, from Illinois, was brutally beaten, 
stabbed and raped in a stranger home invasion;
    <bullet>  Shayna Lopez Rivas, from Florida, was raped at knifepoint 
on a gun free campus and only learned how to shoot afterwards, but now 
advocates for campus carry;
    <bullet>  Nikki Goeser, from Tennessee, husband was shot and killed 
by her stalker in a gun-free zone, while her permitted firearm remained 
in her vehicle, like the good, law abiding citizen she is.

    Every DC Project member has a story and many of these 
women, like the victims of the recent mass murders, have 
endured unspeakable violence themselves or lost loved ones. 
Their stories are similar to that of Kate Nixon. According to 
reports, Kate knew her co-worker was unstable and felt he would 
``shoot the place up.'' Her husband encouraged her to take a 
pistol to work, but she didn't want to break the rules. She 
followed the policy that was supposed to keep her safe, a gun 
free zone. Kate went to work the next day and was killed in the 
Virginia Beach tragedy. These laws and policies take away a 
woman's right to choose. Gun rights are women's rights! That's 
why I'm honored to be here, to be a voice for the millions of 
women who share my beliefs, but are not represented in 
mainstream media or are squelched on social media.
    As an instructor, I've had the honor of introducing many 
people, especially women, to firearms training. I notice many 
women go through amazing transformations. Their self-confidence 
is palatable. I had one woman who was terrified at the 
beginning of class and at the end. She looked me in the eye, 
took a hold of my arms and said, ``You have changed my life. I 
am a different person.'' I see it time and time again how a 
little education can go a long way!
    Why does anyone need an AR-15? Let me explain it in shoes. 
You wouldn't run a marathon dress shoes and you wouldn't go to 
a formal ball in sneakers. Similarly, each of my firearms have 
a specific purpose. The AR-15 falls into a category of a really 
comfortable, dressy flat that gets called on for many 
occasions. It's my go-to for a home defense and vehicle gun. As 
a competitor, I've turned a hobby into a living. My husband 
hunts with his AR platform. The AR platform is the most popular 
general-purpose rifle because it's the most versatile and 
customizable, and freedom doesn't ask ``why the need.'' To 
quote William Pitt the Younger, ``Necessity is the plea for 
every infringement of human freedom. It is the argument of 
tyrants; it is the creed of slaves.''
    Please allow me to address some of the basics about 
firearms. I've been hearing the phrases like ``assault weapon'' 
and ``weapon of war'' in reference to the AR-15. The ``AR'' 
stands for Armalite Rifle, the name of the original 
manufacturer, NOT assault rifle. You may hear it referred to as 
a modern sporting rifle. As far as a ``weapon of war,'' let me 
remind you that every firearm can be lethal. The only 
difference is in the intent of the operator. This common 
misconception about the most popular rifle in America is one of 
the reasons I started the DC Project, to promote education over 
legislation. Each year, we invite Members and staffers to the 
range and each of you have access to training from professional 
shooters like myself. While I fully appreciate you listening to 
me today, you could get a better appreciation of the importance 
our community places on and the safe handling and operation of 
firearms if you were to come to the range.
    As a police officer, I enforced the laws you created and I 
had a front row seat to the justice system. It's frustrating to 
see the revolving door where prosecutors reduce or drop charges 
and judges give minimal sentencing. I find it ironic in today's 
effort of criminal justice reform that you are taking steps to 
be lenient on people who have actually committed crimes AGAINST 
LAWS YOU CREATED, while at the same time you are proposing more 
laws, like the Assault Weapons Ban of 2019, that turn ordinary, 
law-abiding citizens into criminals. I submit that we work on 
holding people accountable for the laws that are already on the 
books before we pass any further legislation, that would only 
be a burden on the law-abiding. If these laws were the answer, 
Chicago, Baltimore, LA, and even this city, would be the safest 
cities in America.
    If we learn anything from the Parkland tragedy, it is the 
repeated failure of government, laws, and policy. Students 
``saw something and said something'' to school Administration; 
law enforcement responded to the shooter's residence more than 
30 times, with no action taken. The ultimate failure in 
Parkland was from the responding officers that fateful day. 
They remained outside while students were continuing to be 
murdered inside. Parkland reminds us that law enforcement has 
no constitutional duty to protect.
    If you ask what would have stopped the Parkland shooter, 
it's the same answer as in every shooting: Being confronted 
with equal force. During my years serving the citizens of my 
community, I responded to countless calls for help. If you have 
ever called 911, you know it can feel like a lifetime for them 
to answer, let alone how long it takes for help to arrive. I 
don't wish for anyone to be defenseless, so I encourage people 
to seek training, at least unarmed, situational awareness and 
``stop the bleed'' training all the way up to firearms 
training, if they choose. Prepare to be your own first 
responder.
    Ordinary citizens are safer when they have the tools to 
defend themselves and their families, and that includes the AR-
15. As a woman, I'm likely smaller and less equipped for 
violence than an attacker or if I'm outnumbered by people who 
may do me harm, my firearm is the great equalizer and levels 
the playing field. I married late in life and for most of my 
adult life, I lived on my own. There were so many times I heard 
a bump in the middle of the night, but I had a peace about 
having an AR-15 by my side. I own and carry firearms not to 
take a life, but to protect a life. I am worth protecting. My 
family is worth protecting.
    American gun owners recognize that we are up against a very 
well-organized, well-funded effort, assisted by the mainstream 
media, masterfully crafting campaigns to demonize guns and gun 
owners, and disarm our citizenry. From politicians, mainstream 
media and our schools using their megaphones to paint gun 
owners as ``deplorables'' or ``domestic terrorists'' to now 
discriminating against gun owners. According to the FBI, more 
deaths occur from hammers and blunt objects each year than from 
all rifles combined. Common sense tells us that banning 
``assault rifles'' will not stop the problem of mass murders. 
Common sense tells me that if you succeed in banning this gun, 
you will go after the next gun when the next tragedy happens. 
My own experience with prior Assault Weapons Ban was it was 
ineffective. I saw zero impact on the streets and the FBI 
statistics confirmed it.
    If you are intellectually honest you would look at civilian 
defensive uses of firearms, which according to the government's 
own CDC data estimates over one million times per year. Aren't 
those lives SAVED worth as much as the lives that have been 
taken by criminal homicide? Any ban on firearms will inhibit a 
citizen's ability to protect themselves and their families and 
their homes. Can you understand my hesitancy to support any 
laws that are designed to restrict or infringe on my God-given 
rights? The Constitution guarantees the government will not 
infringe on the right to keep and bear arms.
    Each of you is actually pro-gun. Everyday in this very 
building, you are surrounded and protected by men and women 
with firearms; some of you just are against me and others 
having firearms. What about ordinary Americans who don't have 
the luxury of having someone else carry guns for us to protect 
us?
    As a professional shooter, I've come to truly respect 
``gun'' folks. They are the ``good guys,'' and they are the 
firearm safety experts. Although we're an extremely diverse 
group, racially, politically, and socioeconomically, our 
foremost priority as ``gun'' people is ALWAYS safety through 
education. Education is vital when it comes to guns and keeping 
people, including children, safe. When I began shooting 
competitively 10 years ago, I was good at shooting, but what I 
really fell in love with were the people. Rest assured, if you 
put a picture or video on social media that is even remotely 
unsafe, you be hounded by our community! Our kids excel in 
education and are mature beyond their years, like I mentioned 
with Mia Farinelli. When I hear my community called `domestic 
terrorists', it's incongruent with what I know to be true.
    The firearms community IS leading the way in meaningful 
safety measures. We are addressing violence. I implore you, 
please work WITH us instead of demonizing us. Rather than 
attacking me because I belong to an organization that is 
founded on the principles of education and safety, look to me 
as an expert in my field. I am NOT the enemy. Millions of law-
abiding American gun owners are NOT the enemy. Please HELP our 
community promote Project ChildSafe, Eddie Eagle, or the Kid 
Safe Foundation to teach kids about firearm safety; ``FASTER 
Saves Lives'' or ``School Shield,'' school security programs; 
and ``alk the Talk America,'' a suicide prevention program. If 
you really want to make a difference in gun-related deaths, get 
behind these programs and FUND them. Because we believe ONE 
life unjustifiably taken is one too many. Let's put firearms 
education back in schools and start protecting our kids like we 
protect the people in this building! Education over 
legislation.
    Thank you for the opportunity to speak and thank you for 
your time and service.

    Chair Nadler. Thank you. Mr. Chipman.

                   TESTIMONY OF DAVID CHIPMAN

    Mr. Chipman. Good morning, Chair, Members of the committee. 
Thank you for letting me testify today. My name is David 
Chipman, and I am the senior policy adviser at Giffords, the 
gun violence prevention organization founded by former 
Congresswoman Gabby Giffords. I am a gun owner, and I served as 
special agent for the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives for 25 years.
    Throughout my ATF career, I served on the front lines of 
our government's efforts to prevent violent crime and 
effectively regulate the firearms industry. I worked to disrupt 
firearms trafficking conspiracies along the iron pipeline, 
served on ATF SWAT team, and later was the special agent in 
charge of the Agency's firearms programs. My time as a Federal 
law enforcement officer taught me that although all weapons can 
be dangerous in the wrong hands, some weapons are particularly 
lethal and should be more strictly regulated.
    Our Nation's current gun violence crisis has made two 
things very clear. One, it is far too easy for violent people 
to get their hands on deadly weapons, and two, the American 
people overwhelmingly want Congress to Act now to make their 
communities safer.
    Assault weapons are a class of semi-automatic firearms 
originally intended for military use, designed to kill people 
quickly and efficiently. These weapons are often the weapon of 
choice for mass shooters. Assault weapons, like the semi-
automatic AR-15, I used on ATF SWAT team are configured so that 
a shooter can fire accurately and rapidly. Most importantly, 
they can accept detachable magazines. There is virtually no 
limit to the possible size of a magazine. This enables the 
shooter to continue firing as many as 100 rounds without having 
to stop and reload, maximizing the casualties in a shooting. 
Absent the ability to fire automatically, these weapons are 
identical to those used by the military.
    The public and many lawmakers, including many on this 
committee, have called for a renewal of the 90s era assault 
weapons ban. As an ATF special agent charged with enforcing 
that law, I can say with confidence that there were both 
benefits and limitations. The 1994 Act had a positive effect on 
public safety. Research indicates that during the 10-year 
period the Federal assault weapons ban was in effect, mass 
shooting fatalities were 70 percent less likely to occur 
compared to the periods before and after the ban.
    The 1994 Act suffered from notable limitations. The law did 
not regulate the transfer or possession of assault weapons 
manufactured before the law's effective date. Manufacturers 
took advantage of this loophole by boosting production of 
assault weapons in the months leading up to the ban. 
Consequently, while the law was in place, assault weapons were 
regularly resold through private transactions, undermining its 
effectiveness. However, we rarely saw the kinds of mass 
shooting we're seeing today.
    Since the assault weapon ban expired in 2004, the gun 
industry has continued to design and sell more dangerous 
weapons. For instance, during the 1990s, assault pistols, like 
the TEC-9, fired 9-millimeter handgun rounds. Modern AR and AK 
pistols, like the weapon used in Dayton and earlier this year 
to kill a Milwaukee police officer, fire rifle rounds. We 
currently do not have a reliable count of how many assault 
weapons are in circulation. Estimates are in the tens of 
millions.
    If our goal is to balance the rights of responsible law-
abiding gun owners and the urgent need to keep particularly 
dangerous weapons out of the hands of criminals, simply 
reinstating the 90s era ban on assault weapons is not enough. 
One option would be to require the registration of all existing 
assault weapons in civilian hands under the National Firearms 
Act, while banning the future manufacture and sale of these 
firearms.
    The NFA was enacted in response to violent gun crimes and 
the death of law enforcement officers during the 1930s. The NFA 
imposes an excise tax and registration requirement to possess 
certain weapons, including silencers, sawed-off shotguns, 
short-barreled rifles, machine guns, and other particularly 
dangerous firearms. To possess one of these weapons, applicants 
must pass a background check, provide fingerprints and a photo, 
pay a $200 transfer tax, and register their NFA weapon with 
ATF. Using the NFA to address assault weapons would use an 
existing and effective regulatory structure that allows lawful 
ownership, while also addressing the public safety concerns.
    For more than 80 years, this regulatory system has worked 
effectively. Legally owned NFA weapons are rarely used in 
crime. I have built my career around the belief that it is 
possible to balance rights and responsibilities. I have stood 
in the face of danger to protect public safety carrying an 
assault weapon. It is simply unacceptable that military-style 
and high-powered weapons are so readily available to civilians 
today, and that they increasingly lead to loss of innocent 
lives. We can and should take action to make our communities 
safer.
    Thank you for considering my testimony today, and I look 
forward to your questions.
    [The statement of Mr. Chipman follows:]

                 STATEMENT OF DAVID H. CHIPMAN

    Good morning, Chair Nadler, Ranking Member Collins, and 
Members of the Committee, thank you for the opportunity to 
testify today. My name is David Chipman, and I am the Senior 
Policy Advisor at Giffords, the gun violence prevention 
organization founded by former Congresswoman Gabby Giffords. I 
am a gun owner and a former special agent at the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives (ATF) for 25 years.
    Throughout my career, I served on the front lines of our 
government's efforts to prevent violent crime and effectively 
regulate the firearms industry, the core missions of ATF. 
During my time at ATF, I worked to disrupt firearms trafficking 
conspiracies along the Iron Pipeline, served on ATF's SWAT 
team, and later served as the Special Agent in Charge of the 
agency's firearms programs. My time as a federal law 
enforcement officer taught me that although all weapons can be 
dangerous in the wrong hands, some weapons are particularly 
lethal and should be more strictly regulated.
    Why? Because gun violence has become a public safety 
crisis: approximately 36,000 people in this country are fatally 
shot each year, and another 100,000 are shot and wounded. In 
2017, gun deaths reached their highest level in at least four 
decades. Gun violence claims nearly 100 lives and injures 
almost 300 more every single day.
    Our nation's gun violence crisis at this moment in time has 
made two things very clear. One, it is far too easy for violent 
people to get their hands on deadly weapons and harm others. 
Two, the American people-overwhelmingly-want Congress to Act 
now to make their communities safer.
    There is absolutely nothing controversial about 
acknowledging that some people simply shouldn't have guns. The 
Gun Control Act of 1968 established that certain categories of 
people--including convicted felons, domestic abusers, and other 
dangerous individuals--are not allowed to possess or purchase 
guns. The Brady Act created the National Instant Criminal 
Background Check System (NICS) and requires federally licensed 
gun dealers to conduct background checks to ensure that 
prohibited people are not able to buy guns.
    As an ATF agent, I often heard calls that I should focus on 
enforcing the laws on the books. As a gun violence prevention 
advocate, I hear those same calls today. The truth is that 
there are loopholes in federal law that undermine public 
safety, and those loopholes need to be closed. Simply put, 
there is more that we can, and must, do to regulate 
particularly dangerous weapons.
    Assault weapons are a class of semi-automatic firearms, 
originally intended for military and law enforcement use, 
designed to kill people quickly and efficiently. As a result, 
these weapons are often the weapon of choice for mass shooters. 
A review of mass shootings between 2009 and 2015 found that 
incidents where assault weapons or large capacity ammunition 
magazines were used resulted in 155% more people shot and 47% 
more people killed compared to other incidents.\1\
---------------------------------------------------------------------------
    \1\ ``Mass Shootings in the United States: 2009-2017,'' Everytown 
for Gun Safety. 6 December 2018. https://everytownresearcb.org/
reportsImass-sbootiogs-analysis/.
---------------------------------------------------------------------------
    Over the past few years, there has been a noticeable common 
thread connecting many of the most horrific shootings: San 
Bernardino, Orlando, Las Vegas, Sutherland Springs, Parkland, 
El Paso, Dayton, and Odessa. These shootings took place in 
different corners of the United States, the perpetrators had 
different motivations, but the firearm ties them together.
    When I began working at ATF, assault weapons were rarely 
used in crime. Nevertheless, I became familiar with them 
because as trained law enforcement officials, we used assault 
rifles like the AR-15 and the H&K MP-5 in SWAT operations.
    Assault weapons, including AR-15s and AK-47 rifles, are 
configured so that a shooter can fire rapidly. Most 
importantly, they can accept detachable magazines. The magazine 
is the part of the weapon that holds ammunition and feeds into 
the gun when the trigger is pulled. There is virtually no limit 
to the possible size of a magazine. This enables the shooter to 
continue firing as many as 100 rounds without having to stop 
and reload, maximizing the casualties in a shooting.
    Absent the ability to fire automatically, these weapons are 
identical to those used by the military. Military weapons are 
selective fire, meaning that the user can easily switch between 
automatic, three-round burst and semi-automatic mode. The 
military included the option to fire in automatic mode and 
burst mode meaning the gun will fire more than a single round 
when the trigger is pulled--because military combat in extreme 
conditions sometimes requires use of automatic fire. Shooting 
in semi-automatic mode--meaning that with one pull of the 
trigger, one shot is fired--is most accurate and hence 
typically more lethal. Civilian versions of these weapons are 
semi-automatic only. However, they are configured in the same 
manner with the same purpose: To allow a shooter to maintain 
control over the weapon without having to stop to reload or 
reacquire a target.
    Particularly after the tragedies and violence of the past 
few months, the public and many lawmakers, including many on 
this committee, have called for a renewal of the 90s-era 
assault weapons ban. As an ATF Special Agent charged with 
enforcing that ban, I can say with confidence that there were 
both benefits and limitations to the ban. The 1994 Act does 
seem to have had a positive effect on public safety: research 
indicates that during the 10-year period the federal assault 
weapons ban was in effect, mass shooting fatalities were 70% 
less likely to occur compared to the periods before and after 
the ban.\2\
---------------------------------------------------------------------------
    \2\ Charles DiMaggio et al., ``Changes in US Mass Shooting Deaths 
Associated with the 1994-2004 Federal Assault Weapons Ban: Analysis of 
Open-Source Data,'' Journal of Trauma and Acute Care Surgery 86, no. 1 
(2019): 11-19.
---------------------------------------------------------------------------
    I was a young agent when the law went into effect in 1994. 
Many Members of law enforcement at that time were shocked by 
exemptions in the law. I was familiar with an incident that 
occurred in Miami in 1986: Two FBI agents were killed in a 
shootout with two bank robbers who used a Ruger Mini-14 rifle. 
In that incident, the FBI was outgunned, and as a result, the 
FBI upgraded its weapons. Yet, when the assault weapons ban 
went into effect in 1994, the Ruger Mini-14--a particularly 
lethal semi-automatic rifle capable of accepting a detachable 
magazine--was expressly exempted.
    The 1994 Act suffered from some other notable limitations. 
Most importantly, the law did not regulate the transfer or 
possession of assault weapons manufactured before the law's 
effective date. Manufacturers took advantage of this loophole 
by boosting production of assault weapons in the months leading 
up to the ban, creating a legal stockpile of these items. 
Consequently, while the law was in place, if we as law 
enforcement encountered an assault weapon, we were generally 
forced to assume it had been manufactured before the law went 
into effect--and therefore, it was protected. Unless a crime 
had been committed with the weapon, we could not arrest the 
person or take the weapon off the streets. As a result, the 
effectiveness of the assault weapons ban was not immediately 
apparent to us. However, we rarely saw the kinds of mass 
shootings we are seeing today.
    The one notable exception was the Columbine school shooting 
in 1999. The Columbine shooters used a Tec-9 assault pistol 
that was banned under the assault weapons ban--but because that 
particular gun had been manufactured before the law went into 
effect, it was still on the market and legal to possess.
    The assault weapons ban expired in 2004. Since that time, 
the gun industry has continued to design and sell more and more 
dangerous weapons, including AR and AK-style weapons, and 
increasingly lethal handguns and shotguns. In the 1990s, 
assault pistols like the Tec-9 fired 9 mm handgun rounds. 
Modern AR and AK pistols, like the weapon used in Dayton and 
earlier this year to kill a Milwaukee cop, fire rifle rounds. 
Today, AR-15 rifles have been made more lethal with the 
addition of bump stocks and 100-round magazines that result in 
catastrophic mass shootings like the one in Las Vegas that we 
could not imagine a single shooter orchestrating just two 
decades ago. The gun industry's advertising for these weapons 
frequently shows people using them in combat-style operations 
to tout the military nature of these weapons.
    Law enforcement is particularly concerned about handguns 
that have the ability to fire rifle rounds. Rifle rounds can 
penetrate body armor worn by patrol officers designed to 
protect against traditional handgun ammunition. These pistols, 
not unlike short-barreled rifles regulated under the National 
Firearms Act, are more easily concealable than rifles but 
mirror an assault rifle's capability to fire rounds quickly and 
accurately with devastating lethality.
    Today, we--and most importantly, law enforcement--do not 
have a reliable count of how many assault weapons are in 
circulation. Estimates are in the tens of millions. 
Undoubtedly, however many exist in civilian hands today is 
significantly higher than the number in circulation in 1994.
    If our goal is to balance the rights of responsible, law-
abiding gun owners with the urgent need to keep particularly 
dangerous weapons out of the hands of criminals and those who 
seek to do harm, as I believe it is, simply reinstating the 
90s-era ban on assault weapons is not enough. Instead, we 
should regulate a broader class of firearms, including assault 
weapons manufactured before the law's enactment.
    One option would be to require the registration of all 
existing assault weapons under the National Firearms Act (NFA) 
while banning the future manufacture and sale of these 
firearms.
    The NFA was enacted in response to violent gun crimes and 
the deaths of law enforcement officers during the 1930s. The 
first law of its kind, the NFA imposes an excise tax and 
registration requirement to possess certain weapons, including 
silencers, sawed-off shotguns, short-barreled rifles, machine 
guns, pipe bombs, and other particularly dangerous firearms. In 
order to possess one of these weapons, applicants must pass a 
background check, provide fingerprints and a photo, pay a $200 
transfer tax, and register their NFA weapon with ATF.
    Using the NFA to address assault weapons would utilize an 
existing and effective regulatory structure that allows law-
abiding people to legally possess these firearms, while also 
addressing the public safety concerns of law enforcement and 
the American public.
    For more than 80 years, this regulatory system has worked 
effectively: Legally owned NFA weapons are rarely used in 
crime.
    Semi-automatic assault weapons, including semi-automatic 
rifles with detachable magazines, assault pistols, and assault 
shotguns, have been used too often in too many mass shootings 
to horrific ends. It is clear that the risk they pose to public 
safety is far beyond that posed by traditional firearms. For 
this reason, seven states and the District of Columbia ban 
them. However, the efforts of those states and DC are 
undermined by other states which do not have similar laws. This 
is where Congress comes in: We need a nationwide law that 
comprehensively addresses this danger to our communities, and 
we have no time to waste.
    I have built my career around the belief that it is 
possible to balance rights and responsibilities. I have stood 
in the face of danger to protect public safety holding an 
assault weapon. It is simply unacceptable that military-style 
and high-powered weapons are so readily available to civilians 
today and that they increasingly lead to the loss of innocent 
lives. We can and should take action to make our communities 
safer from these weapons of war.
    Thank you for considering my testimony today. I look 
forward to your questions.

    Chair Nadler. Thank you very much. The Ranking Member, the 
gentleman from Georgia, has arrived, and we will hear his 
opening statement before we begin questioning under the 5-
minute rule. The gentleman from Georgia.
    Mr. Collins. Thank you, Mr. Chair. Thank you for your 
indulgence today. Thanks for holding this hearing on so-called 
assault weapons. Let's hope that after today's hearing we'll 
all have a better understanding of these types of rifles that 
are used in committing crimes, particularly murder. I hope we 
can also have an open and honest dialogue about the firearms my 
colleagues wish to ban. I hope we can avoid the rhetoric that 
has plagued this discussion for decades. Only when we are 
equipped with the facts can we mobilize to effectively prevent 
violent crime, a goal we all share.
    Let's first look at the term ``assault weapon'' and when 
the term entered the American lexicon. Many attributes the 
invention of the term to Josh Sugarman, the boss of one of our 
witnesses here today. In 1988, Mr. Sugarman stated, ``Assault 
weapons, just like armor-piercing bullets, machine guns, and 
plastic firearms, are a new topic. The weapon's menacing looks, 
coupled with the public's confusion over fully automatic 
machine guns versus semi-automatic assault weapons--anything 
that looks like a machine gun is assumed to be a machine gun--
can only increase the chance of public support for restrictions 
on these weapons. In addition, few people can envision 
practical uses for these weapons.''
    Assault weapons, however, are not assault rifles. Assault 
rifles are rapid-fire magazine-fed rifles designed for military 
use. They are shoulder-fired weapons that allow a shooter to 
select between settings. Semi-automatics require the operator 
to pull the trigger for each shot, and fully automatic allow an 
operator to hold the trigger as the gun fires continuously or 
in three-shot bursts. As Mr. Sugarman's statement indicates, 
the so-called assault weapons are semi-automatic. They aren't 
assault rifles, and they can't be used as a full-automatic 
assault rifle. Semi-automatic firearms require you to pull the 
trigger each time for each shot, just as a pistol requires one 
trigger pull per shot.
    Unfortunately, many in the American public and the media, 
and shockingly in this body, do not understand the difference. 
We must understand what different firearms do and how they 
function if we want to have effective laws to prevent gun 
violence. I can't imagine anyone here today would advocate for 
legislation that does not actually make our families safer, but 
that is what I fear we are headed for.
    One member of this Committee has conflated the term 
``assault rifle and assault weapon multiple times'' in dear 
colleague's letter seeking support for a bill banning assault 
weapons. And as we dive into these conversations, let's clear 
another popular misconception. The AR and AR-15 does not stand 
for ``assault rifle.'' Rather, it stands for ArmaLite Model 15. 
AR-15s are not assault rifles. They are semi-automatic firearms 
that function similarly to hunting rifles where the operator 
pulls the trigger to fire each shot. The differences between 
these guns are largely cosmetic.
    Sadly, disinformation comes from many sources. A State 
senator from California when speaking about an assault weapon 
stated, ``This right here has the ability of .30"--and this is 
their term, not mine--``a 30-caliber clip''--it should be a 
``magazine''--to disperse 30 bullets in a half a second.'' 30 
magazines to disperse in a half second. Either that is a 
blatant misrepresentation or an indication of shocking 
ignorance. Even a fully automatic military-issued M-4 cannot 
fire at such a rate.
    Another member of the Committee stated that, ``I have held 
an AR-15 in my hand. Wish I hadn't. It was as heavy as 10 boxes 
that you might be moving, and the bullet that is utilized--.50-
caliber--these kinds of bullets need to be licensed and do not 
need to be on the street.'' This brief statement somehow 
manages to make several basic factual errors. An AR-15 weighs 
between 6 and 7 pounds. It fires a 2 to 3-round of ammunition. 
It does not fire .50-caliber ammunition. Anyone who knows or 
discussed this about firearms would know that it is absurd to 
even suggest it.
    I hope that we can clear up these misconceptions in today's 
hearing, but my hopes are not high. However, when we have a 
Democratic presidential candidate say, ``Hell, yes, we're going 
to take your AR-15,'' let's hope cooler and rational heads 
prevail here today.
    Finally, let's review how these so-called assault rifles 
are used in crime. Some estimate and calculate the number of 
assault weapons in private hands at around 10 million. In 2017, 
according to the FBI, there were 403 murders committed with all 
rifles, not just those deemed to be assault weapons. By 
comparison, knives and cutting instruments were used in 1,591 
murders. Blunt objects, clubs, hammers, bats, 467. Hands, feet 
were used in 696 murders. At the same time, the National 
Highway Traffic and Safety Administration found speeding killed 
9,717 people, yet I do not see any of my colleagues advocating 
for the prohibition of a person's possession of a vehicle 
traveling more than 70 miles an hour.
    My friends, if we are going to have this debate, and we 
should, we must be honest with each other and take the time to 
learn basic facts about the items we are looking to ban and the 
result of what that might actually incur. That is not too much 
to ask, and hopefully the witnesses here today an assist with 
that task. With that, I yield back.
    Chair Nadler. I thank the gentleman. We will now proceed 
under the 5-minute Rule with questions. I will begin by 
recognizing myself for 5 minutes.
    Ms. Rand, there are certain features that distinguish 
assault weapons from hunting rifles. Earlier this month, this 
Committee reported out a bill by Representative Deutch that 
would ban large-capacity magazines. During the 1994 ban, people 
got around the ban by various means. How should we define an 
assault rifle that we might want to ban in order to get around 
the easier adaptability of such weapons by putting on various 
parts or some other way?
    Ms. Rand. Thank you for your question, Chair Nadler. I 
think the major problem with the 1994 law is that it defined an 
assault rifle, for example, by the ability to take a detachable 
ammunition magazine, which is the most important, the most-
deadly feature, and then require two additional listed assault 
features, such as a pistol grip or a bayonet lug. Basically, 
what the industry did was take off one of the more superfluous 
factors, like a bayonet lug, but they could retain the pistol 
grip, which allows the shooter to have better control during 
rapid fire.
    So, if we go to what is known as a one-characteristics test 
and clearly define those characteristics that define an assault 
weapon, and assault weapons also include assault pistols and 
assault shotguns, then we will be on much firmer footing.
    Chair Nadler. And that would eliminate these weapons that 
we commonly refer to as ``assault weapons'' and that can cause 
these mass casualties.
    Ms. Rand. Yes. I believe that a good definition, coupled 
with an effective magazine ban--you cannot overstate the 
importance of a magazine ban--would do the job to ban assault 
weapons.
    Chair Nadler. Thank you. Mr. Chipman, assault weapons have 
become the favorite weapon for many mass murderers. These 
weapons are also preferred by individuals who commit crimes in 
our communities. What impact did the 1994 assault weapons ban 
have on improving public safety in general? What could we 
expect if we repeated that in a more effective fashion?
    Mr. Chipman. I think there are two things involved. First, 
when looking at mass shootings, we see that 70 percent less 
likely to be killed in a mass shooting during that period. When 
I was at ATF, what I did see was an impact on the availability 
of assault pistols, which we were seeing more daily, as a 
threat to everyday gun violence on the streets, things like the 
TEC-9. I think that what we would expect to see in the future 
is similar declines over time, so it enhanced public safety. It 
certainly didn't make the streets more dangerous, which is 
often the claim if we didn't have those weapons available to 
the public.
    Chair Nadler. Thank you very much. Dr. Tovar, what does a 
gunshot wound from an assault weapon like compared to wound 
from a handgun? So, what additional challenges did you face in 
the aftermath of the El Paso attack?
    Dr. Rios-Tovar. Again, according to my testimony, what I 
was saying is that these large-caliber cartridge bullets had 
serious cavitation greater than the size of my fist.
    Chair Nadler. What does ``cavitation'' mean?
    Dr. Rios-Tovar. That amounted to--
    Chair Nadler. What does ``cavitation'' mean? What do you 
mean by that?
    Dr. Rios-Tovar. There is an effect, not with the bullets, 
but also a temporary cavitation effect with the kind of like a 
blast effect that is internal as well. With my experience with 
handgun gunshot wounds, which are traveling at a lower 
velocity, I see that it is straight through and through and not 
as significant damage that can be readily identified, readily 
fixed in the operating room. I haven't seen anything like this 
before this mass shooting, and I haven't seen anything since 
then.
    Chair Nadler. That is because of the greater velocity of an 
assault rifle bullet?
    Dr. Rios-Tovar. That is my understanding, yes.
    Chair Nadler. Thank you. Mayor Whaley, I commend you for 
your leadership in the wake of the Dayton shooting. Beyond 
physical injuries or death, what effect did the mass shooting 
have on your community?
    Ms. Whaley. Thank you, Chair. The effect has been long 
term, particularly for the trauma that the community is dealing 
with even today. Other mayors experienced this in their 
communities as well, like the mayor of Pittsburgh and Parkland, 
et cetera. Anytime another shooting happens in the country, the 
whole community goes through the shooting again. We have seen 
that already unfortunately with the Midland and Odessa 
shootings. We know that the mental health work that we will 
need to do will take years for us to really make sure that 
people have the services they need.
    This is an area of town where young people and people of 
great diverse community come together. We are really concerned 
that they don't have, medical access to the mental health 
services they need, and we are trying to provide those even 
today.
    Chair Nadler. Okay. Thank you very much. My time has 
expired. I recognize the Ranking Member, the gentleman from 
Georgia, Mr. Collins, for his questions.
    Mr. Collins. Thank you, Mr. Chair. Ms. Muller, I have a 
question. I mean, just in general, what have you heard already 
this morning, some of the misconceptions that we frequently 
hear in this discussion surrounding what we call so-called 
assault weapons?
    Ms. Muller. I will get this down before we end. Some of the 
things I have heard here today is we are talking about cosmetic 
things. I disagree with what I have heard today because a .22 
rifle that everybody may have seen as a brown stock and 
something that your father may have given you, we can turn that 
into an AR platform, and it looks like an AR platform, and you 
would think that this is a weapon of war. These are cosmetic 
differences, and they do not make it any different--
    Mr. Collins. Ms. Muller, can I stop you right there for 
just a second?
    Ms. Muller. Yes, sir.
    Mr. Collins. You just said something, and I see this often. 
Is it not true historically that all weapons come out of war, 
continuing to say that this a weapon of war? All weapons come 
out of war.
    Ms. Muller. Correct. Well, my point is that any firearm is 
lethal, is lethal force. So, our community is all about safety 
and trying to educate people to how to be responsible gun 
owners. We are not for--
    Mr. Collins. Well, I think the issue is when you came out, 
with the old flint rock, the flint, and muzzle loader. You come 
into the Bolt Action with the World War I. You come out. These 
were all started from a recession of protection and for 
enforcement, whether it be in law enforcement or in war. The 
idea that all of a sudden, they jumped from war to the streets 
when they came home from World War I and they wanted to use 
what they had used in World War I. That is what they used for 
hunting. This is where it has progressed. Do assault rifles, 
another question here, assault rifles shoot any faster than any 
other semi-automatic firearm?
    Ms. Muller. No, sir.
    Mr. Collins. They don't. You served as a law enforcement 
officer during the time of the previous assault weapon ban from 
1994 to 2004. Did it have any impact on your safety as a law 
enforcement officer or those that you were sworn to serve and 
protect?
    Ms. Muller. No, sir, I was there before, during, and after 
the previous assault weapon ban. I saw zero effect, me 
personally, and I believe the FBI's statistics stated that it 
was ineffective. Therefore, I believe you guys let it sunset.
    Mr. Collins. All right. Ms. Swearer, last week, this 
Committee passed on a party line vote a red flag law. Do you 
have any concerns with what this Committee reported, and if so, 
what are they?
    Ms. Swearer. Thank you for your question. So, I have 
written fairly extensively on red flag laws, and while I agree 
that there may be a place for targeted intervention for people 
who are objectively dangerous, whether due to mental illness or 
other reasons, there are serious concerns with policies such as 
the ones that have recently come out of this body. Part of that 
is a complete lack of due process.
    We are talking about taking away even temporarily a 
fundamental constitutional right. There need to be very high 
burdens of proof. There need to be objective, narrow measures 
as to what is constituting dangerousness. There need to be with 
regard to things like ex parte orders, quick follow-up, not 
allowing people to wait 30 days before they have their hearing 
after already infringing on their constitutional rights. We 
need to ensure that there are provisions for the restoration of 
those rights. Things like that are vitally important, and they 
are not measures that I have seen adequately imposed in many of 
these bills.
    Mr. Collins. I am sure you followed this from last week, 
that we really took two bills, and we did what we do up here a 
lot, and that is sandwich it into a same bill, and which 
created a lot of problems. I think one of the issues was, 
jurisdictional influence and forum shopping. Is that something 
else that is concerning from what was passed out here to it 
actually would solve anything that we are looking at?
    Ms. Swearer. Well, so my understanding of the one that was 
passed is that it would essentially be State-type grants for--
    Mr. Collins. Well, it did until we added on a Federal side 
of it. We actually did.
    Ms. Swearer. Yeah, when we are looking at Federal type of 
red flag laws, one of the big things should be followed-up are 
terms of mental health treatment, ensuring that people have a 
route to have their rights restored to them. So, part of the 
problem is jurisdictional. You don't have that at a Federal 
level the way you do at a State level. Frankly, it is not 
really a Federal jurisdictional type of issue.
    Mr. Collins. I appreciate that, and I appreciate the 
conversation about the .22, the old .22. I can put as many 
bullets down the old log and actually quick as anything else, 
and it is 50 years old. It is not a brand-new gun.
    Doctor, I appreciate what you do for your community. I 
thank you for the unfortunate incident that you saw. As someone 
who was a part of our response in Iraq, I was in the hospital 
at Balad. I saw these from IEDs and everything else, and your 
testimony is very compelling on this. Isn't it true also that a 
.357 magnum with a hollow-point bullet or a .44 magnum with a 
hollow-point bullet would also cause catastrophic damage, as 
just you have seen also, from a--
    Dr. Rios-Tovar. It is my understanding, yes, there is 
cavitary lesions from those types of weapons as well.
    Mr. Collins. So, again, I guess from your testimony on how 
bad this is, if you really want to do away with what you saw, 
you need to get rid of all guns, correct?
    Dr. Rios-Tovar. I am not advocating for anything like that. 
I am just telling you what I see.
    Mr. Collins. I appreciate that, but they are similar. And I 
think that is the only point I was trying to make there are 
similar concussions from different guns, which nobody is 
talking about taking away up here, and I think they are very 
similar when you look at. Thank you for your testimony. Thank 
you for your work.
    Mr. Deutch. [Presiding.] Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr. Chair. On July 28th, a shooter 
in Gilroy used a WASR arrangement semi-automatic rifle, called 
a WASR-10, which is a variant of an AK-47, and he had a 75-
round drum magazine and five 40-round magazines, as he carried 
out his attack. Now the sale of this firearm and high-capacity 
magazines are actually banned in California, but he went over 
to Nevada, bought them there, and brought them back to Gilroy.
    He killed Stephen Romero, age 6, who lived in my district, 
and Keyla Salazar, who was 13, who lived in my district, and 
Trevor Irby, who was just 25, lived over in Santa Cruz, and he 
injured 17 others, and he did that in under 60 seconds, because 
the Gilroy police, who were outgunned, actually ran up to him, 
and in less than a minute they shot him and then he shot and 
killed himself.
    So, I really am grateful to the Gilroy police officers, but 
I feel a need to take action, so that you can't have a weapon 
that can do so much damage in under 60 seconds, and kill 
innocent people who have a right to be able to go to a family-
friendly festival and not be in fear of their lives.
    After that, and Mayor, I heard your testimony about the 
impact on a community. It is very real for the people who were 
there, for their neighbors, for their fellow parishioners and 
their friends, but really it is the whole community. The next 
weekend there were family-friendly festivals that were 
cancelled because people were afraid to go out in public.
    So, we have created here a situation where the kind of 
thing that I had growing up, where I could go to a park or a 
grocery store, or walk down the street and not be afraid, that 
is not the case anymore, and we have an obligation to make sure 
that Americans have that same level of freedom that they had 
when I was a young person, and we have failed in that. That is 
why we are having this hearing today.
    I was interested, Mr. Chipman, your long experience in the 
whole law enforcement, weapons area. Have assault weapons 
become more lethal since the expiration of the 1994 ban?
    Mr. Chipman. Certainly, I have seen a big leap in assault 
pistols. As I said in my opening testimony, on the streets 
during the 1980s and 1990s we were facing Tec-9s that carried 
handgun rounds, and now a blatant attempt to work around the 
intentions of the National Firearms Act and the regulation of 
short-barreled rifles, you can get AK and AR pistols, which 
were not used in war. They were developed to kill people here 
domestically. I don't think I know any common gun owners who 
look to that as a great self-defense weapon. They fire rounds 
that leave devastating wounds, and we saw that in Dayton. They 
are outside the norm and they are more lethal.
    Ms. Lofgren. Now I am wondering, when I think about 
California and the actions taken by the State legislature and 
governor to make the State safer. Do you think State laws are 
sufficient, given that, as in Gilroy, the shooter can just 
cross a State line and get something banned in his own State?
    Mr. Chipman. We need a national comprehensive approach. I 
was just out in Denver, and we are talking to people there, 
focused on the issue of gun violence. Half of their crime guns 
come from other states. Many of the crime guns in Chicago, that 
we heard talked about earlier, are coming from states like 
Indiana, and that is from firearms trafficking. If we had 
comprehensive and universal laws and approaches to regulation 
at the national level, there would not be this interstate 
travel to go and work around the law.
    It is really no different than when we had different 
drinking age. Kids would go to another State to buy underage. 
So, I think that is why it is important for us here to be, as 
Federal authorities, making decisions for the country as a 
whole.
    Ms. Lofgren. Well, I thank you for that but there is a 
difference, because a 19-year-old going to drink in New York is 
a lot different than a 19-year-old going to Nevada and killing 
children in Gilroy.
    Mr. Chipman. Absolutely.
    Ms. Lofgren. I yield back, Mr. Chair.
    Mr. Deutch. The gentlelady yields back. Mr. Chabot is 
recognized.
    Mr. Chabot. Thank you, Mr. Chair. I wasn't yet a member of 
this body when the 1994 gun ban was passed. I was elected that 
year and sworn in the following year. As a strong supporter of 
the Second Amendment, I would not have voted for that at the 
time.
    I would note that when the so-called assault weapons ban 
was in place it 1994 to 2004, I would note, that is when the 
Columbine shooting took place, right in the middle of that. I 
think it was '99 if I am not mistaken. I think contrary to the 
majority's belief, there is really no conclusive evidence that 
the weapons ban had any appreciable effect on mass shootings or 
violent crime.
    Ms. Swearer, would you want to comment on that? Is that 
you're understanding as well?
    Ms. Swearer. Thank you, Congressman. That is my 
understanding and that was the understanding of those who 
released the official report after the ban expired. What they 
actually found was that should it be renewed it would be 
unlikely to have any meaningful or measurable effect, in part, 
because as I noted previously, these types of firearms are 
rarely used to commit crimes in the first place. It is actually 
handguns and non-assault weapons that are historically, and 
still to this day, most often used to commit crimes.
    Mr. Chabot. Thank you. Ms. Muller, you served as a law 
enforcement officer in, I believe, Tulsa, Oklahoma. Is that 
correct?
    Ms. Muller. Yes, sir.
    Mr. Chabot. Thank you for your service. When you were a law 
enforcement officer, that was during the assault weapons ban 
when that was in place. Is that correct?
    Ms. Muller. Before, during, and after.
    Mr. Chabot. Okay. Given your experience, would you agree 
with Ms. Swearer relative to whether there is any evidence that 
we were any safer as a society, as a community, when that was 
in place, or what are your thoughts about that?
    Ms. Muller. Yes, I would agree with her. Personally, 
professionally, it had zero impact on me. I saw no difference 
before, during, or after the beginning or the end of the 
assault weapons ban from 1994 to 2004.
    Mr. Chabot. Thank you. Ms. Muller, could you describe some 
of the misconceptions that you frequently hear when it comes to 
the discussion surrounding so-called assault weapons?
    Ms. Muller. One of the things, when we talk about weapon of 
war, I hear it being a weapon of war. First, anything can be 
used as a weapon when you are in battle, I suppose. An AR-15, 
specifically, I have friends that have served in combat roles 
and they have told me that is not a desirable round. They do 
not like the AR-15, the .223 or the 5.56. This is their 
personal opinion, but they would much prefer to carry a .308 or 
something with greater stopping power.
    Mr. Chabot. Okay. Thank you. The guns that we are 
discussing here this morning, do people use these to hunt? Do 
they use them for self-defense? They suitable for both? Could 
you comment on that?
    Ms. Muller. Yes, sir. We certainly use them in my family. 
We use them for both. I will have to be the law-abiding citizen 
that does have a pistol AR, and I choose that because it is 
more compact, and it does give me the greater capacity. It is 
just a better defensive firearm, and it fits better in my car, 
in my vehicle, that I am traveling in. So, it is a little bit 
easier to move around, but I get the same advantages of the AR.
    Mr. Chabot. Thank you very much.
    Ms. Swearer let me go back to you, if I could. What do you 
believe are the major motivations behind the mass shootings 
that we have seen, and it is your opinion that we ought to be 
focused on what is actually causing these things, as opposed 
what we are focused on here today?
    Ms. Swearer. Congressman, that is absolutely my opinion, 
and it is very clear when you look at mass public shooters, 
what you see is much higher rates of untreated, serious mental 
illness. So, people who--like one-fourth of mass public 
shooters have been diagnosed with a serious mental illness or, 
as two-thirds of them have, what you are actually seeing is 
people who are not in a mentally stable place, even if they 
haven't been officially diagnosed with any sort of mental 
illness.
    These are, by and large, individuals who are not in a good 
mental place or showing clear signs of being a danger to 
themselves or others, where there is room for intervention with 
them. So, that is one of the avenues we have to look at, is how 
do we actually treat those underlying problems and intervene in 
an effective, narrow way, specifically for those dangerous 
individuals.
    Mr. Chabot. Thank you very much. My time has expired, Mr. 
Chair.
    Mr. Deutch. The gentleman yields back. Mr. Cohen is 
recognized.
    Mr. Cohen. Thank you, Mr. Chair. Let me ask Mr. Chipman, as 
a former IACP person myself, as a legal advisor a long time 
ago, these weapons are made by lots of companies. Is that not 
correct?
    Mr. Chipman. That is correct.
    Mr. Cohen. So, is Colt the exclusive manufacturer of AR-
15s?
    Mr. Chipman. No, they are not. We have a variety of ways 
that you can acquire an AR-15 model. There are imported ones.
    Mr. Cohen. Colt has decided not to produce anymore, 
manufacture anymore. Is that right?
    Mr. Chipman. They describe the market as flooded, and it is 
my belief that it is flooded by foreign-made ARs, and the 
ability to make one your own now.
    Mr. Cohen. Are some of those--would any of those be coming 
from Russia?
    Mr. Chipman. The Russian model that I am familiar with 
would be more an AK variant.
    Mr. Cohen. AK-47?
    Mr. Chipman. Yep.
    Mr. Cohen. Are they sold here?
    Mr. Chipman. They are not only sold here, but they are also 
now manufactured in this country, if you are talking about 
Kalashnikov.
    Mr. Cohen. How long have they been manufactured here?
    Mr. Chipman. I don't--I am not certain.
    Mr. Cohen. Okay. A few years ago, I was in Russia, maybe 
three years ago, and there was an effort then, by the Russian 
government, to try to change our policies and get more 
Kalashnikovs sold in this country. Do you know what they would 
have been trying to do? This was before the election of 
President Trump. I was there during Obama's term.
    Mr. Chipman. I am aware that companies like Kalashnikov 
found it advantageous to build the guns here in America to not 
have to deal with some other import issues.
    Mr. Cohen. was there a restriction on them, manufacturing 
here?
    Mr. Chipman. I am not aware.
    Mr. Cohen. Okay. Do you know anything that has happened 
during the Trump Administration that might have benefitted 
Kalashnikov?
    Mr. Chipman. I am not.
    Mr. Cohen. Okay. Do know the official position of the IACP 
on assault weapons?
    Mr. Chipman. For many years they have opposed and supported 
a ban on assault weapons.
    Mr. Cohen. Why is that?
    Mr. Chipman. I think, first, as a law enforcement 
organization, they saw a threat to law enforcement, and also 
were responding to these scenes. We are, I think, 200 off-duty 
officers were in Las Vegas being shot at. I know there were ATF 
agents. We have families too. So, I think it comes from a place 
that police are Members of our communities and they want to do 
a good job and keep streets safe. These are particularly lethal 
and threatening when in the wrong hands.
    Mr. Cohen. Mr. Chipman, how can you say that with a 
straight face when you realize that one good man with a gun 
could take out that person?
    Mr. Chipman. Yeah. I was trained to be that person, and I 
think that is a big myth. I think the first thing I learned 
when I was trained with Secret Service is, well, you don't have 
enough time to pull your gun. You need to get in the way of the 
bullet and get shot. So, I think that is what we see, is the 
reality is that any time you are responding to a shooting, a 
lot has happened very badly, and we can't have national policy 
relying on winning gunfights. We need to focus on preventing 
them.
    Mr. Cohen. I appreciate you recognizing my sarcasm.
    Chief Brackney, do you also agree, in your group, that 
assault weapons should not be sold in this country?
    Chief Brackney. Absolutely, and what actually is 
disingenuous is that we are arguing about terminology. When you 
looking down the face of a high-powered, high-velocity weapon, 
do you really want to ask is it an AR or an AK, and can you 
pull it one trigger at a time or is it a semi-automatic, or is 
it something more?
    I also say the same thing is when we are talking about, 
even arguing, pushing back against a ``the only person who 
should stop a bad person with gun is a good person with a 
gun,'' actually what stops a bad person with a gun is keeping a 
gun out of their hands to start with.
    [Applause.]
    Chief Brackney. Ask that from any law enforcement officer 
who has ever had to look down the face of a barrel. Go tell 
that to their families, their widows, their widowers, their 
children. Tell that to the community and the persons from all 
these mass shootings that we are going to argue about 
definitions versus the impact that it is having on our 
communities.
    Mr. Cohen. I know this hearing is about assault weapons, 
which is extremely important, but there is also armor-piercing 
bullets. Do you also agree that armor-piercing bullets have no 
place in our society?
    Chief Brackney. Absolutely. They are actually dubbed ``cop 
killers,'' is originally how they were put out on the streets, 
and that is because they could pierce through our bulletproof--
our protective gear, our personal protective equipment. So 
absolutely, and the organizations that I represent, and I am a 
part of PERF, IACP, NOBLE, and all of the other ones--we stand 
firmly behind that there is no place in society for the type of 
weapons that can do the type of damage to not only law 
enforcement but to the community at large.
    Mr. Cohen. Mr. Chipman, do you agree with that is the IACP 
position?
    Mr. Chipman. Yeah, absolutely, and there is ammo to defeat 
armor, like military armor, and then there are rifle rounds 
that defeat ballistic vests we wear, typically rated to defend 
against handgun rounds.
    Mr. Cohen. I thank each of you for your testimony, your 
service, and I stand with the police and the sheriff's 
department and not with the NRA.
    Mr. Deutch. The gentleman yields back.
    [Applause.]
    Mr. Deutch. Mr. Sensenbrenner is recognized.
    Mr. Sensenbrenner. Mr. Chair, thank you. You know, I would 
disagree with what has been said here, because one of the 
problems we had last time--and I was here when this was 
passed--was making proper definitions. So, if we want to 
achieve this goal, we have to have those definitions done 
correctly.
    Now I have heard a lot of the arguments on this, and a lot 
of it revolves around what the firearm looks like rather how 
the firearm works. It seems to me that the problem is how the 
firearm works.
    Now fully automatic, military-style rifles have been 
illegal for somebody to buy since the '30s, except with a very, 
very hard-to-get permit from the ATF. Rifles that are semi-
automatic are legal for hunting in most, if not all, states. I 
haven't got this up to date yet, but there are a lot of semi-
automatic hunting rifles that State DNRs or Fish and Game 
regulators feel are sporting rifles.
    I don't think we have any business here taking away hunting 
rifles from people who are not disqualified from owning them 
and people who think that hunting is a good sport. I am not a 
hunter, so I don't go out and sit in the cold during the deer-
hunting season. Let's define this correctly.
    I would like to ask, you know, some of the people who 
support banning, quote, ``assault rifles,'' tell me, do you 
think that hunting rifles ought to be banned if they are semi-
automatic?
    Let's start with you, Mayor Whaley.
    Ms. Whaley. Thank you, Representative. My point here today 
is just to reiterate that constitutional rights require a 
responsibility and balance, and the people of Dayton also have 
the right to be safe.
    Mr. Sensenbrenner. Can you give me a yes or no answer on 
whether hunting rifles ought to be banned, if we don't define 
this correctly?
    Ms. Whaley. I think that this body will define this 
correctly, and I think that will have--
    Mr. Sensenbrenner. What is your opinion? Not that--you are 
asking what our opinion is.
    Dr. Tovar, we got no answer from Mayor Whaley on whether 
hunting rifles ought to be banned, so let the record State 
that. Dr. Tovar?
    Dr. Rios-Tovar. So, the question is should hunting rifles 
be banned?
    Mr. Sensenbrenner. Yes.
    Dr. Rios-Tovar. Is that the question?
    Mr. Sensenbrenner. Yes.
    Dr. Rios-Tovar. I agree that there should be a definition 
of what a so-called assault rifle is, a so-called weapon that--
    Mr. Sensenbrenner. Just answer the question. If you have 
this definition of a semi-automatic firearm that looks bad 
because it has got shoulder thing and people can put--I don't 
own any firearms so I am not defining this correctly. But, I 
was not elected to sit here and tell people who like to hunt 
that all of a sudden, the firearm that they have been using 
legally, according to State DNR regulations, ends up being 
banned because we, in Congress, think it should be.
    Should we write a definition that is so broad that hunting 
rifles will be banned? Yes or no.
    Dr. Rios-Tovar. I think a definition should be made in 
terms of what should be legal and what should not.
    Mr. Sensenbrenner. Well, you are not answering the 
question.
    Chief Brackney, yes or no.
    Chief Brackney. Thank you for the question. I believe any 
weapon that can be used to hunt individuals should be banned.
    [Applause.]
    Mr. Sensenbrenner. Well, that is not what the Virginia DNR 
says.
    Ms. Rand?
    Ms. Rand. We think that you can clearly distinguish assault 
rifles from sporting, hunting rifles, and just because you can 
hunt with an AR-15 does not make it a hunting rifle. Having 
said that, we do not support a ban on true hunting rifles.
    Mr. Sensenbrenner. Okay. Well, we will put that down as a 
question mark.
    Ms. Swearer?
    Ms. Swearer. If the question is whether hunting rifles 
should be banned just because they are semi-automatic, the 
answer is no, and I would point out that, again, when we are 
talking about functional difference between hunting rifles and 
assault weapons, we are not talking about lethality and we are 
not talking about caliber. We are talking about things like 
pistol grips and barrel shrouds that don't change the 
functional mechanics.
    So, I would say no, we shouldn't be banning hunting rifles 
just because they have pistol groups and are easier to use.
    Mr. Sensenbrenner. Okay. Ms. Muller, and my time will be 
up.
    Ms. Muller. No.
    Mr. Sensenbrenner. I yield back.
    Mr. Deutch. The gentleman's time has expired.
    [Applause.]
    Mr. Deutch. I would like to briefly address the Members of 
the audience in the hearing room. We welcome and respect your 
right to be here. We also, in turn, ask for your respect as we 
proceed with the business of the committee, and it is the 
intention of the Committee to proceed with this hearing without 
disruptions, and we ask everyone to respect that.
    Mr. Cicilline, you are recognized for five minutes.
    Mr. Cicilline. Thank you, Mr. Chair. Thank you for holding 
the first hearing on assault weapons in 20 years.
    There is a reason why assault weapons have become the 
weapon of choice for mass killers. They are weapons of war 
designed to kill as many people as possible in as short a time 
as possible.
    On August 4th, a shooter used a lawfully purchased AR-15-
style assault rifle to take the lives of 9 people and injury 27 
more people in less than a minute in Dayton, Ohio. Just one day 
earlier, a gunman legally purchased an AK-47-style rifle and 
within minutes killed 22 people and injured 27 in a Walmart in 
El Paso. On July 28, 2019, a gunman legally purchased an 
assault weapon weeks before killing 3 people and wounding 12 
people at the Gilroy Garlic Festival in California, with police 
on the scene in under a minute.
    In each of these shootings, despite the quick response 
times and heroic efforts of law enforcement and first 
responders, 34 people were killed within a week's time and 60 
more people injured, and this does not even begin to account 
for the mental health consequences that these shootings have on 
survivors and the impacted communities.
    I want to welcome all of the wonderful advocates who are 
here, the family Members who have lost loved ones to gun 
violence and thank you for being here, and for being such a 
powerful voice in this debate. I particularly want to honor 
Mayor Whaley and thank her for her graceful and strong 
leadership in a very difficult time.
    I reintroduced H.R. 1296, the Assault Weapons Ban of 2019, 
to address the harm that mass shootings have on our communities 
and to keep the American people safe from senseless acts of 
violence. This bipartisan legislation, with 211 co-sponsors, 
prohibits the sale, transfer, manufacturing, and importation of 
semi-automatic weapons and ammunition-feeding devices capable 
of accepting more than 10 rounds, while protecting hunting and 
sporting rifles and assault weapons used by Members of the 
military and law enforcement.
    There are 215 weapons that are exempted in the bill that 
are sporting rifles and hunting rifles. So, this notion that we 
are going to ban hunters is false. Had the legislation been 
passed and signed into law, it would have prevented the 
tragedies we witnessed in Dayton, El Paso, and Gilroy.
    If you listen to my Republican colleagues on this Committee 
you would think the assault weapons ban is some radical idea 
that has never been done before. The truth is it was the law 
for 10 years, from 1994 to 2004. It passed the House with 38 
Republican votes. It worked, and no law-abiding American lost 
their guns.
    In mass shootings, 63 percent more people were killed when 
shooters used assault weapons or high-capacity weapons rather 
than other types of firearms, and during the 10-year period of 
the 1994 Assault Weapons Ban, mass shooting fatalities were 70 
percent less likely than when the ban was in place. With a ban 
it is less likely that Americans will be killed while at their 
favorite band concert, while hanging out a bar with friends, 
while praying at their places of worship, while simply going to 
school.
    Instead of attacking the problem of mass shootings head-on, 
we are building schools with curved hallways to minimize 
casualties from an active shooter, and we are sending our kids 
off to school with bulletproof backpacks. This is sickening. We 
have an opportunity to do something. We have a solution, one 
that worked and made a real difference.
    I am going to ask you, Ms. Rand, if you look at this 2016 
study by Professor Klarevas of the University of Massachusetts 
at Boston, he analyzed data on every gun massacre where six or 
more people were shot and killed, for 50 years, to analyze 
whether the 10-year-old Federal ban on assault weapons had any 
effect on massacres. As you can see, when the ban lapsed in 
2004, the numbers of gun massacres shot up, with a 183 percent 
increase in massacres, 34 massacre incidents, and a 239 percent 
increase in massacre deaths.
    So, does that establish, in fact, the effectiveness of the 
assault weapons ban?
    Ms. Rand. Well, I think that the 1994 ban definitely had a 
chilling effect on the industry. It was able to evade the law 
in certain ways, and your bill addresses all those things that 
the industry does. So, your bill would be even more effective. 
We know, from the statistics, that there clearly was a 
reduction in mass shootings, and since the ban lapsed, the 
industry has only become more and more and more aggressive.
    One point I would like to make about the increasing 
lethality, is the huge increase in the capacity of magazines. 
We very seldom saw 75-round, 100-round magazines. We see those 
all the time now.
    Mr. Cicilline. Thank you, Ms. Rand, and that, of course, 
the legislation I propose has the one characteristic that you 
previously spoke about.
    Ms. Rand. Yes.
    Mr. Cicilline. Chief Brackney, on August 14th of this year, 
six police officers in Philadelphia were shot during an eight-
hour standoff with a gunman using an AR-15. According to the 
Violence Policy Center, in 2016, one in four police officers 
killed in the line of duty was killed by an assault weapon, and 
in attacks on law enforcement that resulted in multiple police 
fatalities assault weapons killed 75 percent of those officers.
    In your opinion, would an assault weapons ban assist law 
enforcement with protecting themselves and communities from gun 
violence?
    Chief Brackney. Absolutely, and what we also want to 
consider is these open carry states. It is much easier to 
identify a person who has an illegal weapon if they are not 
allowed to have one to start. I wouldn't have to make the 
distinction whether it is a good person with a gun or a bad 
person with a gun. I absolutely support it. Thank you.
    Mr. Cicilline. Thank you, Mr. Chair. I have several 
unanimous consent requests. The first is a letter of support 
for the assault weapons ban signed by nearly 150 organizations, 
including the Newtown Action Alliance and the Brady Campaign.
    Mr. Deutch. Without objection.
    [The information follows:]

?

      

                      MR. CICILLINE FOR THE RECORD

=======================================================================


         LETTER OF SUPPORT FOR THE ASSAULT WEAPONS BAN

    President Donald Trump, 1600 Pennsylvania Ave. NW, 
Washington, DC 20500
    Senate Majority Leader, Mitch McConnell, 317 Russell Senate 
Office Building, Washington, DC 20S10
    Senator Majority WHIP, John Thune, United States Senate, 
SD-511, Washington, DC 20510
    Senate Minority Leader, Charles Schumer, 322 Hart Senate 
Office Building, Washington, DC 20510
    Senate Judiciary Chair, Lindsey Graham, 290 Russell Senate 
Office Building, Washington, DC 20510
    House Speaker Nancy Pelosi, 1236 Longworth House Office 
Building, Washington, DC 20510
    House Majority Leader, Steny Hoyer, 1705 Longworth House 
Office Building, Washington, DC 20510
    House Minority Leader, Kevin McCarthy, 2468 Rayburn House 
Office Building, Washington, DC 20510
    House Judiciary Chair, Jerry Nadler, 2132 Rayburn House 
Office Building, WashingTon, DC 20510

               CC: All Members of 116th Congress

    Dear President Trump, Speaker Pelosi, Leader McConnell, 
Leader Hoyer, Leader Schumer, Leader Thune, Leader McCarthy, 
Chair Graham, and Chair Nadler,
    Too many Americans are being senselessly gunned down in 
public spaces in towns and cities across the nation.
    With easy access to military-style semi-automatic assault 
weapons, bump stocks, and high capacity ammunition magazines, 
too many individuals have turned our schools, malls, concerts, 
movie theaters, stores, restaurants, nightclubs, food 
festivals, streets, workplaces, and places of worship into war 
zones filled with terror, devastation, and terrible loss. These 
weapons of war are also placing our law enforcement in grave 
danger as FBI data shows 1 in 4 law enforcement killed in the 
line of duty are killed with military-style semi-automatic 
assault weapons.
    Military-style semi-automatic assault weapons are designed 
to efficiently kill as many people as possible in the shortest 
amount of time available.
    On July 20, 2012, a 24-year-old White male killed 12 people 
and injured 70 others (58 from gunfire) with assault weapons 
and high-capacity magazines inside a Century 16 movie theater 
in Aurora, Colorado.
    On December 14, 2012, a 20-year-old White male killed 26 
children and educators with an AR-15 and high-capacity 
magazines in less than five minutes at Sandy Hook Elementary 
School in Newtown, Connecticut.
    On December 2, 2015, a homegrown extremist couple killed 14 
people and 22 others with assault weapons and high-capacity 
magazines in an attack at the Inland Regional Center in San 
Bernardino, California.
    On June 12, 2016, a 29-year-old security guard, killed 49 
people and injured 53 others with an assault weapon and high-
capacity magazines in an attack targeting LGBTQI community 
inside the Pulse Nightclub in Orlando, Florida.
    On June 3, 2017, gunmen armed with AK-47s trafficked 
illegally into Mexico killed 6 people and wounded 22 others at 
Chicho's Bar in Chihuahua City in Northern Mexico.
    On October 1, 2017, a 64-year-old White male killed 58 
people and wounded 851 (422 by gunfire) with an AR-15, bump 
stocks, and high-capacity magazines at the Route 91 Harvest 
Music Festival in Las Vegas, Nevada.
    On November 5, 2017, a 26-year-old White male, with 
domestic violence history and dismissed from the U.S. Air 
Force, killed 26 people (including an unborn baby) and wounded 
2 others with an assault weapon and high capacity magazines 
inside the First Baptist Church in Sutherland Springs, Texas.
    On February 14, 2018, a 19-year-old White male killed 17 
students and educators and injured 17 others with an AR-15 and 
high-capacity magazines at Marjory Stoneman Douglas High School 
in Parkland, Florida.
    On April 22, 2018, a 29-year-old male killed 4 people and 
injured 2 others with an AR-15 and high-capacity magazines at 
the Waffle House in Nashville, Tennessee.
    On October 27, 2018, a 46-year-old anti-Semitic White male 
killed 11 people and injured six others with an assault weapon 
and high-capacity magazines at the Tree of Life Synagogue in 
the Squirrel Hill neighborhood of Pittsburgh, Pennsylvania.
    On April 19, 2019, unidentified gunmen killed 14 people, 
including an infant boy, and wounded three others with AR-15s 
and AK-47s illegally trafficked into Mexico, at a family party 
in Minatitlan, Veracruz in Mexico.
    On May 3, 1, 2019, a 40-year-old disgruntled city employee 
killed 12 people and injured 4 others fatally with an assault 
weapon and high capacity magazines in a municipal building in 
Virginia Beach, Virginia.
    On June 18, 2019, a group of gunmen attacked a Mexican army 
patrol and killed 4 people and wounded 10 others using AK-47s 
illegally trafficked into Mexico, in Tlacotepec in the southern 
Mexican State of Guerrero.
    On Sunday, July 28, 2019, a 19-year-old male killed 3 
people and injured 13 others with an AK-47-type assault rifle 
and high-capacity magazines at the Gilroy Garlic Festival in 
Gilroy, California.
    On Saturday, August 3, 2019, a 21-year-old male with White 
supremacist ideation killed 22 people, including eight Mexican 
citizens, and injured 24 others with an AK-47-style assault 
rifle, high-capacity magazines and 8M3 ammunition in Walmart in 
El Paso, Texas.
    On Saturday, August 3, 2019, a 24-year-old male killed 9 
people and injured 31 others with a legally purchased 223-
caliber rifle and 100-round drum magazines in 24 seconds 
outside a nightclub at a nightlife district in downtown Dayton, 
Ohio.
    On August 31, 2019, a 36-year-old male traveling between 
the Texas cities of Odessa and Midland in a vehicle used an AR-
15 type assault weapon purchased in a private sale to kill 8 
people and injure 25 including 3 police officers and a 17-
month-old girl.
    There is absolutely no reason for weapons of war-assault 
rifles, assault pistols, and assault shotguns-to be sold on the 
civilian market. In 2004, Congress and President Bush failed to 
reauthorize and strengthen the 1994 federal assault weapons ban 
which enabled their use in Aurora, Sandy Hook, San Bernardino, 
Orlando, Las Vegas, Sutherland Springs, Parkland, Pittsburgh, 
Nashville, and Thousand Oaks mass shooting incidents in 
America. Now, the Gilroy, El Paso and Dayton families and 
communities are reeling.
    Unless you take immediate action to regulate assault 
weapons, high-capacity magazines, and bump stocks then the 
scope of death and destruction caused by weapons of war will 
continue to escalate and Americans and Mexicans will continue 
to live in fear.
    We are presenting a petition signed by over 250,000 
Americans calling on the President and Congress to demand that 
you Act now to stop the carnage with an effective federal ban 
on the civilian use of assault weapons, high-capacity 
magazines, and bump stocks. H.R. 1296 and S. 66 Assault Weapons 
Ban of 2019 are ready for a hearing and a vote. NOW is the time 
to act!
    Thank you. Sincerely,

    American Federation of Teachers
    Amnesty lnternational USA
    Arizonans for Gun Safety
    Avaaz
    Ban Assault Weapons Now!
    Bishops United Against Gun Violence
    Brady
    Catholic Religious Community, NY
    Ceasefire Oregon
    CeaseFire Pennsylvania
    Center of Ecumenical Studies
    Centro de Estudios
    CEO Pipe Organs/Golden Ponds Farm
    Change the Ref
    Chester Community Coalition
    Children's Defense Fund
    Citizens for Peace
    Coalition Against Gun Violence
    Coalition Against Gun Violence, a Santa Barbara County 
Coalition
    Coalition to Stop Gun Violence
    Colorado Ceasefire
    Courage Campaign
    CT Against Gun Violence
    Delaware Coalition Against Gun Violence
    Democracy Action Marin
    Disciples Home Missions, Christian Church (Disciples of 
Christ) denomination
    Docs Demand Action
    Doctors for America
    Dominican Sisters of Blauvelt, NY
    Dubuque Coalition for Nonviolence
    Ebony's Hope
    Ecumenicos a.c./Center of Ecumenicos Studies, Mexico City
    Episcopal Peace Fellowship
    Falmouth Gun Safety Coalition
    Fellowship for Today
    Franciscan Action Network
    Friends Committee on National Legislation
    Friends of Michigan Animals Rescue
    Gays Against Guns
    Georgia Alliance for Social Justice
    Georgia Rural Urban Summit and others
    Georgians for Gun Safety
    Global Exchange
    Grandmothers Against Gun Violence, Cape Cod
    Greater Lansing Network Against War & Injustice
    Greenpeace, U.S.
    Gun Violence Prevention Action Committee
    Gun Violence Prevention Center of Utah
    Guns Down for America
    Gunsense Vermont
    Herd on the Hill
    Hoosiers Concerned About Gun Violence
    Huntington Woods Peace, Citizenship, & Action Project
    International Health & Epidemiology Research Center
    Iowans for Gun Safety
    Joint Action Committee
    Journey 4ward
    Jr. Newtown Action Alliance
    Lansing UN Association
    Latin America Working Group
    Lift Every Voice Oregon
    Long Island Activists
    Long Islanders for Gun Safety
    MA Coalition to Prevent Gun
    Violence Steering Committee
    March For Our Lives
    March For Our Lives, DC
    March For Our Lives, Maine
    March For Our Lives, Minnesota
    March For Our Lives, New Hampshire
    March for Our Lives, Texas
    March for Our Lives, Hebron, CT
    Marylanders to Prevent Gun Violence
    Michigan Coalition to Prevent Gun Violence
    Michigan Unitarian, Universalist Social Justice Network 
(MUUSJN)
    Million Hoodies Movement for Justice
    Missionary Sisters of Immaculate Conception
    MomsRising
    Mt. Vernon Unitarian Church
    NALC
    Nassau NOW
    National Council of Jewish Women
    National Education Association
    National Equality Action Team (NEAT)
    National LGBTQ Task Force Action Fund
    Nebraskans Against Gun Violence
    New Mexicans to Prevent Gun Violence
    Newtown Action Alliance
    NoRA
    North Carolina Council of Churches
    North Carolinians Against Gun Violence
    Ohio Coalition Against Gun Violence
    Orange Ribbons for Gun Safety
    Pax Christi Michigan
    Peace Action of Michigan
    Physicians for the Prevention of Gun Violence
    Physicians of Social Responsibility
    Pride Fund to End Gun Violence
    Programa Casa Refugiados, Mexico City
    Psychiatrists for Gun Violence Prevention
    Reconstructionist Rabbinical Association
    Rhode Island Coalition Against Gun Violence
    Safe Places Alliance
    Safe Tennessee Project
    San Diegans for Gun Violence Prevention
    School Sisters of St Francis, Pittsburgh, Pennsylvania
    Sisters of St. Francis of the Neumann Communities, 
Syracuse, New York
    Srs. of St. Joseph of Carondelet, Los Angeles, California
    St. Bonaventure Province
    St. Marks Episcopal Church, Capitol Hill, DC
    States United to Prevent Gun Violence
    Stop Handgun Violence
    Suffolk Progressives
    Survivors Empowered Action Fund
    Survivors Lead
    The Campaign to Keep Guns Off Campus
    The Connecticut Effect
    The ENOUGH Campaign
    The Florida Coalition to Prevent Gun Violence
    This Is Our Lane
    UltraViolet
    Unitarian Universalist Faith Action, New Jersey
    Urban Word, NYC
    UUPLAN Unitarian
    Universalist PA Legislative Action Network
    Violence Policy Center
    Vision Quilt
    Vote Like a Mother
    Washington Ceasefire
    WAVE Educational Fund
    We the People for Sensible Gun Laws
    Wheaton Franciscan Sisters
    Woman's National Democratic Club
    Women Against Gun Violence
    Women's March
    Women's Voices Raised for Social Justice

    Mr. Cicilline. I ask unanimous consent to have a report, a 
study by the Violence Policy Center that shows one in four law 
enforcement officers slain in the line of duty by an assault 
weapon.
    Mr. Deutch. Without objection.
    [The information follows:]



      

                      MR. CICILLINE FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Cicilline. I ask unanimous consent that this report of 
a 2018 study published in the Journal of Trauma and Acute Care 
Surgery, which found that mass fatalities were 70 percent less 
likely to occur during the 1994 Assault Weapon Ban, period.
    Mr. Deutch. Without objection.
    [The information follows:]



      

                      MR. CICILLINE FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Cicilline. An article reflecting a poll by Morning 
Consult showing 70 percent of Americans, including the majority 
of Republicans, support an assault weapons ban.
    Mr. Deutch. Without objection.
    [The information follows:]



      

                      MR. CICILLINE FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Cicilline. Finally, a Fox News poll that shows 67 
percent of Americans support an assault weapons ban.
    Mr. Deutch. Without objection.
    [The information follows:]



      

                      MR. CICILLINE FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Cicilline. Thank you, Mr. Chair. I yield back.
    Mr. Deutch. The gentleman yields back.
    [Disturbance in hearing room.]
    Mr. Deutch. Another reminder for the audience that while we 
appreciate your being here, we request that you refrain from 
making any noise or otherwise disrupting the proceedings, or, 
like the last gentleman, Capitol Police will remove you from 
the audience so that we can return to order.
    Mr. Buck, you are recognized.
    Mr. Buck. Thank you, Mr. Chair. Ms. Whaley, you mentioned 
in your opening statement that the shooter in Dayton was 
neutralized by the police. Was the shooter killed by police?
    Ms. Whaley. Yes, Representative.
    Mr. Buck. Was he killed with a gun or several guns?
    Ms. Whaley. Several guns.
    Mr. Buck. Okay. Mr. Chipman, would you agree with me that 
most gun violence is caused--I am sorry--that most violence is 
caused by handguns, most gun violence is caused by handguns?
    Mr. Chipman. Most criminal gun violence, a handgun is used 
in that violence.
    Mr. Buck. Would you also agree with me--first of all, let 
me thank you for your 25 years of experience with the ATF. I 
spent 15 years as a Federal prosecutor, 10 years as a district 
attorney, worked many times with ATF, and appreciated their 
hard work.
    Would you also agree with me that gang and gang Members are 
responsible for upwards of 90 percent of all violent crimes in 
this country, and nationwide, 80 percent of all gun-related 
homicides in the U.S. are caused by gang Members?
    Mr. Chipman. That conflicts with all the information I 
have.
    Mr. Buck. Have you ever used Gang Database while you were 
with the ATF?
    Mr. Chipman. Sure.
    Mr. Buck. Did you find Gang Database reliable?
    Mr. Chipman. It depends on what I was looking for.
    Mr. Buck. Gang affiliation?
    Mr. Chipman. Yeah, the gang affiliation is a very loose 
term that law enforcement can label people. Again, my hesitancy 
is that there was nothing in my 25-year experience at ATF that 
suggests that 90 percent of gun crime is tied to gangs, nothing 
at all.
    Mr. Buck. I asked you about gang affiliation but let me ask 
you about the NICS database. Are you familiar with the NICS 
database?
    Mr. Chipman. Yes, I am.
    Mr. Buck. Have you ever run across a false positive in a 
NICS database, meaning someone who has been identified as a 
prohibited person because of a prior felony or other reason, 
and yet the database indicated that this particular person who 
attempted to purchase a gun was prohibited, and they were not 
prohibited?
    Mr. Chipman. Yes, very rarely.
    Mr. Buck. Okay. But it happens.
    Mr. Chipman. It has happened.
    Mr. Buck. Okay. Ms. Swearer could we put a picture up 
please? Ms. Swearer, my question to you is, approximately how 
many AR-15s are owned in America?
    Ms. Swearer. So, there is no precise estimate, but if we 
are talking about the AR-15 semi-automatic general rifle 
platform of that nature, estimates are at least several million 
into upwards of 16 to 18 million.
    Mr. Buck. Upwards of 16 to 18 million. And approximately 
how many have been used in mass shootings in the last decade, 
for example?
    Ms. Swearer. Probably several dozen. I--
    Mr. Buck. Several dozen. Okay.
    Ms. Swearer. Yes, sir.
    Mr. Buck. So, several dozen minus the 16 to 18 million, my 
Democrat friends are suggesting that those law-abiding citizens 
have those weapons taken away from them. Is that correct?
    Ms. Swearer. That is my understanding. Yes, sir.
    Mr. Buck. Okay. Do you see the AR-15 that I am holding with 
a former member of the Judiciary Committee, Trey Gowdy, from 
South Carolina?
    Ms. Swearer. Yes, sir, I do.
    Mr. Buck. Can you tell, by looking at that gun, if that gun 
has ever killed anybody?
    Ms. Swearer. No, I cannot.
    Mr. Buck. Why is that?
    Ms. Swearer. Frankly, I don't know who is holding it. I 
don't know its history. If I had to guess, based on statistics 
alone, there is a very, very high chance it has never been used 
to kill an innocent human being.
    Mr. Buck. Along with the 16 to 18 million guns that are in 
circulation in America right now.
    Ms. Swearer. That is correct. The vast majority of them 
will never be used in criminal actions.
    Mr. Buck. Are those individuals--and let me just tell you, 
from my experience in my district in Eastern Colorado, an AR-15 
is used to kill raccoons or foxes or other animals that are 
predators and trying to disturb individuals for trying to kill 
chickens or are disturbing agriculture in some way. Is that 
your understanding and, I am not saying a majority of that 16 
to 18 million, are some of those guns used?
    Ms. Swearer. Yes. It is actually not suitable for a lot of 
higher-end hunting for larger game because it is actually more 
suitable for, as you inferred, more varmint hunting, small 
predator hunting.
    Mr. Buck. Okay. And what would the effect, Ms. Muller, of 
this particular law that we are discussing now have on law-
abiding citizens in terms of either using weapons to protect 
domestic animals or farm animals, or for self-defense? What 
would the effect be for those 16 to 18 million that we have 
just identified with Ms. Swearer.
    Ms. Muller. It would criminalize us having the firearm that 
we choose to use, that as Ms. Swearer said, her mother was able 
to use accurately. I don't understand some of the conversation 
that we are having about making it more difficult for the 100 
million people that might have these weapons, make it more 
difficult for them to control or use properly.
    Mr. Buck. I yield back.
    Mr. Deutch. The gentleman's time has expired.
    Mr. Richmond, you are recognized.
    Mr. Richmond. Thank you, Mr. Chair, and I don't necessarily 
profess to be an expert in hunting varmint, but my general 
sense is that if you hit them with an AK-15 you are not hunting 
them, you are killing them, and that is the only purpose of 
doing it.
    Let me just get two things straight with Ms. Swearer and 
Ms. Muller. Both of you all mentioned that the purpose you see, 
especially with your mother and her choosing her firearm, was 
accuracy and stopping power. So, when you describe 
characteristics for self-defense you would characterize 
stopping power and accuracy as primary objectives?
    Ms. Muller. Yes, sir.
    Ms. Swearer. Yes. If I have a threat, I want it to stop.
    Mr. Richmond. Okay. Now let me go to Chief Brackney really 
quick, with NOBLE. Let's take the gun, the FN Five-Seven, for 
example, which has zero knockdown power, but its bullets will 
go through your shield, if you have an armor shield, and your 
vest. If it has zero stopping power, what self-defense purpose 
does that gun, the FN Five-Seven, have?
    Chief Brackney. It would not. When you think about stopping 
power and the risk of being on the other end or the receiving 
end of those high-velocity, high-capacity rounds, and things 
that can go through them, you want to think about accuracy.
    I do appreciate the story about a mom having the ability to 
be very accurate and to have a very tight capacity and putting 
rounds in a place. So, think of the damage that if my mom, who 
is 78, God bless her, if she decided she wanted to be extremely 
accurate, what about the person who is very well-intentioned? 
How accurate could they be? How quickly could they be and the 
damage that they could do, very well-intentioned?
    Mr. Richmond. Let me also ask, because I know that our law 
enforcement every day stop people who are citizens of the 
United States but who also answer to another calling and cause 
called sovereign citizen. If we just take my district, since I 
have been in Congress, I have lost five officers who were 
overpowered by perpetrators because they were better-armed than 
my police officers, one of which was in Baton Rouge, Louisiana, 
both within--we can argue over assault rifle, how we determine 
it.
    Let's just, for purpose of this hearing, call them weapons 
of mass destruction, because there are three officers in Baton 
Rouge whose families will never see them again, and two in St. 
John Parish, who will never see them again, because in St. John 
Parish it was a traffic stop that initiated, and sovereign 
citizen does not recognize law enforcement's ability to stop 
them. So, they exited the car with the trailer, with an assault 
weapon, ambushed the officers, and they never had a chance.
    If we go to Baton Rouge, the officers responded to the 
call, knew the perpetrator was dangerous, but they had 
handguns. He had a long gun, wearing body armor, and they never 
stood a chance.
    So, in the sense of patrolling--and I guess I am trying to 
make a balance in between that need for a weapon of mass 
destruction and the need for self-defense, because I think of 
my family. When I thought about my family not being necessarily 
the best in marksmanship, I thought about having a shotgun 
which has a wide spray. Then there is a gun called ``The 
Judge,'' which is a--could fire a .357 bullet--it is revolve--
or it could fire a shotgun shell, which is great for self-
defense.
    The question becomes, why such large-capacity magazines on 
these assault weapons and assault rifles, if we are talking 
about hunting? When you hunt, you miss, you load up again, you 
try again. If your goal is mass carnage, then you just keep 
pulling your trigger, or you install a bump stock and you can 
create multiple carnage.
    So, from a law enforcement standpoint, I am trying to 
figure out, for the home, self-defense, are we really talking 
about self-defense when are talking about these weapons of mass 
destruction? God forbid, if you lived in an apartment complex 
or a community with attached homes, how the bullets will go 
through the walls and travel apartment after apartment after 
apartment, if you have the wrong one.
    So, in your law enforcement estimate, does the self-defense 
argument hold water when you are talking about weapons that 
shoot such high-velocity projectiles and has such large-
capacity magazines?
    Chief Brackney. Thank you for that. In 2009, in Pittsburgh, 
Pennsylvania, April 4th, a domestic case, an individual had a 
weapon for protection in their home. Three officers responded 
to that domestic because a dog urinated on the floor. When they 
arrived, immediately open fired ambush. I lived three homes 
down from that killing. The person, perpetrator, shot the 
officers immediately in the face as soon as they opened the 
door. That went through their vest. He then proceeded, with his 
high-powered weapon to shoot the second officer, who he thought 
he was playing possum. He then shot him in his face, leaving 
that officer a widow and two small children.
    An off-duty officer was responding from around the corner. 
He then got out of his car. He unloaded approximately 30 rounds 
into that officer, who laid dying on the street, as we 
exchanged over 600 rounds. We were out-gunned, out-fired, out-
firepowered at that time.
    That weapon was supposed to be for his protection of his 
home. It was definitely used as an assault weapon to murder 
three officers in the City of Pittsburgh. That city has been 
traumatized. I mean, it has been 10 years, exactly, to this 
date. Thank you.
    Mr. Richmond. Thank you.
    Chair Nadler. [Presiding.] Thank you. The time of the 
gentleman has expired.
    The gentleman from Texas.
    Mr. Gohmert. Thank you, Mr. Chair.
    Mayor, I was curious. You had indicated in your testimony 
that you are here basically to ask us to do something. What 
bill would you like to be passed to effectively, in your words, 
do something?
    Ms. Whaley. Well, there are a number of bills that are 
before you.
    Mr. Gohmert. What would be your favorite?
    Ms. Whaley. Well, I would first, for this body, I think 
that the Assault Weapons Ban bill that Representative Cicilline 
has put forward is very thoughtful and should move forward. 
That bill would affect the Dayton shooting, frankly, and so it 
would make a great difference, so there won't be cities like 
Dayton that have experienced this kind of a trauma.
    Mr. Gohmert. Okay. I appreciate that. It is just, what you 
hear people, especially in this committee, at times say, even 
if it is wrong, we need to do something, and that is not the 
way you maintain a constitutional republic and you maintain any 
freedom if it is not very thoughtful.
    Doctor, you were mentioning the wounds, the horrific wounds 
you were dealing with, and you mentioned that normally you are 
dealing with pencil-hole injuries that are sometimes hard to 
find. Well, those pencil-hole injuries are normally made by a 
.223 caliber, just barely a hair bigger than a .22. Isn't that 
right? You were looking at more like a .308, because it was 
more similar to an AK-47 one, correct?
    Dr. Rios-Tovar. I don't know the types of weapons--
    Mr. Gohmert. The nomenclature. Yeah.
    Dr. Rios-Tovar.--to be honest.
    Mr. Gohmert. My understanding is basically a manufactured 
AK-47 that is much, much bigger than the AR-15, which is a .223 
round, just barely bigger than a .22, whereas the AK, the 
nomenclature in the Army they taught us 7.62, but basically 
like a .308, and those can do devastating damage. My 
understanding is that somebody privately made that and sold 
that.
    Dr. Rios-Tovar. Apart from shotgun wounds, which are also 
devastating because of the large impact, I haven't seen 
anything like this in my history as a trauma surgeon, and since 
then as well.
    Mr. Gohmert. I appreciate the help that you provided.
    Ms. Swearer, you talked about the use of guns between 
500,000 to 2 million times a year. Is that correct?
    Ms. Swearer. Yes, sir.
    Mr. Gohmert. It is rather amazing that that many times 
people would need to use guns to defend themselves, rather 
shocking. I certainly appreciate your comments about your mom. 
It is easier to fire one of those. I have to disagree with you 
when you say it has the maximum stopping power. After Vietnam, 
we were taught that, in the Army, that we went to the M-16--now 
the M-4, same nomenclature, same .223-size round--that it was 
faster and might be more likely to wound, but it doesn't have 
the stopping power of a .308.
    Ms. Swearer. To be clear, Congressman, I would not disagree 
with you. My intent was to show that it has more stopping power 
than a handgun, so she can use it more accurately and more 
effectively.
    Mr. Gohmert. I would have to disagree with you there. A 9 
mm, a .45, a .38, they have a lot more stopping power than an 
AR-15 .223 round. Correct?
    Ms. Swearer. I would disagree with you, in some cases.
    Mr. Gohmert. You don't think a bullet hole from a 9 mm 
would do more damage than a .223 round?
    Ms. Swearer. I would say I would much rather have a 9 mm 
than no firearm, but generally speaking it is a combination of 
both stopping power and--
    Mr. Gohmert. Don't you acknowledge that your mother was 
more comfortable with the .223 because it doesn't have the 
kick, it is not as intimidating, you can refire it more easily. 
Correct?
    Ms. Swearer. Yes, but part of that is also just the 
inherent setup of a rifle. It is a more stable.
    Mr. Gohmert. We have seen the gun stats go back and forth--
or crime, rather, go back and forth over the years, and it 
seems to me that it was related to putting criminals in jail, 
being tough on crime, the pendulum swings back. Now it looks 
like the pendulum is swinging against the law-abiding citizens 
for the first time, and that really is a concern.
    I yield back.
    Chair Nadler. The gentleman yields back. The gentleman from 
Georgia.
    Mr. Johnson of Georgia. Thank you, Mr. Chair. 20-five years 
ago, we passed a law that prevented the manufacturer or sale of 
assault weapons for ordinary Americans, and it made a 
difference. Mass shooting fatalities dropped 70 percent between 
1994 and 2004. Fifteen years later Congress failed the American 
people by allowing the assault weapons ban to sunset. That was 
in 2004. Since then we have had repeatedly failures. We have 
had repeated failures to make even modest reforms to unfettered 
gun access in the United States.
    Because of our 15 years of inaction, we are now living a 
tragedy, a tragedy of repeated horrific events interspersed 
with lulls where American ideals of freedom and safety and 
justice crumble before our very eyes. For what? Because folks 
are afraid of the NRA?
    There is a time for moderation, for cautious, restrained 
debate, but that ended when Sandy Hook happened, when Parkland, 
Pulse nightclub, El Paso, and Dayton happened. Now is the time 
for justice to reassert itself as a guiding American principle, 
and it is time for Congress to do the right thing.
    According to recent polls, 7 out of 10 people are in favor 
of a ban on the manufacture and sale of assault weapons. There 
is broad consensus on this issue because it makes sense. We 
have done it before and we can do it again, and I look forward 
to hearing from our panel of esteemed witnesses on this 
important topic.
    Now the Protection of Lawful Commerce in Arms Act was 
passed in 2005, the year after Congress allowed the assault 
weapons ban to expire. The Protection of Lawful Commerce in 
Arms Act prohibits people from filing wrong death lawsuits 
against gun manufacturers and gun dealers. When the families of 
the Sandy Hook victims took Remington Outdoor Company to court 
for mass marketing assault weapons to civilians, specifically 
for mass shootings, it took the case five years just to 
overcome a challenge under the PLCAA, and that was one of the 
success stories. What we don't see are all of the assault 
weapons cases that are not brought into civil court because of 
PLCAA.
    Mr. Chipman, how does the existence of the Protection of 
Lawful Commerce in Arms Act prevent victims and their families 
from seeking justice?
    Mr. Chipman. I block them from holding an industry 
accountable before a court of law, like every other business in 
America is held accountable.
    Mr. Johnson of Georgia. Civil suits often Act as a 
regulator to prevent negligent acts by companies that otherwise 
have no regulatory incentive to Act in the best interest of 
consumers, and not just negligent acts but intentional acts and 
fraudulent acts, to cover it up.
    Do you believe that assault weapons companies are taking 
steps to avoid negligence when they manufacture these devices 
and sell them to civilians?
    Mr. Chipman. I think certainly their marketing these days 
is suspect. I think that even the markings on AR receivers that 
the company that sold in Dayton, that you can get them saying 
``Not made in my s-hole country'' are marketing to a certain 
type of extreme and violent part of this country. We have 
seemed to balance this with cigarettes, allow people to 
lawfully smoke but protect our Nation from marketing that would 
put people at harm.
    So, also, the other thing that has been effective in 
keeping data out is just the restrictions placed on me at ATF, 
the data that wouldn't hurt my criminal investigations but 
might be useful to this panel to decide what crime guns are the 
most popular amongst criminal? How do they get in criminals' 
hands? You don't have access to that data. It is blocked.
    So, I think there is a whole host of things that make it 
very difficult to hold this industry accountable, like we hold 
accountable other industries.
    Mr. Johnson of Georgia. Thank you. If PLCAA were overturned 
or rescinded, what difference do you think it could make in how 
companies sell and manufacture assault weapons?
    Mr. Chipman. We would have to see how things played out in 
court, and I have faith in our judicial systems that if victims 
had an opportunity to be heard in court, courts would do the 
right thing to protect our nation.
    Mr. Johnson of Georgia. Thank you. My time has expired, and 
I yield back.
    Chair Nadler. The gentleman yields back. The gentleman from 
Arizona.
    Mr. Biggs. Thank you, Mr. Chair. Fewer than 1 in 50 of all 
prisoners that were incarcerated for a violent crime obtained a 
firearm from a local retail source and possessed, carried, or 
used it during the offense for which they were imprisoned. 
Among the 287,400 prisoners who had possessed a firearm during 
their offense, more than half either stole it, found it at the 
scene of the crime, obtained it off the street or from the 
underground market. That is the reality of where people get 
guns who use them to commit crimes.
    About 1.3 percent of prisoners obtained a gun from a retail 
source--1.3 percent. That is the reality of where people get 
guns, regardless of what kind of gun they have.
    Studies have indicated very clearly that higher rates of 
gun ownership are not associated with higher rates of violent 
crime. Switzerland and Israel have much higher gun ownership 
rates than the United States but experience far fewer homicides 
and have much lower violent crime rates than many European 
nations with strict gun control laws. Canada is ranked 12th in 
the world for the number of civilian-owned guns per capita and 
reports one of the world's lowest homicide rates. Even then, 
some provinces have a higher homicide rate than the United 
States' states, with less restrictive laws and higher rates of 
gun ownership.
    The Brady Campaign against Gun Violence ironically makes 
clear this point. Gun freedom states that scored poorly, like 
New Hampshire, Vermont, Idaho, and Oregon, have some of the 
lowest homicide rates. Conversely, gun control states that 
received high scores, like Maryland and Illinois, experienced 
some of the nation's highest homicide rates.
    Legally owned firearms are used for lawful purposes much 
more often than they are used to commit crimes or suicide. In 
2013, President Barack Obama ordered the Centers for Disease 
Control and Prevention to assess existing research on gun 
violence, and this is what they found. According to the CDC, 
self-defense can be an important crime deterrent. Semi-
automatic rifles such as the AR-15 are commonly used in self-
defense, especially in homes of law-abiding citizens, because 
they are easier to control than handguns, more versatile than 
handguns, and offer the advantage of up to 30 rounds of 
protection.
    Here are some examples of when an AR-15 has been used to 
save lives. Oswego, Illinois, 2018, a man with an AR-15 
intervened to stop a neighbor's knife attack and cited the 
larger weapon's intimidation factor as the reason why the 
attacker dropped the knife and ended the attack, saving the 
purported victim.
    Catawba County, North Carolina, 2018, a 17-year-old 
successfully fought off three armed attackers with his AR-15, 
saving his own life.
    Houston, Texas, 2017, a homeowner survived a drive-by 
shooting by defending himself with his AR-15.
    Broken Arrow, Oklahoma, 2017, a homeowner's son killed 
three would-be burglars with an AR-15, in what was found to be 
justifiable self-defense.
    Texas, 2013, a 15-year-old boy used an AR-15 during a home 
invasion to save both his life and that of his 12-year-old 
sister from a violent armed intruder.
    Rochester, New York, home intruders fled after facing an 
AR-15.
    Ms. Muller, you served as a law enforcement officer during 
the time that the previous assault weapon ban was in place, 
from 1994 to 2004. Did you see any impact, anecdotally, on your 
safety as a law enforcement officer or on those you were sworn 
to protect and serve?
    Ms. Muller. I have previously testified that I did not see 
any before, during, or after, and I am listening to these 
numbers and I would like to follow up on the 70 percent less 
likely to occurring an assault weapon's ban. I don't understand 
that, and I don't understand why we would have allowed it to 
sunset if it were an effective policy.
    Mr. Biggs. Yeah, well, it was contested, and as I reported, 
the CDC did its own study and didn't come up with the same 
conclusions.
    So, is there anything else that you hear today you would 
like to respond to?
    Ms. Muller. There is a lot.
    Mr. Biggs. Well, press on, then.
    Ms. Muller. Do I have 26 seconds?
    Mr. Biggs. Yep.
    Ms. Muller. Okay. I would like to--Congressman Richmond has 
already gone, but the FN Five-Seven, a little bit of education 
there. It shoots flatter. As a woman, it's less recoil. I love 
this little gun. It is not a fifty-seven. It is a Five-Seven, 
and it shoots flatter so I can be more accurate at longer 
distances. With the minimal recoil and it holds 30 rounds, for 
a pistol that is good. It has got kind of a weird grip but that 
allows me to protect myself better. This probably--and it does 
have knockdown power, yes.
    My goal here is to educate people. We are law-abiding, 
responsible gun owners, and please don't legislate the 150 
million people just like me into being criminals, because it 
has happened. You have already done it. The legislation on bump 
stocks, I was a bump stock owner, and I had to make a 
decision--do I become a felon, or do I comply?
    Like that gentleman that just got escorted out, I will not 
comply with the assault weapons ban.
    Mr. Biggs. Thank you.
    Chair Nadler. The gentleman's time has expired. The 
gentleman from Florida.
    Mr. Deutch. Thank you, Chair Nadler, for calling this 
important hearing today. Thanks to all the witnesses for your 
testimony. Welcome to all the advocates. I would especially 
like to welcome my constituents, Fred Guttenberg, father of 
Jaime, and Robert Schentrup, brother of Carmen.
    I ask unanimous consent to include statements from Jen 
Guttenberg and Ryan Deutch into the record.
    [The information follows:]

?

      

                       MR. DEUTCH FOR THE RECORD

=======================================================================


                        Orange Ribbons for Jaime

        What It Is Like to Lose a Child to Gun Violence

                     by Jennifer Guttenberg

             Co-founder of Orange Ribbons for Jaime

          (in honor of my beautiful Jaime Guttenberg)

                       September 25, 2019

    With all of the controversy over gun policies in this 
country, I thought this is the perfect time to discuss what it 
is like to lose a child to gun violence.
    February 14, 2018 seemed like it was going to be an extra 
special day. It was Valentine's Day, and after the typical 
chaotic morning getting my two teenagers out the door by 7 am 
so that they wouldn't be late for school, I was happy we would 
celebrate when they arrived back home with cards, candy and 
gifts. Unfortunately, that never happened.
    My kids were both in their respective classrooms at Marjory 
Stoneman Douglas High School in Parkland, FL when the fire 
alarm went off. It was close to the end of the day, so my son 
gathered his belongings and made his way outside, hoping he 
would be able to come straight home after the all clear. 
Instead, there was chaos. Gun shots were being heard. Kids were 
frantic. Chaos erupted. My son was told by an educator to run 
away from the school as far as he could. Imagine kids, with no 
supervision, climbing and jumping over the school fence and 
running down the street as fast as they could, while at the 
same time trying to reach their loved ones. He couldn't reach 
Jaime.
    We got call after call from him, breathlessly panicked that 
he couldn't find Jaime. She wasn't answering her phone. Nobody 
could reach her. She had been shot as she was trying to flee 
the hallway into the stairwell, but she couldn't get out in 
time. We couldn't get anywhere close to the school. We 
frantically called her friends to see if they had seen her, we 
raced to the trauma center at the hospital on the other side of 
town where the injured were being sent and we drove in circles 
trying to get around traffic to get to her. She never arrived 
at the meeting place where kids were reunited with their 
parents. We didn't learn of her fate for many hours. Then we 
couldn't see her for several days. We weren't allowed to 
identify her, touch her or hold her. We didn't know where she 
was shot or how many times. We didn't know if she suffered. We 
knew nothing. It was torture.
    Now she is spoken of in the past tense. My daughter WAS 
fourteen. She WAS a great student. She WAS a great friend. She 
WAS an amazing sister. And she WAS the best daughter that 
anyone could've asked for. Why? Because she was in the wrong 
place at the wrong time . . . and that ``wrong'' place was 
school for goodness sake! In the past this would have been 
known as the right place for a girl of her age to be. This is 
UNACCEPTABLE!!!!!
    I can't say the shock ever wears off, but rather reality 
simultaneously sets in. I no longer have my daughter here with 
me. I will never have my daughter here with me again.
    Life has changed dramatically. Within an instant, I lost my 
best friend. I no longer get to shuffle her around to school 
activities, dance, and her friends' houses. I no longer have a 
partner to shop with or to get pedicures together with for 
special occasions. I don't even want to attend any special 
occasions. I have nobody to watch dance shows with and nobody 
to do makeup on for dance competitions. don't ever want to go 
to a dance competition again. I have no one to obsess about our 
dogs with and no one to go out for a girl's lunch with me.
    I lost her because the wrong person was able to buy a 
weapon of mass destruction!
    There are some amazing people fighting daily, including my 
husband, to fix the loopholes in the gun laws. But for Jaime 
and the 16 others who were killed that day it's too late. I am 
disgusted by our government and the fact that many of them 
fight to remain beholden to the NRA. The gun lobby has no 
business being in our government. They never ran for office. 
They weren't chosen by the American people. I am sick and tired 
of our congressmen/women not standing up for what is right, for 
what the majority of people that elected them want, and for the 
safety of the citizens of the United States of America.
    My life is forever changed. My husband's life is forever 
changed. My son's life is forever changed. It's been nineteen 
months since Jaime's life was taken away, and it feels like an 
eternity. We get to watch her friends attend homecoming, 
football games, dance competitions, and sweet sixteen. We get 
to see social media posts about them getting their driver's 
licenses and their first car. They get to take the SAT and 
apply for college. Next we will see them move out and embark on 
their journey of independence, start working in the career of 
their choice, get married to the loves of their lives, and have 
babies who become beloved grandchildren. We don't get to see 
Jaime do any of these things. She was robbed of her life and 
her future. We were robbed of our life with our precious 
daughter.
    I've written several op-eds with the hopes that perhaps it 
will open other people's eyes and make them understand. Nobody 
will really know what it feels like to live with the image of 
your child running down the hallway for that very last time 
with an AR-15 pointed at her back. She was one of the unlucky 
ones. There are far too many unlucky ones. When it is YOUR 
family member that is the unlucky one, it is easy to 
understand.Now, it is important for EVERYONE to understand.
    For now, those of us and the communities that surround us 
who understand will fight for change. In addition, and most 
importantly, we will vote those out who care more about the 
money in their pockets than those who have suffered and the 
many more who will suffer in the future due to their lack of 
action This pain is unbearable. It doesn't get better. It gets 
more difficult with each missed a mile stone. In my family, 
three kisses means ``I love you.'' Jaime always wanted ten. We 
gave each other ten kisses every night. In the time that has 
passed without her thus far, I have missed close to 6,000 
kisses from my baby girl. That's just not fair . . . .

    Mr. Deutch. Seeing no objection, I will move on. Jen is the 
mother of Jaime Guttenberg. Jaime was a vibrant, beautiful, 14-
year-old freshman at Marjory Stoneman Douglas when she was 
killed by an assault rifle in her school on February 14, 2018. 
Jen said that on that day she lost her best friend and now must 
live with the image of her child running down the hallway, 
running away from an AR-15.
    Ryan was a freshman and survivor of the MSD shooting. He 
and others went on to find the March For Our Lives movement. 
Some of those students are here today and I want to welcome and 
recognize them.
    In his testimony, Ryan said, ``I am not just asking for 
change. I am begging for it, because I don't want to live in a 
country where every other day, I read about another community 
destroyed, another group of innocent lives ripped away from us. 
As Americans, we owe it to ourselves to do better, and we 
can.''
    I have all kinds of things, questions that I wanted to ask, 
but here is my response to what I have heard today. We have 
heard over and over about the people who need to have these 
guns, because they are easy to hunt critters, because they 
could be used for self-defense. These guns can also be used to 
hunt people. I have been carrying around this piece of paper 
since February 15th, 2018. I am going to read what is on it:
    Alyssa Alhadeff, 14. Scott Beigel, 35; Martin Duque, Mr. 
Williams. Nicholas Dworet, 17. Aaron Feis, 37. Jaime 
Guttenberg, 14. Chris Hixon, 49. Luke Hoyer, 15. Gina Montalto, 
Mr. Williams. Cara Loughran, 14. Joaquin Oliver, 17. Alaina 
Petty, 14. Meadow Pollack, 18. Helena Ramsay, 17. Alex 
Schachter, 14. Carmen Schentrup, 16. Peter Wang, 15.
    Every one of those 17 who were killed at Stoneman Douglas 
will never be older than that age, on the day they were killed.
    I understand the importance of the Second Amendment, but 
how it is that we can have a hearing where one of the witnesses 
compares these weapons to shoes is just beyond me.
    We are going to give a list--I have got another list. How 
about this list: Dayton, 9 killed, 17 injured. Las Vegas, 58 
killed, 422 injured. Orlando, 49 killed, 53 injured. Sandy 
Hook, 27 killed, including 20 6- and 7-year-old babies, and 2 
injured. Sutherland Springs, 26 killed, 20 injured. El Paso, 22 
killed, 24 injured. Pittsburgh Tree of Life, 11 killed, 6 
injured. At Stoneman Douglas there were also 17 who were 
injured.
    I understand that this is not easy for everyone, but I want 
to everyone to understand how, for the lives who have been 
ripped from the face of this earth, for their families it will 
never be the same. What we are trying to do here, the reason 
this hearing is so important, is because we know that there are 
things that we can do to keep us safe. We heard some of them, 
even apart from an assault weapons ban. We heard some of them 
today.
    Ms. Swearer, you talked about how we can identify people 
who pose a threat. You are right. We can. That is why we need 
to pass a Red Flags law so that we can keep dangerous guns out 
of their hands. You are right about that.
    The Universal Background Checks bill that is sitting in the 
Senate, near universal approval. Let's pass it in the Senate.
    But what we are here today to talk about is something that 
can prevent these kinds of attacks. Mr. Chipman, you talked 
about the National Firearms Act regulations to get assault 
weapons out of dangerous hands. You walked us through the 
process that it takes for someone to buy a weapon regulated 
under that system--registration with ATF, background checks, 
photos, fingerprints, and a transfer tax. You told us that it 
was passed after--the National Firearms Act of 1934 was passed 
after a Valentine's Day Massacre in 1929. We had a Valentine's 
Day Massacre in 2018, in my community.
    Have there been efforts--are there people clamoring for us 
to repeal the National Firearms Act, Mr. Chipman?
    Mr. Chipman. No. In fact, the industry is working very hard 
to work around it.
    Mr. Deutch. It is a law that has been in effect. Have we 
seen machine guns and sawed-off shotguns used repeatedly the 
way we have seen assault weapons used in these mass shootings?
    Mr. Chipman. No. It is a law that works.
    Mr. Deutch. It is a law that we should amend to treat 
assault weapons the same way we treat machine guns and sawed-
off shotguns. That will help keep our communities safe.
    Mr. Chair, I am immensely grateful that you are holding 
this hearing today. I yield back the balance of my time.
    [Applause.]
    Chair Nadler. Rules of the House provide there should be no 
demonstrations of approval or disapproval from the audience.
    Without objection, the documents referenced by the 
gentleman from Florida will be entered into the record.
    Chair Nadler. I now recognize the gentleman from Ohio.
    Mr. Jordan. Thank you, Mr. Chair.
    Ms. Swearer, did I pronounce that right?
    Ms. Swearer. Yes, sir.
    Mr. Jordan. All right. Ms. Swearer, define the type of guns 
the Democrats want to ban.
    Ms. Swearer. It appears to me common semi-automatic 
firearms that just happen to have certain features like pistol 
grips and barrel shrouds, even though they are functionally the 
equivalent of other commonly owned semi-automatic firearms.
    Mr. Jordan. Semi-automatic weapons with a magazine capacity 
of 10 rounds or more with scary features. Is that right?
    Ms. Swearer. Yes, sir. That is my understanding.
    Mr. Jordan. How many types of guns does that entail? Is 
that a lot?
    Ms. Swearer. A lot. Yes, sir.
    Mr. Jordan. All kinds of them?
    Ms. Swearer. Yes, sir.
    Mr. Jordan. I think in your opening remarks you talked 
about the scary features. They are just features. Other than 
the look, they don't change the impact the weapon may have on a 
bad guy trying to do someone harm, right?
    Ms. Swearer. No, sir. They don't change the function. In 
fact, some of them, like barrel shrouds, actually protect 
lawful users from things like serious burns.
    Mr. Jordan. And as I read the Second Amendment, it doesn't 
say the right to bear arms shall not be infringed unless the 
gun has scary features. It doesn't say that, does it?
    Ms. Swearer. No, sir. It does not.
    Mr. Jordan. Do you think bad guys are going to follow this 
law?
    Ms. Swearer. Sir, they already fail to follow many of our 
laws.
    Mr. Jordan. Yeah. Only good guys. Only law-abiding people 
like yourself, others, are going to follow this law, right?
    Ms. Swearer. Yes.
    Mr. Jordan. Do think law abiding people will be less safe 
to protect themselves, their family, their property, if this 
law that the Democrats are proposing actually happens? Or this 
bill that the Democrats are proposing actually becomes law?
    Ms. Swearer. I think worse than that, sir, you will see 
millions of otherwise law-abiding citizens become felons 
overnight for nothing more than having scary looking features 
on firearms.
    Mr. Jordan. Yeah. Do you think if a criminal suspects that 
a person they are thinking about targeting for a crime--if they 
suspect that individual may have a firearm do you think there 
is less chance they target them for a crime?
    Ms. Swearer. We actually know this to be the case. So, when 
you look at studies that have come out of the '90s between what 
are considered hot burglary rates, so burglary rates where 
individuals are home during the home invasion, that they are 
actually lower in the United States than in the United Kingdom.
    When they follow up with those criminals, part of the 
reason for that is that in the United States there is a fear 
amongst people who would commit burglaries and home invasions--
    Mr. Jordan. Yeah.
    Ms. Swearer. --that there might be someone home who would 
do something.
    Mr. Jordan. It is common sense. Bad guy is walking down the 
street. He is trying to figure out which home he is going to 
rob.
    In one driveway there is a pickup truck with a gun rack 
that says, ``Make America Great Again'' on the bumper sticker, 
right, and in the next driveway there is a Volkswagen with a 
bumper sticker that says ``O'Rourke for President.'' Who do you 
think they are going to rob?
    Ms. Swearer. Sir, I will refrain from making assumptions 
about who gun owners are. Generally speaking, criminals do tend 
to take the path of least resistance.
    Mr. Jordan. Of course. I always say this. Bad guys aren't 
stupid. They are just bad. They are just evil. They are not 
going to follow the law, and what this legislation will do is 
make it more difficult for law-abiding people like you, like 
all kinds of folks, to protect themselves when some bad guy is 
bent on doing something wrong.
    Ms. Swearer. Generally speaking, yes, and that is something 
we know happens right now between 500,000 and 2 million times a 
year is law-abiding Americans defending themselves with 
firearms.
    Mr. Jordan. Yeah.
    Ms. Muller, do you want to add anything? I got a minute 30.
    Ms. Muller. Yes, sir. Yes, sir.
    First, anybody in here who has endured any kind of 
unspeakable violence or lost loved ones, I want to say thank 
you or I am sorry because I want somebody there immediately.
    I want you to be your own first responder and I will be 
glad to talk to you about how to keep your family safe. I am 
sorry that this has happened to you and my community is the 
first one that wants to make sure everybody is safe with a 
firearm.
    These gun-free zones, 90 percent--over 90 percent--what we 
are talking about, these mass murders, are happening in gun-
free zones.
    Every time you guys legislate against the gun owner; you 
are counterproductive. It breaks my heart to hear these stories 
of these kids and their ages, and you have to put people back 
together in the hospital. It is--
    Mr. Jordan. Ms. Muller, sorry to interrupt here. Let me ask 
you one question. This is a ban on sale of this type of weapon 
as defined under the Democrats' legislation, as we move 
forward.
    But do you think this is just a first step? Do you take 
former Congressman O'Rourke at his word when he says, we are 
going to take these type of weapons--we are going to get these 
weapons? Do you think this is just step one that they are 
proposing?
    Ms. Muller. Yes. That is what I think the millions of gun 
owners are fearful in allowing this death by a thousand cuts.
    We have already had panelists here that say that every 
firearm is capable, lethal, and if it can hunt a human then it 
shouldn't be in our hands.
    So, and Mr. O'Rourke did probably expose a plan that that 
they have been denying for so long. We feel it. We know it. You 
can say it and call it whatever you want. But we know it is a 
slippery slope.
    Mr. Jordan. I think the--
    Chair Nadler. The time of the gentleman has expired.
    The gentleman from California?
    Mr. Swalwell. Thank you, Chair, and I want to thank the 
gentleman from Rhode Island, Mr. Cicilline, for bringing this 
legislation forward.
    Dr. Rios-Tovar, thank you for your work in the community, 
and it was hard to hear the story of the first patient that 
came to you that day. Was it a scary-looking feature that 
caused the death of that patient?
    Dr. Rios-Tovar. I don't know what that gun looked like. I 
just know what the bullet wounds look like and I know that when 
you have a high-capacity magazine, whether it is a semi-
automatic rifle that you are reloading multiple times, you have 
the capability to have devastating injuries to multiple 
casualties.
    Mr. Swalwell. Would you agree when you put a pistol grip on 
a long rifle where the round already has high velocity, high 
energy, you can take the least skilled shooter and they can 
indiscriminately spray a crowd and a would like the one that 
you had to attend to can occur?
    Dr. Rios-Tovar. I could assume so.
    Mr. Swalwell. It reminds me of a gunshot victim whose case 
I prosecuted in Oakland where the victim was shot in the back 
of the thigh and he succumbed the wounds. His mom she said, ``I 
don't get it.''
    You would think if you are shot in the leg or the arm that 
you would survive. That is where you would want to be hit.
    The ballistics expert in the autopsy, doctors said, 
actually no, because it was a long rifle round and 40 rounds 
were fired at him and he was hit just once. Just like the 
victim you attended to it leaves very little chance of 
survival.
    Mr. Chipman, also thank you for your service to our 
country, and I read your testimony and it seems to me that you 
support a ban on the future sales and manufacturing of assault 
weapons. Is that right?
    Mr. Chipman. Yeah, similar to what we did in 1986 with 
machine guns.
    Mr. Swalwell. I hear you and I agree with you as far as the 
National Firearms Act and making sure that they are registered.
    Would you agree that we want to ban future sales and 
manufacturing because it is a dangerous weapon different than a 
long rifle used for hunting or a pistol used to shoot for sport 
or a shotgun used to protect someone in their house? That this 
is just a different weapon?
    Mr. Chipman. Yes. They are particularly lethal.
    Mr. Swalwell. So, I guess my concern is, because I want 
this bill to pass--I will vote for it to pass. As you described 
earlier, if this passes, just like the 1994 law, we will still 
leave millions--the NRA estimates 15 million assault rifles in 
our communities.
    So, if these weapons are dangerous in the future, wouldn't 
you agree that they are dangerous now and that there has to be 
some way to protect people now from ever having their kids shot 
in the school, their parent shot in a church, their sister shot 
at a concert, from one of these weapons?
    Mr. Chipman. We absolutely have to address the most lethal 
weapons that are already in civilians' hands and I believe the 
National Firearms Act is the best way to approach that.
    Mr. Swalwell. I appreciate what the Giffords Group is 
doing--but my proposal is this, that if it is dangerous in the 
future it is dangerous now and that it would be very hard for 
us to pass this legislation and then, God forbid, there would 
be a mass shooting, and after there was a celebration on the 
House steps that a weapon that was grandfathered in was killed 
to take dozens of lives and we would have to explain to victims 
that we allowed those weapons to stay in use.
    I also think it would create confusion among the public. If 
there is a ban on assault weapons why was this weapon used and 
knowing the NRA and their misinformation operations that they 
would say, look they had the bad--it didn't work.
    My proposal would be to do what Australia did, which would 
be to have a buyback period to allow people like Ms. Muller and 
others to use their weapons at a shooting range or a hunting 
club, to allow them to be possessed there but nowhere else in 
our community and that we would pay at market rate, as they did 
in Australia, for these weapons.
    Now, Australia did this and they were able to get off the 
streets 700,000. We won't get off as cheaply, but it is not as 
if this is something that never happened. So, I hope we can 
aspire to do that.
    This is the first important step and I thank all of the 
witnesses for participating and I thank all of the families for 
being here. Because the families have picked themselves up from 
unimaginable grief, there are 18 fewer NRA Members of Congress 
today endorsed by the NRA than there were a year ago. So, keep 
marching, keep caring, and we will see action and we will all 
be safer.
    I yield back.
    Chair Nadler. The gentleman yields back.
    The gentleman from California?
    Mr. McClintock. Thank you, Mr. Chair.
    Ms. Swearer, the arguments around these bills seem to have 
an inordinate faith that somehow, they are going to keep these 
weapons out of the hands of criminals and mad men and 
terrorists.
    I don't share that faith. I look at how effective our drug 
laws have been at keeping drugs out of the hands of addicts and 
wonder if that faith isn't misplaced.
    As Mr. Biggs pointed out, aren't a majority of the firearms 
already used in crimes, already being obtained illegally?
    Ms. Swearer. Yes, that is my understanding that, largely 
speaking, a high percentage of guns that are used in criminal 
activity are coming from people who obtain them illegally and 
had criminal records themselves.
    Mr. McClintock. So, they have already been very ineffective 
at disarming criminals and mad men and terrorists.
    The other argument we hear is, well, nobody has a 
legitimate use for an AR-15, and I think you made a very good 
point that these aren't military weapons.
    They are designed to look like them, but the actual firing 
mechanism is the same as those that are used in a wide variety 
of legitimate hunting and target rifles and pistols.
    That said, I am a gun owner but I don't own an AR-15 
because I don't feel I need one. I might have a different 
opinion if I was in the third day in a hurricane disaster zone 
without power or law enforcement or if I was a late night clerk 
in a gang area or a theater owner who wanted to be able to 
protect my customers in a crisis or if I was a border rancher 
where cartels are operating.
    Don't I have a right to make that decision for myself under 
the Second amendment rather than have one of my friends on the 
left make it for me?
    Ms. Swearer. Yes, sir, especially with regard to commonly 
owned semi-automatic firearms that have long been commonly 
owned by law-abiding citizens for lawful purposes.
    Mr. McClintock. The one area where I do agree is, we ought 
to be absolutely outraged by these growing incidents of mass 
shootings. We didn't have problems like this, certainly not at 
this magnitude or frequency 50 years ago.
    So, I think it is important to ask what policies have 
changed in those 50 years that would explain this and it seems 
to me there are three.
    50 years ago, we used to execute murderers. We have, 
largely, stopped doing that now. Could that have something to 
do with it?
    Ms. Swearer. I am not familiar with whatever studies you 
may be referring to with regard to capital punishment and mass 
shootings. But, I do know that there are bigger factors 
underlying mass shootings.
    Mr. McClintock. We used to put violent criminals in prison 
until they were old and feeble. Now we have early release 
programs, sanctuary laws that are releasing dangerous criminals 
back into our communities. Could that have something to do with 
it?
    Ms. Swearer. With regard to mass public shootings, that is 
unclear. But with regard to gun crime in particular, it is the 
case that a lot of gun crime is perpetrated by people with long 
histories of previously violent behavior.
    Mr. McClintock. Most importantly, we used to confine the 
dangerously mentally ill when we identified them in mental 
hospitals where we could treat them and prevent them from 
harming others.
    In fact, in 1958, my State of California there were 37,000 
mentally ill contained in our mental hospitals. Many were 
dangers to themselves or to others. Proportionately, that would 
be over 100,000 today.
    Today, we only confine 7,000. The rest of them are on the 
streets. Could that have something to do with it?
    Ms. Swearer. Well, without meaning to come across as 
demonizing all mentally ill people as dangerous--
    Mr. McClintock. Oh, no, and I don't mean to stress that all 
mentally ill people are dangerous.
    Ms. Swearer. There is--of course.
    Mr. McClintock. Some mentally ill people are dangerous. 
Those are the ones that we confined.
    Ms. Swearer. Yes, sir. So, we have written on this 
specifically at the Heritage Foundation and there is a 
relationship between sort of rates of violence and what we have 
seen in the mass deinstitutionalization of the mentally ill.
    Mr. McClintock. 50 years ago, we had very few gun control 
laws. Today, we have a great many. If these laws were actually 
the answer to these--to these massacres, shouldn't the problem 
be getting better and not worse by now?
    Ms. Swearer. With regard to mass public shootings, yes, 
arguably. Though I would also say gun violence in general is 
more complex.
    Mr. McClintock. I think that should be self-evident.
    Now, when you go to a bank you see an armed guard and that 
guard is there to protect our money. Why would anyone object to 
an armed guard in a school who is there to protect our 
children?
    Ms. Swearer. I am not sure why anyone would object to 
protecting our nation's children in the same way that we 
protect other important places.
    Though, arguably, I mean, we do not want to turn schools 
into some sort of prison function where people feel that they 
are behind bars or something like that.
    Mr. McClintock. But whenever anybody suggests that maybe we 
ought to have lethal force to protect our children, people go 
crazy over that. They don't give a second thought to an armed 
guard in the bank to protect our money.
    Ms. Swearer. So, we know that especially with regard to 
mass public shootings, one of the biggest factors is actually 
the quickness of the armed response to that shooting, and so 
that is one of the possible solutions. Yes.
    Chair Nadler. The time of the gentleman has expired.
    The gentlelady from Washington?
    Ms. Jayapal. Thank you, Mr. Chair, and thank you all so 
much for being here. Your testimony was very powerful.
    I am perplexed by this argument from the other side that--
if I heard it right that criminals do not follow laws and, 
therefore, we shouldn't have laws?
    I mean, that statement has no relevance to the existing 
debate around gun reform because fundamentally it is completely 
irrelevant because it is just as meaningless as saying the sky 
is blue, my microphone is black, or the grass is green.
    Definitionally, criminals don't follow laws. That is what 
criminals are. So here is the paradox that the other side is 
putting forward, and I just want to go through it because I 
think it is important to dismiss this argument for what it is, 
which is bogus, in my opinion.
    The paradox is this. Law-abiding citizens obey the law, 
number one. Number two, criminals are lawbreakers; therefore, 
they don't obey the law. Brilliant.
    Number three, laws impose restrictions on the behavior of 
only those that follow them and, therefore, number four, laws, 
therefore, only hurt law-abiding citizens.
    Well, that would mean that we shouldn't have any laws at 
all because definitionally we are making laws based on the kind 
of society that we imagine and then we expect that the vast 
majority of people are going to follow those laws and the 
people that don't will then have accountability.
    So, I just think it is a ridiculous argument. I don't 
understand why the other side keeps putting it forward.
    The data shows that mass shootings are becoming far more 
frequent, and they are getting deadlier. My colleague, Mr. 
Deutch, gave a powerful statement, talked about all the 
shootings.
    I wanted to pull out that 16 of the 20 most deadly mass 
shootings in modern history occurred in the last 20 years and 
eight of them in the last five years. But look at the amount of 
time in each of these shootings.
    So, in 2017, the Las Vegas shooting claimed and 
unprecedented 58 lives and 850 injuries in just 10 minutes. El 
Paso shooting claimed 22 lives and 24 were injured in less than 
six minutes.
    Thank you, Mayor, for being here. The Dayton shooting 
claimed nine lives and dozens of injuries in just 30 seconds. 
All of these by a single shooter who legally purchased semi-
automatic weapons and high-capacity magazines.
    So, let me ask you, Mr. Chipman, the Giffords Law Center 
finds that a person with an assault weapon can hurt and kill 
twice the number of people compared to a shooter with a non-
assault rifle or handgun.
    Why is that? Think about just average people who are out 
there who are trying to understand this issue. What are the 
specific features of an assault weapon that are most dangerous?
    Mr. Chipman. Well, let me talk about rifles specifically. 
When you are firing a round at over 3,000 feet per second as 
compared to a handgun, which is usually under a thousand feet 
per second, when it hits, it just destroys the body.
    For instance, I worked for Gabby Giffords. She would not 
have survived had she been shot with a rifle. It is just an 
entirely different category.
    So, if you mix the speed of the round, and then the ability 
to easily carry a hundred rounds in a magazine or 50 and you 
can fire as quick as the finger can pull, you do battle-like 
wounds.
    In Las Vegas, the thought 20 years ago that I could have 
even imagined a shooting where a single gunman could have 
inflicted 58 deaths and hundreds of people wounded, many of 
them off-duty law enforcement officers, it is just hard to 
imagine. Has everything to do with the capabilities of the 
weapon.
    Ms. Jayapal. Just a quick clarifying question. When you 
said a rifle round, just for people who don't know what that 
is, explain what happens when the rifle found actually strikes.
    Mr. Chipman. Well, then I would need the help of my dad, 
the mathematician, and do physics.
    Ms. Jayapal. Just quickly--
    Mr. Chipman. Just let me say that when a piece of lead is 
flying at 3,000 feet per second and it hits you, it is a lot 
different than if it is going at 800 feet per second.
    Ms. Jayapal. Thank you.
    Mr. Chipman. So, it is just math and the results are what 
our surgeon said as just catastrophic.
    Ms. Jayapal. Let me turn to the surgeon. Dr. Heather Sher, 
who treated victims from the Parkland shooting, wrote that the 
CT scan of one of the victims of an AR-15 showed an organ that 
looked like an overripe melon smashed by a sledgehammer.
    We have very little time, but can you tell us, from your 
perspective as a doctor what do you see and what do you 
experience as you are treating individuals who have had these 
kinds of wounds?
    Dr. Rios-Tovar. Like I said, that is accurate from what I 
have seen in my particular patients. The entire pelvis on the 
left side had a hole the size of a grapefruit that I had no 
idea how to repair.
    I am not an orthopedic surgeon. I had intestine coming out 
of bones. I had never seen that before and I will never see 
that again.
    Ms. Jayapal. Dr. Tovar, I thank you so much for everything 
that you did and thank you for your service to all of you.
    Chair Nadler. The gentlelady yields back.
    The gentleman from Virginia?
    Mr. Cline. Thank you, Mr. Chair. I want to thank our 
witnesses for being here today.
    The horrifying acts of mass violence that our country has 
witnessed in recent years are totally unacceptable and as 
defenders of the Constitution we cannot tolerate the spread of 
violence and hatred in our nation.
    Unfortunately, today's hearing seeks to villainize one of 
America's most popular firearms instead of looking at real 
solutions to prevent acts of violence from occurring in our 
communities.
    From 1991, when violent crime was a record high, until 
2017, the nation's total violent crime rate decreased 48 
percent. Meanwhile, Americans bought more than 11 million AR-
15s during that period.
    It is clear that the majority's underlying objective in 
holding this hearing is to rationalize why the Federal 
Government should keep guns out of the hands of law-abiding 
citizens.
    Democrats want to paint the AR-15 as a weapon solely used 
for war, when in reality millions of men and women own these 
firearms and use them lawfully every day.
    Americans have chosen this modern sporting rifle as their 
firearm platform of choice--recreational shooting, self-
defense, hunting, and educating the next generation about 
firearms and safety.
    Our families, our neighbors, and our communities will not 
become safer as we confiscate firearms from innocent law-
abiding people.
    In fact, by restricting the fundamental freedom that allows 
people to defend themselves, Democrats will endanger the lives 
of millions who will no longer be able to adequately protect 
their families.
    As Members of Congress, it is our duty to ensure that we 
are protecting the American people by defending this document, 
the Constitution, and the freedoms that are enumerated in it.
    Our republic was founded on the principle that government 
will not impede on these rights and we must uphold that here in 
this committee.
    So, I will ask Ms. Swearer if there is anything that was 
said today that you would like to respond to at this point.
    Ms. Swearer. Thank you, Congressman.
    There has been a lot that I wish we had the time to respond 
to. I will take just a couple of these in order.
    I think there is this sort of misunderstanding that if we 
can just get rid of AR-15s that somehow this is going to result 
in this massive reduction in gun violence.
    That, and again, it dramatically misunderstands the 
underlying factors of gun violence in this country. Two-thirds 
of gun deaths are suicides.
    That doesn't matter, frankly, whether you have an AR-15, 
which is rarely used in suicide, handgun, or shotgun. It is 
essentially irrelevant if you just replace the firearm.
    When we are talking about mass public shootings, we are 
talking about something that I think we all agree is 
devastating to communities.
    It is a fraction of a percent of gun deaths every year and 
we are talking about switching out the same caliber rifle for 
something that is the same caliber in a different rifle, but 
now just doesn't have a barrel shroud or a pistol grip, and 
saying that this somehow is going to save this large number of 
lives every year.
    We are looking at the wrong problems and so we are coming 
up with the wrong solutions. I mean, these are things that even 
if fully effective and not substituted with other types of 
firearms we are talking about a bare minimum of actually 
impacting rates of gun violence.
    We have to be looking at more meaningful factors than 
things like pistol grips, and that is something we can work on 
together if we would stop looking at scary features.
    Mr. Cline. Ms. Muller, would you like to respond to 
anything that was said?
    Ms. Muller. Yeah. Thank you.
    I understand everybody in this room wants to make a 
difference and that we want to be safe. We want to be safe. 
Firearms owners want to be safe, and I hope you heard in my 
oral and my written testimony that we, the firearms industry, 
is driving solutions.
    If you are really interested in having that conversation 
that is why I formed the D.C. Project is to come and make 
relationships and help you be a resource to let us go to the 
range and let us really understand what those firearms are and 
who that community is and how they use them. Those are your 
constituents as well.
    I will say them again. Eddie Eagle, Project ChildSafe, and 
Kid Safe Foundation--those are teaching your kids how to 
responsibly look at firearms.
    It doesn't mean they have to shoot them, but they need to--
it is just like a swimming pool. You teach your kids how to 
swim. You don't want them to go across a body of water at some 
point in their life and not know how to live. We are with you. 
We want you to be with us.
    Mr. Cline. Thank you.
    Chief Brackney, you said something earlier that gave me 
pause. I am going to give you the chance to amend your 
statement.
    When you said any weapon that can be used, misused, to hunt 
a person should be banned. That applies to all weapons. Is it 
your contention that all weapons should be banned and that 
you--
    Chair Nadler. The time of the gentleman has expired. The 
witness may answer the question.
    Chief Brackney. Thank you. I think there is opportunities 
for quite a few of us to amend our statements, Senator. Yes, 
weapons that are misused should be considered and we are 
looking at percentages of individuals that are injured based on 
weapons.
    The fact that we are willing to boil it down to simple 
numbers when it is actual lives and to say that it is a 
percentage of or a consideration of a percentage of, we 
actually should be ashamed that we are willing to sacrifice the 
lives of individuals for data points.
    I think we should all be able to come to Charlottesville--
    Mr. Cline. You don't want anyone in Charlottesville to have 
a weapon?
    Chief Brackney. Actually, had we banned or been able to ban 
some of the assault weapons coming into Charlottesville, I 
think we could have had a very better response from law 
enforcement, or even Virginia Beach.
    Mr. Cline. All weapons?
    Chair Nadler. The time of the gentleman has expired.
    The gentlelady from Florida?
    Mrs. Demings. Thank you so much, Mr. Chair, and thank you 
to all our witnesses for being here today.
    I am going to try to get my thoughts together because I 
have been pretty amazed at some of the things that I have 
heard, particularly from the other side of the aisle.
    Mayor Whaley, thank you for being here on behalf of the 
people that you represent. You are doing exactly what we would 
expect you to do as a mayor.
    I know your chief is here as well. Thank you, Chief, for 
what you and the men and women that you represent do as well.
    I was a law enforcement officer. I spent 27 years. A gun 
owner. My father was a hunter. I am from Orlando, where 49 
people--we have heard a lot about law-abiding citizens. Those 
49 people who were in a nightclub that night were law-abiding 
citizens, and they were not protected.
    Forty-nine of them lost their lives. 50-three others were 
injured and will never be the same, and that does not include 
those with invisible wounds.
    One of my biggest fears as a police chief was worrying 
about the men and women who do the job going home at the end of 
the night because if we can't protect them, if they are at 
risk, then we know the average citizen is at risk.
    I always knew they were going to be outmanned because law 
enforcement always is. I certainly worried about them being 
outgunned. I have gone to more than my share of law enforcement 
officers' funerals.
    We have got to do something about the number of mass 
shooters that has occurred in a country that we say is the 
greatest country in the world--a country where we say life 
first, liberty, and the pursuit of happiness.
    My colleagues on the other side of the aisle have offered 
nothing as a solution. I am interested in hearing more, Ms. 
Muller, about your program. I wasn't familiar with that.
    Chief Brackney and Ms. Rand, you said that assault weapons 
account for one in four or one in five officers killed in the 
line of duty.
    It appears that we love our law enforcement officers until 
it comes to banning weapons that can blow a hole in them the 
size of a grapefruit or rounds that can penetrate their 
ballistic vests.
    Chief Brackney, I would just like for you to talk a little 
bit about the men and women that you command, the burden of 
keeping them safe and, really, why are you here today?
    Chief Brackney. Thank you, and I appreciate your service as 
well.
    For me, personally, having experienced three officers die 
in Pittsburgh by an assault weapon, knowing there was nothing 
we could do to protect them, knowing that one of our officers 
was lying there at that point in time saying over the air that 
he loved his wife--to let her know that was his only love--he 
loved his children, knowing he was going to die, and we could 
not get to him for hours as he lay there dying and bleeding out 
as a result of that tragedy.
    I am here because, as we know, Charlottesville experienced 
tragedy at the hands of hate, and when you have the type of 
weapons that can be brought into a community that can devastate 
an entire community, I actually would be ashamed of any former 
law enforcement officer who said, I will refuse to comply with 
the law that they were uphold or swore to uphold themselves.
    I say to you and each and every one of you, if you have to 
go home every night thinking about where your team--would the 
people who are out there come home alive every day--if you had 
that burden to bear and you could see the secondary trauma that 
is enforced upon families, not just the initial trauma, as they 
look out the doors to see if their parents are coming home, 
whatever that person is who is willing to give their life for a 
stranger.
    We talk about what greater love is that. We don't ever 
amend or talk about that we have restricted your First 
amendment rights. You can't say anything at any time.
    Mrs. Demings. You are saying no right is absolute--
    Chief Brackney. That is right. That is right. So, if we are 
willing--
    Mrs. Demings. --that you can say anything anywhere anytime.
    Chief Brackney. That is exactly right. If we are willing to 
amend what you can say, why wouldn't we consider what you could 
amend that could cause the type of devastation in each and 
every one of our communities.
    So, I just thank you even just for the opportunity to be 
heard today.
    Mrs. Demings. Thank you so much, Chief. Thank you to all of 
you.
    Mr. Chair, I yield back.
    Chair Nadler. The gentlelady yields back.
    The gentleman from Florida?
    Mr. Steube. Thank you, Mr. Chair.
    The right of the people to keep and bear arms shall not be 
infringed. It says arms--plural. Not certain types of arms. It 
says arms, and I stand by the Constitution and I stand by the 
Second Amendment.
    The Second amendment has absolutely nothing to do with 
hunting, although there has been a lot of talk today about 
hunting and hunting rifles. It has everything to do with your 
constitutional right to defend yourself, your family, and 
others.
    This is step number one, and the Democrats plan to take 
away your guns. Step one--ban a certain type of firearm that no 
one can properly define today. I have still not heard a proper 
definition of what it is that we are talking about banning.
    Step number two--now that we have taken your semi-automatic 
rifles away, now we will take your semi-automatic handguns 
away.
    Step number three--now that we have taken all your guns and 
the government only has their guns, now we have turned into 
Venezuela and Cuba.
    There is absolutely no difference in the functionality of 
an AR-15 and a semi-automatic handgun. None. Absolutely no 
difference.
    We heard the ATF individual talk about as fast as you 
depress the trigger is as fast as the round comes out. As fast 
as you depress the trigger on an AR-15 is as fast as a round 
comes out. As fast as you depress a trigger on a semi-automatic 
handgun is as fast as a round comes out.
    The weapon I was issued when I did serve in armed conflict 
was much different than what is available commercially today.
    The M-4 that I was issued in the United States Army in 
service of Operation Iraqi Freedom had a selector switch on it 
for a three-round burst and fully automatic.
    That weapon of war, which is the terminology that the Left 
likes to use, is not available to the general public. The 
general public cannot go and buy the weapon that I was issued 
when I served in Operation Iraqi Freedom.
    And this term ``assault rifle'' is a fiction. It doesn't 
exist. AR stands for ArmaLite, which is the company that 
actually manufactured the original AR-15.
    There is no such thing as an assault rifle. Just like if I 
threw my cup at somebody here and it killed them that would be 
an assault cup.
    If I used my truck to run somebody over, I guess that would 
be an assault truck. So, we are using a fiction to demonize a 
certain type of weapon.
    So Chief Brackney, I have a question. Isn't it true that an 
AR-15 discharges a round every time that you depress the 
trigger? Is that correct?
    Chief Brackney. Yes, that is correct.
    Mr. Steube. Is it also correct that every time that you 
depress the trigger of your service revolver that a round is 
dispersed? Is that correct?
    Chief Brackney. Yes. Based on the social contract and the 
social compact that I have with society to police society, that 
is correct that when I discharge my weapon that does occur.
    Mr. Steube. So, it is your testimony here today that the 
functionality of an AR-15 and the functionality of a semi-
automatic handgun is identical because the moment you depress 
the trigger a round comes out of the weapon? Is that correct?
    Chief Brackney. In the purest sense, yes, when you are 
pulling that--absolutely in the purest sense. When we are 
talking about the targets and the behaviors and the impact of 
those, it is very different than the functionality. That is 
correct.
    Mr. Steube. Well, I am talking about the functionality and 
that is what you all are talking about is the functionality of 
an AR-15. So that is what we are talking about.
    You said that any--I was in here when you said this, and 
correct me if I am misstating and we can have the reporter read 
back exactly what you said verbatim if you would like--you said 
that anything used to hunt people should be banned. Is that 
correct?
    Chief Brackney. Any weapon that can be used to hunt 
individuals should be banned.
    Mr. Steube. Okay. So, you then stand for the proposition to 
ban any type of firearm because any type of firearm could be 
used to misuse and kill people?
    Chief Brackney. As I stated before, with law enforcement, 
in particular, there is a social contract that we have and--
    Mr. Steube. No. I am asking based on your statement you 
said that anything used to hunt people should be banned. That 
is what you stated.
    You just said--so I am clarifying, your statement today is 
that all firearms, because they can be used to hunt people, 
should be banned. That is your statement before this committee?
    Chief Brackney. So that is not my statement, you haven't 
clarified my statement, sir. You have just added a statement 
for me.
    So, again--
    Mr. Steube. Why don't you clarify exactly what you said, 
and we can take a break and have the clerk read back exactly 
what you stated?
    Because I wrote down--you said, anything used to hunt 
people should be banned. It is my understanding that any 
firearm can be used to hunt people.
    Ms. Mucarsel-Powell. Point of order.
    Chair Nadler. The gentleman will suspend. The gentlelady 
will State a point of order.
    Ms. Mucarsel-Powell. I was in a hearing yesterday in the 
Judiciary Committee, the Subcommittee for Immigration, where 
one of my colleagues from the minority side stated that it is 
not right to attack a witness that comes forth in the manner 
that Mr. Steube has been incriminating and attacking our law 
enforcement officer here. So, if he could just please tone down 
his words.
    Mr. Steube. Is there a point of order, Mr. Chair?
    Chair Nadler. The gentleman controls the time.
    Mr. Steube. No, I had 32 seconds when she asked for a point 
of order. I would ask for that time to be put back on the--
    Chair Nadler. If you want to be so strict, we will get 
seven seconds back.
    Mr. Steube. Thank you, Mr. Chair.
    So, you support banning all firearms or anything used to be 
able to hunt people. Is that correct?
    Chief Brackney. Sir, you are actually conflating two. You 
just said support banning firearms or anything that can be used 
to hunt people. That was not my statement.
    Mr. Steube. What was your statement then?
    Chief Brackney. My statement was--and please, I don't have 
it as verbatim as possibly that you do--that I do support 
weapons that are used to hunt people, that they be banned.
    Mr. Steube. So, any type of weapon that can be used to hunt 
people should be banned is your statement?
    Chair Nadler. Go ahead. Answer the question.
    Chief Brackney. Could he repeat that? The gavel was going 
off at the exact time.
    Chair Nadler. Sorry. Repeat the question, please.
    Mr. Steube. Any type of weapon, which is what you just 
stated--any type of weapon that can be used to kill people 
should be banned.
    Chief Brackney. Sir, you are adding the word type. I said 
any weapons. That is my answer. So, thank you.
    Chair Nadler. The time of the gentleman has expired.
    The gentlelady from Texas?
    Ms. Garcia. Thank you, Mr. Chair, and thank you for having 
this very important hearing that many of us have been waiting 
for. To all the families and those who are here that have lost 
loved ones, thank you for being here.
    I know that every time that you have to sit and listen to 
this kind of testimony and the back and forth it brings back 
too many memories. Please know that we feel your pain and we 
are getting ready to do something about it.
    I know that earlier one of my colleagues said that the 
Democrats, even if it is wrong, we have to do something. I am 
here to tell you that what we are doing is right. It is not 
only right for us to do it; I think our country demands it.
    Everywhere I go this issue comes up, whether it is a town 
hall meeting with veterans or a town hall meeting with seniors. 
Everybody is concerned about gun violence and not just with 
these types of weapons, but any weapon.
    I grew up poor on a farm in south Texas. I was taught to 
use a rifle and a shotgun at an early age. Both were used for 
hunting to put food on the table or were always ready to 
protect us and protect our property.
    I still, in fact, keep a shotgun at my home. Fortunately, I 
have never had to use it. To me, that is what guns are for--for 
hunting and protecting our property.
    You don't need a weapon that kills nine to 10 people in 30 
seconds to go hunting to put food on the table and you don't 
need that either to protect your property.
    So, assault weapons are, frankly, in my view, just for 
killing people. Weapons that are designed to kill as many 
effectively and efficiently as possible, frankly, are posing 
the greatest threat to us today.
    We, in Texas, have suffered from this, as many other states 
have, and it is time for all of us to act. I support the bill 
that Mr. Cicilline has before us and, frankly, sometimes I 
think it needs to be even stronger.
    So, Mr. Chipman, I want to start with you. In your written 
testimony, you say that one other option might be to have the 
registration of all existing assault weapons under the NFA 
while banning any of the future manufacturers of these 
firearms.
    Is that a position from your or the organization, and are 
all the other gun violence groups in accordance with this 
position?
    Mr. Chipman. It is the position of Giffords, based on my 25 
years of experience. I don't want to speak for other 
organizations about that.
    It is based on my experience that a law, the NFA, was meant 
to keep the most dangerous weapons out of criminal hands and it 
is working. Only three out of every thousand crime guns traced 
by ATF is a machine gun.
    So, laws work, and so if we want to focus on other types of 
weapons I would suggest we have a time-tested law that has been 
on our books since the 1930s. Let us take that approach.
    Ms. Garcia. What is your position on the buyback programs?
    Mr. Chipman. I think that we should be looking to America, 
not Australia, for solutions. As I said, the NFA was passed at 
a time where we had a similar problem.
    Ms. Garcia. Right.
    Mr. Chipman. Very lethal weapons. So, I would suggest that 
it is a balance that would honor the rights of people who have 
these guns to keep them if they were properly regulated and 
understood that there are so many of them out there that, like 
machine guns it would prevent them from being manufactured and 
sold in the future.
    I think that strikes a reasonable balance between the 
rights of individuals and the rights of all Americans--a human 
right not to get shot.
    Ms. Garcia. I wanted to put another idea that came, really, 
from a senior at a senior town hall meeting that I had in my 
district a couple of weeks ago.
    Although it was about senior issues--Social Security, 
Medicare--she approached me after the meeting with a list and, 
frankly, she has about six or seven suggestions. One caught my 
eye and I just wanted your reaction to it.
    She thinks we should place a chip when you make them. In 
other words, at manufacturing, inside those giant guns and she 
was referring to the assault weapons. So, they can be tracked 
and know where they are, or to maybe stop an incident before it 
happens to do something proactively.
    Have you all ever looked at an idea like that?
    Mr. Chipman. I don't think we have looked at an idea like 
that. One of the challenges for law enforcement, though, is 
when you recover a firearm in a crime it is very useful to know 
who owns it.
    So, the ability to trace a gun, the ability to take shell 
casings that are often left at a crime scene and be able to tie 
those back to a gun and the shooter are very useful.
    I think with a chip in all guns, the reality is most guns 
are lawfully owned. So that is a lot of data we don't need. I 
would be more focused on what can help cops solve gun crime 
quickly and immediately.
    Ms. Garcia. Thank you for your thoughts, and I yield back, 
Mr. Chair. Thank you.
    Chair Nadler. The gentlelady yields back.
    The gentleman from Maryland?
    Mr. Raskin. Mr. Chair, thank you.
    I have heard a number of my colleagues today say that they 
are strong supporters of the Second Amendment. I think a couple 
of the witnesses also articulated the same sentiment.
    I want to say I am a strong supporter of the Second 
amendment too as properly interpreted by the Supreme Court in 
Heller v. District of Columbia, which says that the Second 
amendment gives you a right to a handgun for purposes of self-
defense and a rifle for purposes of hunting and recreation. 
Nowhere does it give you a right to weapons of war, machine 
guns, armored tanks, or anything like that.
    Is there anybody on the panel who disagrees with that? Is 
there anyone who believes that the Second amendment gives you a 
right to own a machine gun?
    No. Okay. Is there anyone who thinks it gives you the right 
to own an armored tank?
    Ms. Muller, please?
    Ms. Muller. Yes, sir.
    Mr. Raskin. You think it gives you the right to a tank? 
Does it give you a right to nuclear weapons?
    Ms. Muller. Well, you started out with machine gun, and we 
can legally own machine guns if we go through the rich man's 
game of the NFA.
    Mr. Raskin. So, you are for unrestricted access to machine 
guns then?
    Ms. Muller. I would look at that, yes. I would look at 
taking those off the NFA.
    Mr. Raskin. Do you agree with that, Ms. Swearer, or do you 
think there is a constitutional right to own a machine gun?
    Ms. Swearer. I believe there is a constitutional right to 
own what the equivalent of the same sort of functions of a 
musket would be.
    Just as we have extended the First amendment to include, 
you know, technological advancements we include the same sorts 
of things with the Second Amendment. So, it would include--I 
think the Supreme Court has--
    Mr. Raskin. Well, do you think that--
    Ms. Swearer. --found that the proper--the proper phrasing 
there to say commonly owned for law-abiding purposes. So it is, 
essentially, this function of is it useful for law-abiding 
purposes and the answer for a lot of these things is yes.
    Mr. Raskin. Okay. I just want to be clear. So, both of you 
say that people should be allowed to purchase machine guns the 
same way they should be allowed to purchase AR-15s, which is 
the same way they should be allowed to purchase hand guns?
    Ms. Swearer. My distinction with actual fully automatic 
weapons might be a bit different, but yes.
    Mr. Raskin. Okay. Well, let me go on because I do have 
other questions. I appreciate that.
    Dr. Tovar, you are from El Paso. Your testimony was 
stunning to me. There was something you said that will haunt me 
for a long time, and I want you to elaborate it. You were 
supposed to be going home that night. You were called back 
after the massacre took place to try to save people and, as I 
understand, you helped save and your colleagues helped save 
more than a dozen people. Is that right?
    Dr. Rios-Tovar. Yes. It was a large team effort.
    Mr. Raskin. But you lost one person who was, I guess, the 
first patient that you worked on and you said that you will 
always carry the guilt of that with you.
    I remembered a passage I once read from Rousseau who said 
how often audacity and pride are on the side of the guilty and 
how often shame and guilt are on the side of the innocent.
    I wonder why you would feel guilty for trying to save 
someone's life who was assassinated by an assault weapon that 
you had nothing to do with being in the hands of a criminal.
    Dr. Rios-Tovar. I felt guilty and I still feel that I could 
have done more. I wanted to do more. The fact is I had 10 
patients there and reports of maybe up to 20, 40 patients.
    I had no idea, and I couldn't spend as much time as I 
wanted to on that one patient when I knew I had 20 or 30 coming 
in.
    Mr. Raskin. Are you still practicing now in El Paso?
    Dr. Rios-Tovar. Yes.
    Mr. Raskin. How do you feel about the possibility of 
selling people some machine guns or heavier weaponry under 
their so-called Second amendment rights?
    Dr. Rios-Tovar. I would not agree with that. But the Second 
amendment stands.
    Mr. Raskin. Yeah. It has been misrepresented. It has been 
distorted and the National Rifle Association used to be a 
moderate mainstream organization that supported gun safety 
regulation.
    Then it was taken over, hijacked for political purposes and 
the idea was to oppose all gun safety regulations to try to 
drive a wedge between the rural parts of America and the 
metropolitan parts of America, and that has worked like a dream 
from an electoral standpoint. Congratulations, you guys.
    We have casualties on the streets of America in every city 
and town. These are our people. These are American citizens who 
are being shot down by these weapons of war, which you think 
the Second amendment covers but the Supreme Court doesn't.
    Ms. Muller, you said something before about how I think you 
had friends in the military who don't prefer the AR-15--tell me 
if I got this right--because they want something with greater 
stopping power.
    Will you explain what that means?
    Ms. Muller. Yes, sir. They were saying that it is their job 
in war, in combat, to kill people and they were telling me, 
relating that it is not an effective round and that--
    Mr. Raskin. What does it mean not to have enough--what you 
said before was they had preferred a weapon with greater 
stopping power.
    Ms. Muller. Correct.
    Mr. Raskin. I don't know that phrase. Will you explain that 
to me?
    Chair Nadler. The gentleman's time has expired. The witness 
may answer the question.
    Ms. Muller. Stopping power is stopping a threat. If this 
person needed to be killed that the TG3 was not a good round to 
do that.
    Mr. Raskin. So, in other words, the weapons that killed in 
El Paso or Dayton did not have enough explosive force. Is that 
it?
    Ms. Muller. Correct.
    Mr. Raskin. Okay. I yield back, Mr. Chair.
    Chair Nadler. The gentleman yields back.
    The gentlelady from Georgia?
    Mrs. McBath. Thank you, Mr. Chair.
    I would like to thank my colleague, Mr. Neguse from 
Colorado, for yielding to me for a few moments to go first and 
I want to thank all our witnesses that are here today. Most 
definitely I want to thank our survivors, their families, and 
all the GBP activists that are taking their time to be here to 
discuss this important issue.
    I first want to underscore that the current prevalence of 
assault weapons was the result of not of action but of 
inaction. Congress did not end the assault weapons ban by 
lifting it but by simply allowing it to expire, and I believe 
that inaction has most definitely cost lives.
    Tragically, we have seen extremely little action to address 
gun violence in the past several decades. I am pleased to be 
part of this present moment in which we are finally having 
hearings like this to illuminate the multi-faceted problem of 
gun violence.
    No single measure will end this epidemic. We know that 
there are bills that will save lives. The House has already 
passed some of those--universal background checks, closing the 
Charleston loophole, and we are continuing to explore other 
laws, too.
    The House has also passed an appropriations package that 
funds gun violence prevention research. Time and time again, 
Senate inaction is maintaining the status quo. There has been 
over 200 days since the House has passed H.R. 8 to require 
universal background checks and in that 200 days the Senate has 
done nothing.
    The House voted to provide a historic $50 billion--excuse 
me, $50 million package to fund gun violence research. But a 
Senate proposal instead recommends nothing. Americans are 
paying for Senate inaction with their lives.
    We lose another hundred people to gun violence every single 
day. Every day 100 families face a ne and terrible loss, and 
inaction is absolutely unacceptable.
    I would like to say for anyone on this panel, unless you 
have experienced gun violence you have no idea the burden of 
loved ones lost and the burden that that has on their families 
and their communities.
    Dr. Brackney, how did the expiration of the assault weapons 
ban affect law enforcement?
    Chief Brackney. Thank you.
    I am in complete agreement with you--when we are too 
cowardly to face issues and instead let them to expire like we 
would milk in our refrigerator versus taking some sort of 
action.
    As we know, in any other field--think about the medical 
field. There are often incremental steps that we take in order 
to create medications to address cancer.
    We don't say until we have the cure, we do nothing, and we 
are doing something very similar when it comes to law 
enforcement.
    The attacks on law enforcement, the ambushes on law 
enforcement, have increased. People have been emboldened by the 
fact that not only do they have the weapon and the capacity to 
do that, but there is the prevalence of which they can get 
these weapons.
    There are now, also, the ghost weapons in which you buy 
pieces and parts of it so that you can get around, again, 
legislation when it comes to what you must be required to do to 
obtain a weapon legally.
    This is an absolute atrocity, and I have attended those 
funerals of officers over the 35 years that I have been in law 
enforcement, the more than three decades plus that I have been 
in law enforcement.
    It continues to hold a pit in your stomach for every person 
that you see that has lost a life. Also, it moves 
concentrically outward. It affects an entire nation.
    The last shootings that we can remember in Dayton, it 
stopped the country, and we held our breath for, literally, 
days and then we have forgotten about the shooting that 
occurred just before it and probably will forget about the next 
one as well.
    Mrs. McBath. Thank you.
    Ms. Rand, we know that assault weapons are the weapons of 
choice for mass shooters. What do we know about why they choose 
these weapons?
    Ms. Rand. I think that the firepower that assault weapons 
affords a shooter gives them more bravery. They feel like they 
can outgun law enforcement, and I would go back to the example 
that was offered about Columbine--that it is a little-known 
fact there were armed guards at Columbine who engaged in fire 
with Harris and Klebold but were unable to stop them because 
they were outgunned by the assailants' assault weapons.
    So, I think it provides them with a sense of bravery that 
they wouldn't otherwise have. They know they can confront law 
enforcement.
    They know they can kill a number of people very quickly and 
I think also if you look at the marketing of these weapons they 
are sold using militarized imagery. Now we are seeing 
assailants who copy that. They come with body armor.
    Chair Nadler. The time of the gentlelady has expired.
    Mrs. McBath. Thank you.
    Chair Nadler. The gentleman from Colorado?
    Mr. Neguse. Thank you, Mr. Chair, and of course, thank you 
to my colleague, Mrs. McBath, who always speaks truth to power 
in such an incredible way.
    Chief Brackney, you mentioned this a minute ago, but I just 
want to give you a chance to expound a bit further. How long 
have you been in law enforcement?
    Chief Brackney. Thank you. A woman shouldn't tell her age, 
but 35 years, and maybe they hired me when I was really young.
    [Laughter.]
    Mr. Neguse. How long have you been chief?
    Chief Brackney. So, I have been the chief of 
Charlottesville now for just about 15 months. I was the chief 
in George Washington University three years prior to that and 
just short of 31 years with the city of Pittsburgh, commanding 
our SWAT teams, major crimes, et cetera.
    Mr. Neguse. Well, thank you for your service. The reason 
why I asked that, my colleague from Florida on this side of the 
aisle, I thought, was right to point out during her 
parliamentary inquiry or point of order request, I took umbrage 
at the way in which my colleague interacted with you in the 
prior exchange--that someone of your caliber and someone who 
has served your community and your country, who is here today 
to testify on the importance of us taking common sense steps to 
prevent the pervasive gun violence that is ravaging communities 
across our country, I did not think that that exchange was 
reflective of the way in which this Committee and its Members 
ought to conduct itself. So, I thank you again for being here 
today and for your testimony.
    I also, of course, would associate myself with the remarks 
of my esteemed colleague from Georgia. Military-style assault 
weapons have no place in civilian hands, in my view. They have 
no place in schools, in theaters, and in communities, and in 
Colorado we know this all too well.
    I happen to represent the great State of Colorado and we 
lived through Columbine 20 years ago where 13 individuals were 
killed in a matter of 16 minutes. We grieved after Aurora where 
12 people were killed, and 58 others injured.
    Military-style assault weapons are designed to kill people 
quickly and efficiently, and large-capacity magazines are often 
the choice for mass shooters because they allow the shooter to 
fire a large number of rounds and quickly reload.
    Inaction on this issue, as so many of my colleagues have 
said and as so many of the witnesses have attested to, it is 
putting our students, our children, and our community in harm's 
way and I, for one, believe that we cannot allow it.
    When we see mass shootings in the news every single month, 
we know that it is time to act. We owe it to those we have lost 
and to the survivors, some of whom are here in the audience 
today--the survivors of Columbine, of Aurora, of Las Vegas, of 
Orlando, of Newtown, of Sutherland Springs, of Parkland, of El 
Paso.
    We owe it to them, and I am grateful to Chair and to my 
colleagues for holding this hearing so that we can take action.
    I will say the difference between my home State and 
Congress is that Colorado had the courage to act. In Colorado, 
we passed a high-capacity magazine ban in 2013 as part of a 
broad attempt to reform gun laws following the Aurora Theater 
shooting the year before.
    It is past time for Congress to take up these same reforms 
and I am so grateful to be able to support the proposal that we 
have talked about today in terms of banning assault weapons.
    So, my question--Mr. Chipman, first, thank you for your 
service and as a law enforcement officer for putting your life 
on the line. I know, given your experience, that you have seen, 
you have used these weapons that we are speaking of today.
    Why do you believe it is important that we have a 
conversation now about assault weapons and what about your 
experiences have led you to believe that we need reform?
    Mr. Chipman. Because they are getting more lethal, and we 
should have had this conversation decades ago. The firearms 
industry continues to make more lethal firearms and Congress is 
not keeping up with technology.
    We see that in now smaller weaponry like my panel member 
likes to have because it is easy to carry around in our car. It 
was used to kill a Milwaukee police officer because it was able 
to defeat his bulletproof vest.
    So, to me, we should not tip the scales on the side of just 
convenience but of our right to live in a country absent of 
fear of getting shot and killed in the line of duty, at a movie 
theater, or just in your daily affairs.
    Mr. Neguse. With that, I see my time is close to expiring, 
Mr. Chair. So, I will just, again, say thank you to Chair and 
to the witnesses today for appearing and for your testimony. We 
appreciate it.
    Chair Nadler. The gentleman yields back. The gentlelady 
from Pennsylvania, Ms. Dean? No? I am sorry. The gentlelady 
from Texas, Ms. Escobar.
    Ms. Escobar. Thank you so much, Chair, and thank you, Ms. 
Dean, so much, for switching with me.
    I want to thank everyone here, people who traveled to be 
here with us today at this very important hearing, people who 
stood in a long line for a long time to get in. I want to thank 
our panel. I want to especially thank the panelist who is my 
constituent, Dr. Alex Rios-Tovar. Thank you for being here. 
Thank you for everything you did to save so many lives.
    As we have heard today, there are far too many people on 
this Judiciary Committee who represent communities that have 
been impacted by gun violence, and my community, El Paso, 
Texas, is, unfortunately, now part of that very sad and tragic 
club. On the day of the shooting, August 3rd, I received many 
calls from colleagues who knew only too well what we were going 
through in El Paso, and the very next day, Dayton entered that 
awful club, and days later, Odessa entered that awful club.
    Part of why I invited you, Dr. Rios-Tovar, to come here, I 
wanted the American people and the Congress to hear your 
testimony because too often we don't understand what happens, 
literally, to people who are shot up by these weapons of mass 
destruction.
    I want to say something before I ask you the question I am 
about to ask you. That day, on August 3rd, El Paso was a victim 
not just of a gun violence epidemic but we were also victim to 
the hate epidemic of this country. Last week we passed 
legislation, we marked up legislation out of this Committee 
that began to address that hate epidemic. It was shocking to me 
that some of the people who use the language that fuels that 
hate epidemic were wondering why we needed to pass laws about 
the hate epidemic.
    As long as we have people pushing that language and that 
racism, we will need laws that protect communities like mine. 
As long as we have people who say, ``I deserve to have a weapon 
of mass destruction so that I can shoot critters,'' as we have 
heard today, or ``so that I can have an accessory, like 
shoes,'' as we have heard today, then we will continue to see 
massacres and bloodshed.
    We are here today to create change, so that communities 
like mine will not have to endure what we endured, because the 
consequence is long-lasting.
    Dr. Rios-Tovar, you have told us about what you witnessed 
that day, what you lived through that day. Can you share with 
us what you emotionally and mentally still live with today, as 
a first responder in health care?
    Dr. Rios-Tovar. Thank you for that question. I am not 
embarrassed to say that that Sunday I bawled like a child for 
half an hour. I went through the Facebook page of one of those 
victims and saw that that baby is going to live without 
parents. It is an orphan now. That week, once my patients were 
extubated, no longer on the ventilator, they had at least a 
week of nightmares. They would wake up in the middle of the 
night, while I was there on call, and I heard from nurses, and 
I would see it myself, the nightmares that they would awaken 
from.
    I have not been able to sleep for the past two months since 
this tragic event happened. I encourage all those that are 
affected by a tragedy like this to go and seek counseling, 
because it is important to recognize that not just the victims 
and the victims' families, but those first responders, even 
those that are not present, there is a lot of guilt that comes 
to providers who were not available to respond, because they 
feel that they should have been there to help as well.
    So, there is a lot of room for therapy and for counseling 
for the entire community, and I think it is very helpful.
    Ms. Escobar. Dr. Rios-Tovar, thank you so much for 
everything you did to save all the lives and to touch all the 
lives that you did. You are a hero. All these deaths and all of 
this pain was needless, and we can change that today. Thank 
you.
    Chair Nadler. The gentlelady yields back. The gentlelady 
from Pennsylvania.
    Ms. Dean. Thank you, Mr. Chair. I thank all the testifiers 
and the advocates for being here, and I thank the advocates or 
the testifiers for the minority, because you proved how weak 
your argument is.
    Mr. Chair, I wanted to look at--and if I could have a slide 
brought up--a little bit of the history of this conversation 
and where this country stood. Take a look, and I quote, ``We 
are writing to urge your support for a ban on the domestic 
manufacture of military-style assault weapons. Statistics prove 
that we can dry up the supply of these guns, making them less 
accessible to criminals. We urge you to listen to the American 
public, law enforcement, and support a ban on the further 
manufacture of these weapons. Sincerely, Gerald R. Ford, Jimmy 
Carter, and Ronald Reagan.''
    This should not be a political issue.
    In 2004, we had the opportunity to save even more lives by 
reauthorizing the ban. Even George W. Bush favored an extension 
of this lifesaving law. Would you play the clip?
    [Pause.]
    Ms. Dean. I am sorry. I guess we don't have it. Could you 
hold the clock? Is that possible? Do we have the clip? It is a 
clip of President George W. Bush.
    [Pause.]
    Ms. Dean. I see we are having problem with the volume. Oh, 
there we go.
    [Audio plays.]
    Ms. Dean. Unfortunately, President George W. Bush was not 
able to persuade enough of his Republican colleagues, and the 
ban expired through inaction. This should not be a political 
debate.
    I will tell you what has changed and what has made it a 
political debate among politicians only, not among Americans. 
More than 500,000 Americans have died from gun violence. 
America has suffered more than 300 mass shootings per year. The 
NRA ramped up its lobbying of Republican Members. Republican 
Members on this very committee, 17 of whom the NRA spent a 
record, excuse me, spending a record $54 million in 2016 
elections alone, and every single member of the Republican side 
of this dais has accepted campaign contributions and other 
support, to a total of $1.2 million, total.
    We know now that no atrocity convinces our Republican 
colleagues to reject NRA funding and to do what is right--not 
Sandy Hook, not Parkland, not Las Vegas, not Tree of Life, not 
El Paso, not Dayton--and I could go on and on. One party has 
made this a priority, and it is us. It shouldn't be us alone.
    It is a question of our common humanity. I am a mother and 
a grandmother, so I will ask a couple of quick questions, if I 
may. I would like to start with Mr. Chipman. How does a pistol 
grip and barrel shroud make it more likely a mass shooter will 
be able to kill many people?
    Mr. Chipman. Well, as Senator Cruz has demonstrated, a 
barrel of an AR-15 can get really hot if you try to cook bacon 
on it, so imagine if you are a determined killer and you are 
firing hundreds of rounds. This would allow you to grip the 
firearm in a way that would increase your ability to spray fire 
and kill more people.
    Ms. Dean. To hold on to this hot weapon.
    Mr. Chipman. Yes.
    Ms. Dean. To maximize the lethality.
    Mr. Chipman, can you provide us your thoughts on the threat 
to law enforcement since you have been on both sides?
    Mr. Chipman. The single biggest threat is how common now 
rifle rounds have been instituted in now handguns. 
Traditionally, law enforcement was wearing vests to protect 
themselves from handguns that fired handgun ammunition. That 
wasn't enough. The industry purposely has now created weaponry 
to defeat bulletproof vests, and that is the biggest threat. 
There is a bill that actually, Ms. Demings has presented, tries 
to address this. We saw it already this year in Milwaukee, 
where an officer, executing a warrant, he has got his vest on, 
but the shooter has an AK pistol and it defeats it.
    Ms. Dean. Thank you, and I will end with this thought. I am 
a mother, I am a grandmother to second grader, and I have two 
grandchildren coming this year. So, it is through that lens 
that I take a look at--please, would you roll the tape. This is 
a question of our common humanity. We have a crossed a 
threshold no country should have ever crossed.
    Please play the tape.
    [Video shown.]
    Ms. Dean. Mr. Chair, I yield back, but we will not--
    Chair Nadler. The gentlelady yields back. The gentlelady 
from Florida is recognized.
    Ms. Muscarsel-Powell. I apologize. Thank you, Mr. Nadler, 
Chair. That video is very difficult to watch because I am also 
a mother, and I lost my father to gun violence. Today, this 
morning, I answered the phone right when the hearing started, 
and the school was conducting an active shooter drill. My 
daughter, who just turned 11 years old, tells me that if she 
gets locked out of her classroom, if she is going to--
    [Pause.]
    Ms. Muscarsel-Powell. --if she can't get into the classroom 
she would try to talk to the shooter and tell him or her to 
remember his little brother or sister, to not shoot. This is 
what our children now have to live with.
    I wasn't planning on starting my testimony with that story, 
but--
    I want to share a quote that I received from one of my 
constituents. He is an ER doctor. He works in the Homestead 
Baptist Health System, Dr. Woltanski. He told me that, quote, 
``Assault weapons do a tremendous amount of damage to the human 
body. The tissue damage and destruction are exponentially worse 
than a conventional handgun.'' From the carnage that he has 
personally witnessed he says that assault weapons, quote, ``are 
not defensive weapons. They are offensive weapons, designed to 
inflict death, tissue damage, and devastation on the human 
body, and that is what they do very effectively,'' end quote.
    That is clearly what military-style weapons are designed 
for. We have seen these weapons of war being used in places 
like Iraq and Afghanistan, and they are now being used in our 
very own communities, taking the lives of our children, our 
parents, our brothers, our sisters. It has to stop, and there 
is something that we can do here, in Congress, today.
    Ms. Muller, you said earlier, which really struck me, you 
said you were describing a gun and you said, ``I love this 
little gun.'' It is time to love our children more. We have to 
take action. That is why we are having this hearing today, 
because there is a way to protect our children and our 
communities. It is by passing stricter gun laws.
    I am not done here.
    Ms. Muller. With me?
    Ms. Muscarsel-Powell. No, no. Please.
    In Florida, the pain of losing our loved ones strikes home, 
very close to home, close to my district. We have had two 
recent mass shootings that resulted in 65 deaths--65 people 
that lost their lives. In Parkland, last Valentine's Day, on 
February 14th, a shooter using an AR-15-style rifle opened fire 
on high school students that day, and in six minutes the 
shooter, with his assault weapon, killed 17 people--17 kids, 
including a coach--and injured 17 others.
    In 2016, at Pulse nightclub in Orlando, a shooter using 
another military-style rifle, fired into a crowd. With the 
assault weapon he killed 49 people and injured 53 others in a 
matter of minutes. And in the Pulse nightclub that night was 
Jerry Wright, the son of my very good friends, Fred and M.J. 
Wright. He was a wonderful, loving, caring son. He was there to 
have a good time, to enjoy Latin music that night. And his life 
was cruelly taken. He was only 31 years old, and I know that 
M.J. and Fred live with that pain every single day.
    Jerry didn't deserve this. His parents didn't deserve this. 
Because the shooter was able to obtain that military-style 
rifle, he delivered a devastating fate to the Wright family 
that day.
    These are weapons of war, period, full stop. They don't 
belong in our communities.
    Now, I want to ask Dr. Rios-Tovar, I have spoken to doctors 
in my district who have described these terrible injuries. Can 
you just elaborate what a gunshot wound from an assault rifle 
looks like, compared to that of a handgun?
    Ms. Jackson Lee. [Presiding.] The gentlelady's time has 
expired. The witness may answer the question.
    Dr. Rios-Tovar. Like I said earlier, these types of 
injuries, you can't necessarily see on the outside. That one 
victim that perished had a single gunshot to the back and out 
the clavicular area. It looks like a simple through-and-
through, not so much going on. Once that autopsy was done, we 
saw that a hole the size of my fist was through her lung, the 
apex of the lung, and there was nothing I could do from that 
point.
    Ms. Jackson Lee. The gentlelady's time has expired.
    I thank all our Members. I think the witnesses can see the 
deepness of the passion permeates so many of us. I have been in 
the United States Congress for 24 years, and that means that I 
have a lot of personal wounds that do not, in any way, reflect 
the victims of gun violence who lost their lives. I was here 
for Columbine, when so many said that we were going to do 
something.
    Let me read this into the record. ``Between September 25th 
and October 1st, the day of the shooting, he stockpiled an 
arsenal of weapons, associated equipment, and ammunition that 
included 14 AR-15 rifles, all of which were equipped with bump 
stocks, 12 of which had 100-round magazines, 8 had AR-10 
rifles, a bolt-action rifle, and a revolver. A bump stock 
modifies a semi-automatic weapon so that it can shoot in rapid 
succession, mimicking automatic fire.''
    Mayor, thank you. You are on the ground. Tell us what might 
have happened if your officers had not run into the face of 
danger. I have a lot of questions, and so I welcome you going 
right to it, because we know it. I want the record to have it, 
to know how they saved lives but how they had to run directly 
in danger.
    Ms. Whaley. Thank you, Representative. The seven officers 
that ran to stop the shooter in 32 seconds saved countless 
lives, because where they stopped the shooter was right outside 
an entryway to a bar that hundreds had already shoved in and 
had no way of getting out. If we did not have, as I like to 
say, six good guys with guns, the amount of damage and death 
that would have happened could have been in the hundreds.
    Ms. Jackson Lee. You had a ban guy armed with an automatic 
weapon.
    Ms. Whaley. Exactly. You know, he still, in 32 seconds, 
even with those officers there, killed 9 and injured dozens 
more.
    Ms. Jackson Lee. Thank you. You are here supporting a ban 
on assault weapons?
    Ms. Whaley. Yes, ma'am.
    Ms. Jackson Lee. Chief, you heard me describe what the 
shooter in Las Vegas had. Mounted on a post, almost like he was 
in war, on a mountain, hiding, so that those who were making 
their way up would be in the range of danger. Tell me what, in 
God's name, one could imagine that any civilian needed those 
weapons, which resulted in 58 dead and the danger and loss of 
life even of law enforcement who had to run toward that danger.
    Chief Brackney. Absolutely. What he had was the ability to 
literally inflict the most amount of damage and be stable doing 
it. It is kind of hard to hold a weapon indefinitely. The 
weight starts to get to you. When you have the stabilizers and 
all the other things that assist you, you can do that for a 
very long time.
    When you want to talk about running towards danger, five 
officers were shot as they ran into the Tree of Life, 
attempting to disarm and neutralize the individual who then had 
killed 11 people at that point in time.
    Ms. Jackson Lee. He had an automatic weapon?
    Chief Brackney. He had one of those as part of those. He 
used predominantly his handgun there.
    Ms. Jackson Lee. He was armed with such that he could 
continue.
    Chief Brackney. That is exactly correct, that he had done 
the type of damage that he had done. Absolutely.
    Ms. Jackson Lee. You are an MD as well?
    Chief Brackney. Oh, no. No. That is the distinguished one. 
I am a Ph.D.
    Ms. Jackson Lee. All right. You are a Ph.D.
    Chief Brackney. Yes, ma'am.
    Ms. Jackson Lee. Well, we are grateful for your service 
with that knowledge as chief.
    Let me go to Dr. Rios-Tovar and let me offer you my 
sympathy. I am Texan. I came to El Paso. I saw some of your 
mastery in those who were alive. I visited victims in both 
hospitals who had those heinous shots, and I saw the personal 
wounds of their spirit, but, as well, the physical wounds.
    So, let me pose this for my good friends. I welcome the 
opposition testimony. That is what it is. I respect them 
because they are Americans. I am adamantly against assault 
weapons. I believe in a buy-back. I have no shame in that. And 
I believe that we can do this as Americans. I ask the National 
Rifle Association to stand with Americans.
    Let me give you this picture. Sandy Hook and the babies 
from 6 and 7 years old, were shot with an automatic weapon. 
Babies, first-graders. I am sorry to ask you this. What kind of 
wound would a child's body receive from an automatic weapon? 
You saw adults, and I am not sure if you saw a child. I know 
someone was wounded. Tell me about the size of the body, the 
mass of the body, and that bullet going into a child.
    Dr. Rios-Tovar. It is not something I would even want to 
think about imagining, but it would just be devastating. It is 
not something that I can answer. I am sorry.
    Ms. Jackson Lee. It would be worse than you could imagine.
    Dr. Rios-Tovar. Yeah.
    Ms. Jackson Lee. What it would be is an adult having a 
cavity--you were trying to explain. That is big holes in the 
body. Is that, not right?
    Dr. Rios-Tovar. That is correct.
    Ms. Jackson Lee. So, the mass of an adult is one or two or 
three times that of a child. I am not a physician. So, in the 
essence of a child, maybe the child physically would not be 
able to be contained.
    Dr. Rios-Tovar. I would--
    Ms. Jackson Lee. Trying to put it in its--
    Dr. Rios-Tovar. I would just be too horrific to describe.
    Ms. Jackson Lee. These are the assault weapons that we are 
here today trying to ban. To the witnesses, to Mr. Chipman, let 
me thank you. I did not ask you, but I am familiar with the 
National Firearm Act, and I think it can be a source of 
amendment for many of our legislative initiatives. I do believe 
in the enforcing of legislation in terms of gun trafficking, 
which makes some of our cities like Chicago and L.A. and other 
victims, because the guns are trafficked.
    I want to read this into the record as I thank the 
witnesses. Assault weapons account for 430, or 85 percent of 
the total 501 mass shooting fatalities. This is done by a group 
of doctors. This is research. In a linear regression model, 
controlling for yearly trend, the Federal ban period was 
associated with a statistically significant 9 fewer mass 
shootings related per 10,000. Mass shooting fatalities were 70 
percent less likely to occur during the Federal ban on assault 
weapons.
    The science is clear. The evidence is clear. The murder of 
our fellow Americans, the loss of life. The victims that are in 
this audience that have to listen over and over and over again 
about why we are not acting. We owe them something. This 
Committee is willing to pay the debt.
    I thank each and every one of you for staying this long and 
helping us to provide the testimony that will have us write, as 
we have already done, and pass an assault weapons ban.
    This concludes today's hearing. We thank all our witnesses 
for participating. Without objection, all Members will have 
five legislative days to submit additional written questions 
for the witnesses or additional materials for the record.
    With all our thanks, without objection, this hearing is now 
adjourned.
    [Whereas, at 1:40 p.m., the hearing was adjourned.]



      

                                APPENDIX

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

Ryan Servaites, March For Our Lives Co-Founder & Policy Fellow 
               House Judiciary Committee Hearing

    February 14th, 2:21 p.m.-2:21 p.m. is the official time 
that the Broward County Police Department says a shooter 
entered the freshman building of my high school, Marjory 
Stoneman Douglas. About 7 minutes later, at 2:28 p.m., the 
shooter had left the building, and with it, he left 17 of my 
classmates and teachers lying dead in the halls and classrooms 
that they used to call home. 17 innocent souls. 14 Teenagers. 
And 17 more injured, some not sure if they would survive the 
horrific wounds that they had sustained. That was my freshman 
year of high school. I was barely 15 years old. And I walked 
out of school that day not knowing how many classmates had lost 
their lives. Not knowing that 17 families would never see their 
loved ones again, that they would never be able to give them 
one last hug, one last kiss, one last embrace before they were 
taken away. That night, I slept with my door open, and although 
at the time I probably wouldn't have wanted to admit it, I was 
terrified. 7 minutes. 7 minutes is all it took for a shooter to 
end 17 lives. 7 minutes is all it took to injure 17 high school 
students and to traumatize an entire city.
    Think about that for one second. 17 people injured, and 17 
people left dead in 7 minutes. How in the world did a shooter 
inflict so much damage in so little time? He used an AR-15 
style assault rifle, the weapon of choice for those who commit 
heinous crimes similar to the horrific events that happened at 
my school. The AR-15, and weapons like it, have been used in 
the deadliest mass shootings in American history, from the 
Pulse nightclub shooting, a horrendous act of hate that left 49 
dead, to the Las Vegas shooting, which took 58 lives, to the 
Sandy Hook Elementary shooting, which took 27 lives, mostly 
young children (Appendix A).
    Gun violence is a complicated and multifaceted epidemic. 
Yet the magnitude of this epidemic is undeniably in part a 
result of the capacity for death that these assault weapons 
have. According to Bushmaster's own user manual, an AR-15 can 
fire off 45 rounds per minute. In the wrong hands, that is a 
potential 45 lives gone, 45 families destroyed, and entire 
communities with broken hearts, all in the span of 60 seconds. 
This is a weapon with a maximum effective range of 600 meters 
that has the ability to not just pierce tissue, but to shatter 
bone, to tear massive gaping holes in the flesh of innocent 
civilians just going about their daily lives, and as a result, 
to tear similarly gaping holes into the hearts of communities 
and families across the country. I fully understand the desire 
to keep oneself and one's family safe; in fact, I sympathize 
with it quite a lot. But if shattering bones and causing organs 
to explode doesn't seem excessive, then I don't know what 
could.
    Whenever someone falls victim to gun violence, entire 
communities suffer, and friends and families learn a pain that 
no one should ever have to learn. Assault weapons have the 
capacity to inflict this pain on a mass scale. Just imagine it 
for one second. Put yourself in the shoes of a parent, sibling, 
or friend who just found out that they had lost a loved one 
forever, that a person who filled them with joy and happiness 
is now gone. How would you feel? What would you do? Imagine 
finding out that your child will never come back home from 
school or from going out with their friends. What would you do 
to save your child? What lengths would you go to, with the 
power that you have, that the people of this country have 
trusted you with, in order to make sure that no one would ever 
have to feel the pain of losing someone that means so much to 
you? This is a pain that too many Americans, too many human 
beings experience every single day. You have the power to at 
least say that you tried, that you struggled, that you pushed 
and fought tooth and nail in the name of all those victims, 
families, and communities.
    These are weapons of war. These are weapons of hate. These 
are weapons of terror and pretending that there is no 
legislative route to trying to stop, or at least reduce, the 
damage from these mass shootings isn't just irresponsible, it's 
unacceptable. That is why we at March For Our Lives 
unequivocally support H.R. 1296 The Assault Weapons Ban of 
2019.
    I was in my Spanish class when the fire alarm went off on 
February 14th. I walked out of the school with my class, like 
it was any other fire drill, yet before I knew it, I was 
huddled down under a seat in our school auditorium, texting my 
parents goodbye, telling them I loved them.
    Looking around at the faces of the crouching children 
beside me, not knowing if these would be the last people I 
would ever interact with. Not knowing if I would be able to go 
home and hug my parents and my siblings, and tell them that I 
loved them, that I was happy to see them, that everything would 
be okay. I was lucky. 17 others were not. The rest of that 
year, because we lost a building full of classrooms, I had to 
spend every other day back in that auditorium, back in that 
place that I was terrified would be the last place I would ever 
see. I'm not just asking for change; I'm begging for it. 
Begging, because I don't want to live in a country where every 
other day I read about another community destroyed, another 
group of innocent lives ripped away from us. As Americans we 
owe it ourselves to do better, and we can.
    H.R. 1296 is a first step, and although I cannot say for 
sure that it would have prevented what happened at my school, 
it definitely would have helped mitigate the damage. Saving 
lives should be the top priority of this Congress and this 
Committee who are tasked with protecting the safety of the 
American people. We deserve action from a Congress that so far 
has shown itself to be complacent in these acts of horror, and 
in this case, change is knocking at your door.
    As a young activist, I am proud to say that I am part of a 
generation committed to change, focu ed on action, that cares 
about each other so much that we are willing to demonstrate and 
advocate on behalf of the experiences and trauma of one 
another. We've done our part. We've done the research, we've 
put in the work, we've organized, advocated, protested for the 
vision of a world where we are not afraid to go to school or to 
spend time with friends. We've proposed our Peace Plan for a 
Safer America, our comprehensive bold national approach to our 
nation's gun violence epidemic, crafted around this vision of 
what our world could, and should, be. It's a vision of the 
world where we can feel safe, where we can feel and be secure, 
as is our right. A world where 16-year-olds like me don't have 
to help comfort a friend because of a loud noise, a world where 
kids can be kids and not have to think about, much less prepare 
for, a potential mass shooting. To see a friend break down 
because of a fire alarm going off, to see an entire cafeteria 
full of people suddenly freeze up in anxious fear in response 
to a loud noise; these are traumas that no one should have to 
live through. Yet every day that we don't do something about 
this issue is another day that breeds more trauma, pain, and 
loss. These are not just assault weapons.
    They are family destroyers. They are child killers. They 
are the medium by which trauma spreads like wildfire throughout 
our Nation of terrified worshippers, of anxious school 
children, of people absolutely on edge, as a result of living 
their lives. Not a single 14-year-old should spend their final 
moments staring down the barrel of a machine that won't just 
take away their life, but that will do so in a horrendous and 
vicious way. These are horrific, gruesome weapons that have the 
ability to inflict pain with a magnitude far too large for 
comfort. This is our moment. This is our moment, as a nation, 
that we say enough is enough, and that we decide that giving a 
single individual the ability to take away the lives of 17 
others in the span of a few minutes absolutely absurd. The 
people of America are dying. The children of America are dying. 
My classmates are already dead. It's about time we do something 
about it.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

     FCNL Statement to the U.S. House Judiciary Committee, 
                   pertaining to its hearing:

    The Friends Committee on National Legislation's (FCNL) 
Quaker faith compels us to seek a society where every person's 
potential may be fulfilled. We believe that through the Spirit 
there is always a chance for reconciliation, rehabilitation and 
personal transformation. Too often, the presence of guns at 
critical times cuts short potential opportunities for 
redirection and renewal, resulting in tragic consequences. 
These principles guide our work on gun violence prevention. 
More specifically, these values lead FCNL to urge Congress to 
pass legislation that would ban assault weapons.
    Military style weapons are specifically designed to be used 
in a battlefield. There is no reason they should exist in our 
communities or our streets. Created for combat, assault weapons 
are designed to kill large numbers of people in a short period 
of time. As such, they are used disproportionately in mass 
shootings. Some of the deadliest mass shootings in America were 
committed with assault weapons: Las Vegas, NV; Orlando, FL; 
Newtown, CT; and Sutherland Springs, TX are just a few 
examples. Today, anyone can buy an assault weapon from 
unlicensed private sellers, including people with criminal 
records.
    A study of mass shootings between 1981 and 2017 found that 
assault rifles accounted for 86 percent of the 501fatalities 
reported in 44 mass shooting incidents.\1\ A 2018 study found 
that mass shooting fatalities were 70 percent less likely to 
occur between 1994 to 2004 when the assault weapons ban was in 
effect.\2\ Further, an assault weapons ban would have prevented 
314 of 448 mass shooting deaths that happened before or after 
the federal assault weapons ban of 1994.\3\
---------------------------------------------------------------------------
    \1\ https://everytownresearch.org/assault-weapons-high-capacity-
magazines/I/foot_note_6.
    \2\ DiMaggio, C., Avraham, J., Berry C., et al. Changes in US mass 
shooting deaths associated with the 1994-2004 Federal Assault Weapons 
Ban: analysis of open-source data. Journal of Trauma and Acute Care 
Surgery. 2019 Jan.; 86(1):11-19. https://www.ncbi.nlm.nih.gov/pubmed/
30188421.
    \3\ Ibid.
---------------------------------------------------------------------------
    Less access to assault weapons could result in less lethal 
or fewer crimes. Research on this issue remains scarce, and we 
need more information in order to learn more. However, a 2017 
study estimated that, when taken together, assault weapons and 
high capacity magazines account for 22-36 percent of guns used 
in crimes.\4\ It's only by reducing the amount and deadliness 
of weapons in our society that we can make progress towards 
making our communities safer.
---------------------------------------------------------------------------
    \4\ Koper, C., Johnson, W., Nichols, J., et al. Criminal Use of 
Assault Weapons and High-Capacity Semiautomatic Firearms: An Updated 
Examination of Local and National Sources. Journal of Urban Health. 
2018 June; 95(3): 313-321. https://link.springer.com/article/10.1007/
s11524-017-0205-7.
---------------------------------------------------------------------------
    An assault weapons ban is a necessary step to reducing gun 
violence in our communities, particularly the most gruesome 
violence. Congress must uphold its moral obligations and take 
meaningful action to prevent more tragic violence at the hands 
of guns. We urge Congress to mark up and pass the Assault 
Weapons Ban of 2019 (H.R. 1296). We are long past the time for 
Congressional action on this issue. The level of gun violence 
that we see across our country is not normal, and it is not 
outside of our control. Only by enacting substantive 
legislation can we begin to tackle the complex problem of gun 
violence in our country and our society. There is no need for 
weapons of war to be in our communities and in our streets. We 
are ready to work with Congress to help make this a reality.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




                                 <all>
</pre></body></html>
